<html>
<title> - DETECTING NUCLEAR WEAPONS AND RADIOLOGICAL MATERIALS: HOW EFFECTIVE IS AVAILABLE TECHNOLOGY?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       DETECTING NUCLEAR WEAPONS
                      AND RADIOLOGICAL MATERIALS:
                 HOW EFFECTIVE IS AVAILABLE TECHNOLOGY?

=======================================================================

                             JOINT HEARING

                               before the

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                                with the

          SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, AND SCIENCE,
                             AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2005

                               __________

                           Serial No. 109-23

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
25-356                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007

                               __________



                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island,
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Christopher Cox, California (Ex      Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                    Peter T. King, New York Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Dave G. Reichert, Washington         Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Charlie Dent, Pennsylvania           Islands
Christopher Cox, California (Ex      Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     6
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, Chairman, Subcommittee on Emergency 
  Preparedness, Science, and Technology..........................     5
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science and Technology..............     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, Chairman, Committee on Homeland 
  Security:
  Prepared Opening Statement.....................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................    65
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    68
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    70
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    73
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    71
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    76
The Honorable Stevan Pearce, a Representative in Congress from 
  the State of New Mexico........................................    67
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    74
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    64

                               WITNESSES
                                PANEL I

Mr. Gene Aloise, Director, Natural Resources and Environment, 
  Government Accountability Office:
  Oral Statement.................................................     9
  Prepared Sttement..............................................    11
Ms. Bethann Rooney, Manager, Port Security, Port Authority of New 
  York and New Jersey:
  Oral Statement.................................................    33
  Prepared Sttement..............................................    35
Dr. Benn Tannenbaum, American Association for the Advancement of 
  Science:
  Oral Statement.................................................    40
  Prepared Sttement..............................................    42
Dr. Richard L. Wagner, Jr., Chair, Defense Science Board Task 
  Force on Prevention of,and Defense Against, Clandestine Nuclear 
  Attack and Senior Staff Member, Los Alamos National Laboratory:
  Oral Statement.................................................    26
  Prepared Sttement..............................................    28

                                PANEL II

Mr. Michael K. Evenson, Acting Director, Combat Support 
  Directorate, DTRA, Department of Defense:
  Oral Statement.................................................    89
  Prepared Sttement..............................................    90
Mr. David Huizenga, Assistant Deputy Administrator, International 
  Materials Protection and Cooperation, National Nuclear Security 
  Administration, Department of Energy:
  Oral Statement.................................................    83
  Prepared Sttement..............................................    85
Mr. Vayl Oxford, Acting Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security:
  Oral Statement.................................................    78
  Prepared Sttement..............................................    80

                             FOR THE RECORD

Questions Submitted from the Honorable Norm Dicks, for Mr. Vayl 
  Oxford Responses...............................................   102


                       DETECTING NUCLEAR WEAPONS
                      AND RADIOLOGICAL MATERIALS:
                       HOW EFFECTIVE IS AVAILABLE
                              TECHNOLOGY?

                              ----------                              


                         Tuesday, June 21, 2005

                  House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Prevention of Nuclear and Biological Attack
                                           with the
                                  Subcommittee on Emergency
                     Preparedness, Science, and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:25 p.m., in 
Room 210, Cannon House Office Building, Hon. John Linder 
[chairman of the Subcommittee on Prevention of Nuclear and 
Biological Attacks] presiding.
    Present: Representatives Linder, King, Lungren, Gibbons, 
Simmons, Pearce, Jindal, Reichert, McCaul, Dent, Langevin, 
Pascrell, Markey, Christensen, Etheridge, and Thompson.
    Mr. Linder. The joint hearing of the Committee on Homeland 
Security, Subcommittee on Prevention of Nuclear and Biological 
Attack and the Subcommittee on Emergency Preparedness, Science, 
and Technology will please come to order. I see we do not have 
enough seats for all of our guests, but those who can find a 
seat, please do.
    I would like to thank our witnesses today and thank the 
distinguished gentleman from New York, Mr. King, who chairs the 
Subcommittee on Emergency Preparedness, Science, and 
Technology, for jointly holding this hearing. I look forward to 
your expert testimony regarding our efforts to deploy and 
develop technology to detect attempts by terrorists to smuggle 
a nuclear weapon or fissile material into the United States.
    I am a strong believer in the power of technology, because 
it will be an important key to success in the war against 
terrorism. However, there is a dark side to the astounding 
progress of S&T. The rapid pace of technological development is 
the greatest single reason that terrorists must be taken more 
seriously than ever before, because terrorists will eventually 
have access to that technology. From the past seven hearings 
and classified briefings that my subcommittee has held on 
nuclear terrorism, it has been made obvious that terrorists 
have access to science, technology and to scientists.
    Let me begin with a few facts about our borders. The U.S. 
shares a 2,000-mile border with Mexico and with Canada, 5,000 
miles. We have 157 designated legal points of entry; 361 
seaports, including 77 container seaports. We let 440 million 
visitors arrive by land, sea and air each year; 118 million 
vehicles, 11 million trucks, 2.5 million rail cars, 7 million 
cargo containers enter our ports annually. The length of the 
U.S. border, including coasts and lakes, is about 20,000 miles.
    My greatest concern is that we are moving forward with 
deploying technology that may catch the inept terrorists that 
attempt to smuggle a nuclear device or fissile material through 
our legal points of entry and miss the smart one that will slip 
in illegally with a pickup truck or a small boat to then 
construct and detonate a bomb in the United States.
    However, I firmly believe that we must invest in technology 
that would drastically limit avenues for smuggling a nuclear 
device into this country. I do not hold the notion that a 
terrorist that has gone to great lengths to acquire a nuclear 
device or fissile material is going to simply pack it in a 
random bale of marijuana and try to slip it into the country. 
Terrorists attempting to smuggle a nuclear weapon into the 
United States most likely only have one or a few weapons and 
will go to great lengths to limit the risk of being discovered.
    We must intelligently invest in detection technology and 
its deployment. I hope that we will discuss here today what 
kinds of detection technology we should invest in and how to 
leverage our technology options to create an architecture that 
maximizes the probability that we will deter smuggling and 
intercept a nuclear device.
    Our challenges are many. However, our investments in our 
national and academic labs, our strong partnerships with the 
private sector can and have provided us technological 
solutions. We must take this opportunity to invest wisely and 
not squander our scarce resources.
    I look forward to the discussion with our experts and 
government witnesses to help this committee understand the many 
questions it has. Do we deploy plastics or the more expensive 
sodium iodide gamma ray detectors? Should we use active or 
passive interrogation? Should we invest in detectors for non-
nuclear physical attributes? How can we use an array of these 
options to maximize detection?
    It is not necessary to the terrorists' chance of success 
that they be on the cutting edge of technology. They will not 
need to have the world's most sophisticated technology in the 
year it comes out. They just need to know enough and have the 
sophistication to succeed in eluding us just once. However, to 
win the war on terrorism, we must constantly exploit our 
technological lead.
        Prepared Opening Statement of the Honorable John Linder

    I would like to thank our witnesses today and recognize the 
distinguished Gentleman from New York, Mr. King, who chairs the 
Subcommittee on Emergency Preparedness, Science, and Technology for 
jointly holding this hearing.
    I look forward to your expert testimony regarding our efforts to 
deploy and develop technology to detect attempts by terrorist to 
smuggle a nuclear weapon or fissile material into the United States.
    I'm a strong believer in the power of technology, because it will 
be an important key to success in the war against terrorism. However, 
there is a dark side to the astounding progress of S&T. The rapid pace 
of technological development is the greatest single reason that 
terrorists must be taken more seriously than ever before. Because 
terrorists will eventually have access to technology that is being 
developed today.
    From the past seven hearings and classified briefings that my 
subcommittee has held on nuclear terrorism it has been made obvious 
that terrorist have access to science, technology and scientists.
    Let me begin with a few facts about our borders:

        <bullet> The U.S. shares a 2,000 mile border with Mexico and 
        the northern border with Canada stretches 5,000 miles.
        <bullet> We have 157 designated legal ports of entry.
        <bullet> 361 seaports, including 77 container seaports.
        <bullet> About 440 million visitors arrive by land, sea, and 
        air each year--118 million vehicles, 11 million trucks, 2.5 
        million railcars, and 7 million cargo containers cross through 
        our ports annually.
        <bullet> Length of the U.S. border including coasts and Lakes--
        about 20,000 miles
    My greatest concerns is that we are moving forward with deploying 
technology that may intercept an inept terrorist that attempts to 
smuggle a nuclear device or fissile material through our legal ports of 
entry and miss the smart one that will slip illegally with a pick up 
truck or a small boat--to then construct and detonate a bomb within the 
United States.
    However, I firmly believe that we must invest in technology that 
would drastically limit the avenues for smuggling a nuclear device into 
this country. I do not cater to the notion that a terrorist that has 
gone to great lengths to acquire a nuclear device or fissile material 
is going to simply pack it in a random bale of marijuana and try to 
slip it into the country. Terrorists attempting to smuggle a nuclear 
weapon into the United States, most likely only have one or a few 
weapons and would go to great lengths to limit the risk of being 
discovered.
    The value of a nuclear weapon to the terrorist provides us an 
opportunity which can be exploited. This means we must intelligently 
invest in detection technology and its deployment. I hope that we will 
discuss here today what types of detection technology we should invest 
in and how to leverage our technology options to create an architecture 
that maximizes the probability that we will deter smuggling and 
intercept a nuclear device.
    Our challenges are many, however, our investments in our National 
and Academic labs and our strong partnerships with the private sector 
can and has provided us technology solutions. We must take this 
opportunity to invest wisely and not squander our scarce resources.
    I look forward to the discussion with our experts and government 
witnesses to help this committee answer the many questions it has: Do 
we deploy plastics or the more expensive sodium iodide gamma-ray 
detectors? Should we use active or passive interrogation? Should we 
invest in detectors for non-nuclear physical attributes? How can we use 
an array of these options to maximize detection?
    It is not necessary to the terrorist's chances of success that they 
be on the cutting edge of technology. They will not need to have the 
world's most sophisticated technology in the year it comes out. They 
just need enough sophistication to succeed to elude us once. However, 
we can win the war on terrorism if we constantly exploit our 
technological lead.

    The Chair now recognizes the ranking member of the S&T 
subcommittee, Mr. Pascrell, for any comments he chooses to 
make.
    Mr. Pascrell. Thank you, Mr. Chairman. Thank you, Chairman 
King. On behalf of the minority, thank you for holding this 
hearing today on this very important subject of technology and 
equipment to monitor radiation at our Nation's ports.
    Since 9/11, we have spent literally hundreds of millions of 
dollars on radiation portal monitors, and this fact alone 
demands rigorous oversight on the part of the Congress. I 
applaud both subcommittees for taking action.
    While DHS should be commended for confronting the 
challenges of our changed world and taking immediate action to 
get this technology to our Nation's ports, an abundance of 
recent evidence suggests that the technology used may not 
actually meet the needs at hand. It is the responsibility of 
the Congress to ensure that we are getting our money's worth.
    In fiscal year 2006, the administration requested $125 
million to purchase an additional 279 radiation portal 
monitors, which the House agreed to do within its Homeland 
Security appropriations bill. DHS began deploying these 
monitors in 2002 to mail facilities on the northern border. But 
from the beginning, this equipment has been plagued by 
problems, problems that are so severe that the government is 
now testing technologies to upgrade or replace the equipment 
recently installed.
    For example, the equipment that is currently in place 
cannot distinguish between a nuclear bomb and radiation that 
occurs naturally in items such as ceramic tile and cat litter. 
These nuisance alarms have caused some Border Patrol officials 
to adjust the sensitivity of the monitors downward, thus 
limiting their effectiveness.
    In February of 2004, the Department of Homeland Security 
adopted standards for radiological and nuclear detectors. At 
the same time, Under Secretary for Customs and Border 
Protection Asa Hutchinson said that ``These standards will 
facilitate our ability to ensure that equipment meets rigorous 
standards and supports the quick deployment of the best 
equipment available.''
    I always applaud the development of robust standards, but 
should these standards not have been developed before the 
equipment was deployed?
    The committee will hear from representatives from three 
different Federal agencies. I am very interested in hearing 
from these witnesses about their roles and to what degree they 
can coordinate their efforts.
    One of these agencies is the Domestic Nuclear Detection 
Office. The mission of this office is to address many 
radiological and nuclear protective measures, but it is 
predominantly focused on nuclear detection. This includes 
establishing strong relationships across multiple departments 
and levels of government. I hope that this office, this 
Domestic Nuclear Detection Office, will ensure that conflicts 
are minimized among the agencies involved in this issue.
    I look forward to hearing from all of our witnesses, 
especially from Bethann Rooney from the New York-New Jersey 
Port Authority.
    While we consider the deployment of radiation detection 
technology, it is imperative that we hear from the 
practitioners who are actually using the equipment. I am very 
interested in learning about the training that CBP inspectors 
or Port Authority police receive on this equipment as well. I 
am very interested in learning and hearing the Port Authority's 
experiences with the equipment.
    It is my understanding that seaports have been the most 
difficult environment to deploy this equipment. How well did 
DHS work with the Port Authority? Are they experiencing the 
same problems of false, nuisance alarms? Do they have any 
suggestions on how the deployment process could improve?
    Again, thank you, Chairman King and Chairman Linder.
    We have been joined by Ranking Member Jim Langevin.
    Mr. Linder. Thank you, Mr. Pascrell.
    The Chair now recognizes the Chairman of the Subcommittee 
on Emergency Preparedness, Science, and Technology, the 
gentleman from New York, Mr. King, for any comments he might 
wish to make.
    Mr. King. Thank you, Chairman Linder. Let me commend you 
for your leadership on prevention issues, and Ranking Member 
Langevin and the ranking member of my subcommittee, Bill 
Pascrell, for their willingness to hold this joint hearing to 
examine the Federal Government's efforts to protect us from 
nuclear or radiological attacks.
    I also want to welcome and thank our distinguished 
witnesses for appearing here today to discuss this issue which 
is of such vital importance to all of us.
    Like Bill Pascrell, I want to acknowledge Bethann Rooney, 
the Manager of Security for the Port Authority. As a New York 
resident, I want to thank her for keeping us safe. I know that 
Bill, who is from New Jersey, both of us have a particular 
vested interest in you doing your job, and I want to thank you 
for the job that you have done.
    In the interest of time, I am going to keep my remarks 
brief. But it goes without saying that the risk of a terrorist 
acquiring and detonating a nuclear or radiological device is 
one of the gravest threats to our Nation.
    To prevent a catastrophic nuclear or radiological attack, 
the U.S. has begun implementing a three-tiered strategy focused 
on securing nuclear weapons and radiological materials at their 
source, detecting the illicit movement of nuclear or 
radiological materials overseas, and enhancing our domestic 
detection and interdiction efforts. The installation and use of 
radiation portal monitors, RPMs, and other radiation detection 
technologies is a key component of each tier of the strategy, 
and this fact is at the very heart of this afternoon's hearing.
    Our Nation's reliance on RPMs and other detection devices, 
though, raises numerous questions, one, how effective is 
currently deployed technology at detecting certain radiological 
materials? What is the time frame for developing technologies 
that can detect illicitly trafficked nuclear material shielded 
by lead and other metals? How are the Federal agencies 
coordinating their RPM programs?
    I am especially curious as to why the Departments of 
Homeland Security, Energy and Defense each need multiple 
separate test beds. Isn't such a duplication a waste of 
precious resources? Will the Department of Homeland Security's 
new Office of Domestic Nuclear Detention, DNDO, enhance 
coordination among Federal agencies or just add one more layer 
of bureaucracy?
    Also--Congressman Pascrell commented on this--what kind of 
training does the Federal Government provide to port employees, 
border security personnel, first responders and others to 
operate radiation detection equipment? It is a truism that 
technology is only as effective as the people operating it.
    Even if radiation detection technology could be 100 percent 
effective, can RPMs guarantee our safety? Even with a domestic 
system in place, terrorists could detonate a nuclear device in 
a port before the cargo could be inspected. Wouldn't it be more 
sensible to check for radiation when the cargo ships are still 
out at sea?
    Regardless of the technology's effectiveness, should the 
Federal Government be spending up to $1 billion to deploy such 
technology at every point of entry into the United States? Even 
with the most robust system, couldn't a terrorist simply just 
carry materials across an unprotected part of our land border 
with Canada or Mexico?
    These are the various questions out there. No one suggests 
the answers are easy, but it is hearings such as this that get 
to the root of the problems which do affect our Nation.
    So I am eager to hear your answers to these and other 
questions. I look forward to working with all of you on these 
important issues.
    Mr. Linder. I thank the gentleman.
    The Chair now recognizes my partner on this committee, the 
ranking member, Mr. Langevin from Rhode Island.
    Mr. Langevin. Thank you, Chairman Linder. Let me just thank 
all of our witnesses for appearing today. I certainly look 
forward to hearing your testimony.
    I continue to believe that the threat of nuclear terrorism 
is very real and that our government must move aggressively if 
we are going to prevent a nuclear or radiological attack on our 
shores.
    This will be the subcommittee's fourth hearing on the 
nuclear threat. After listening to many experts in both open 
and closed sessions, who have testified before us, I believe 
that the administration is not doing enough in terms of moving 
with the sense of urgency required to stay ahead of the 
terrorists. Not only is the administration not moving fast 
enough, but in some ways it appears it is operating in a 
vacuum.
    Today's hearing will focus on the effectiveness of the 
radiation equipment deployed at our ports of entry. I know a 
great deal of attention will focus on the technical limitations 
of the equipment, such as radiation portal monitors. I think in 
fairness, though, we should state that these machines can 
detect the materials used in a dirty bomb, including plutonium.
    But what is more alarming to me than the device's 
limitations is the speed at which they are deployed. Also the 
lack of detection strategy and the lack of resources needed to 
ensure that the best technology is being used in the field.
    Just 3 weeks ago, Secretary Chertoff was at the Port of Los 
Angeles-Long Beach, and he stated the port will have a full 
complement of radiation portal monitors by December 2005. That 
means that it would have taken the administration more than 4 
years after 9/11 to ensure that two of the largest seaports in 
the country have the ability to screen containers for nuclear 
or radiological material. I also understand that the Port of 
New York-New Jersey still does not have full coverage, and this 
is simply unacceptable.
    In addition, there is no overarching nuclear detection or 
interdiction strategy that drives the deployment or detection 
of equipment. Currently you have many government agencies 
involved in nuclear detection without a framework that ensures 
that all agencies are operating in an integrated fashion. We 
need a big-picture strategy to ensure that each layer in our 
defense is adequately covered.
    The administration has created a Domestic Nuclear Detection 
Office, or DNDO, but it doesn't appear that this office is 
responsible for developing and executing a national strategy.
    Finally, our detection capability will only be as good as 
the resources that are dedicated to it. Much more must be done 
from an R&D standpoint.
    The administration's request for the new DNDO is $227 
million. That is $273 million less than what is spent in Iraq 
in one day. If we are going to adequately deal with this 
threat, we have to ensure that our government is investing in 
the research required to develop and deploy the best technology 
available to our borders and our ports. This cannot be a case 
where our technology goes to the lowest bidder. The threat is 
too serious, and we all know that the terrorists are not going 
to wait for us to act. We must move with a sense of heightened 
urgency to deal with this threat now.
    I think today's hearing is a good start, and I look forward 
to hearing from our witnesses.
    Thank you, Mr. Chairman. I yield back.
    Mr. Linder. I thank the gentleman. Did the gentleman from 
Mississippi wish to make a statement?
    Mr. Thompson. No, Mr. Chairman. I have a statement for the 
record.
    Mr. Linder. Okay. I would like to remind the rest of the 
members, statements for the record on your behalf are welcome.
    [The information follows:]

    Prepared Opening Statement of the Honorable Christopher Cox, a 
Representative in Congress From the State of California, and Chairman, 
                     Committee on Homeland Security

    Thank you, Mr. Chairman. And I would also like to welcome and thank 
our witnesses for appearing today before this joint Subcommittee 
hearing to discuss this important issue and answer our questions.
    The risk of a terrorist acquiring and using a nuclear or 
radiological device is one of the greatest threats to our Nation. To 
prevent such an attack, we have sought to develop a robust layered 
defense--recognizing that there is no single, 100 percent solution. 
Under President Bush's leadership, our Nation's efforts to date include 
eliminating excess stocks of nuclear materials and weapons, protecting 
existing stocks from theft or diversion, detecting the illicit movement 
of nuclear or radiological materials overseas through both active and 
passive efforts, enhancing our detection and interdiction efforts here 
at home, and improving the security of our borders, ports, and cargo 
transportation systems.
    Today, we will focus on one part of this multi-pronged strategy--
the deployment of radiation and nuclear detection technologies at key 
transit points at home and abroad. For the first time, representatives 
from the Department of Homeland Security (DHS), the Department of 
Energy (DOE), and the Department of Defense will be at the same witness 
table to talk about the various efforts the Federal government has 
underway to detect nuclear or radiological materials and prevent them 
from entering the United States. Each Department has its own program 
and area of responsibility, but today we will explore the level of 
coordination and harmonization among these programs.
    In particular, each of the Departments represented here today has 
its own initiative to install or deploy, whether at home or abroad, 
Radiation Portal Monitors (RPMs) and other radiation detection 
equipment at seaports, land border ports of entry and crossings, 
international airports, international mail facilities, and other 
critical facilities in an effort to detect smuggled nuclear or 
radiological materials.
    DHS, alone, plans to deploy a domestic, nationwide system of RPMs 
in an attempt to screen 100 percent of all incoming goods and cargo for 
such materials. While its initial plan called for a total cost of under 
$500 million and had a 2005 completion date, the latest revisions 
suggest a much costlier and lengthy project execution plan, with many 
unanswered technology questions. We need to fully understand this 
strategy and plan, and how it relates to DOE's efforts overseas, before 
proceeding further.
    Each of the Departments represented here today also has a slightly 
different idea about which RPM technology is best and how it should be 
deployed. We need to know why. Does this make sense? Are our various 
Federal efforts sufficiently coordinated?
    Currently, we have numerous National laboratories and research 
facilities working on similar nuclear detection technology issues, 
under the direction of several different Federal agencies. While 
competition is useful to a point, we also need to ensure that we are 
leveraging these R&D investments most effectively.
    Similarly, there are questions regarding the efficacy of current 
and next-generation RPMs, as well as other radiation detection 
technologies such as Personal Radiation Dectectors (PRDs), and handheld 
isotope identifiers. Various elements of DHS are deploying these 
devices at significant cost, but are these investments worth it, and do 
the CBP and Coast Guard officers using these devices fully understand 
their limits?
    Mr. Chairman, let me close by emphasizing that we must never forget 
that the common denominator in all terrorist acts, of whatever kind or 
consequence, are the terrorists. Since there is no technology plan or 
strategy that will provide 100% protection against nuclear smuggling, 
these passive detection efforts--while important--must continue to be 
part of an integrated strategy that puts appropriate emphasis on 
offensive and active tracking, detection, and interdiction of the 
terrorists themselves. And it is within this broader context that 
radiation detection technology deployment must be considered.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses and examining these important issues today, and as we 
continue to explore them in the future.

    Mr. Linder. We will now turn to our panel of expert 
witnesses. Mr. Gene Aloise is the Director of Natural Resources 
and Environment at the GAO. He is the GAO's recognized expert 
on international nuclear nonproliferation and safety issues.
    Dr. Richard Wagner is a Senior Staff Member with the Los 
Alamos National Laboratory, based in D.C. He was a founding 
member of the Threat Reduction Advisory Committee of the Office 
of the Secretary of Defense and Chair of the Defense Science 
Board Task Force on the Prevention of, and Defense Against, 
Clandestine Nuclear Attack.
    Ms. Bethann Rooney is the Manager of Port Security for the 
Port Authority of New York and New Jersey. She is responsible 
for implementing and managing a comprehensive port security 
program and setting the strategy for the future of port 
security.
    Dr. Ben Tannenbaum is a Senior Program Associate with the 
Center For Science, Technology and Security at the American 
Association for the Advancement of Science. He received his 
Ph.D. in particle physics from the University of New Mexico.
    We welcome you all. Thank you for being here. We are happy 
to have you.
    Mr. Linder. Mr. Aloise, if you would like to begin. We 
would like to try and have you keep within the 5-minute rule. 
We have your written statement for the record. You can start 
out how you choose.

   STATEMENT OF GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I am pleased 
to be here today to discuss our work assessing U.S. efforts to 
combat nuclear smuggling at home and in other countries through 
the deployment of radiation detection equipment at border 
crossings and other ports of entry.
    The threat that nuclear or radiological material can be 
smuggled across our borders is a real one and could happen in 
several ways. Nuclear material could be hidden in a car, truck, 
train or ship, carried in personal luggage through an airport, 
or walked across an unprotected border.
    My remarks today, which are based on our previous work in 
this area, will focus on the activities of U.S. Federal 
agencies deploying radiation detection equipment at home and in 
other countries, problems with coordination and planning among 
these agencies, and the effectiveness of radiation detection 
equipment deployed in the United States and other countries.
    Four U.S. agencies--DOE, DOD, State and DHS--are deploying 
radiation equipment and training border security personnel. 
Over the past 10 years, the Congress has appropriated about 
$500 million for international efforts and about $300 million 
for domestic efforts.
    Initial concerns about the threat posed by nuclear 
smuggling were focused on the former Soviet Union and Central 
and Eastern Europe. As a result, in 1998, DOE created the 
Second Line of Defense program which, through the end of 2004, 
had installed equipment at 66 sites, mostly in Russia. In 2003, 
DOE implemented its Megaports Initiative, which focuses on 
major foreign seaports and, to date, has completed work at two 
ports and is equipping five others.
    Regarding the installation of this equipment at U.S. ports 
of entry, the U.S. Customs Service began providing inspectors 
with radiation detection pagers in 1998 and expanded its 
efforts after 9/11. Just last month, DHS reported that it has 
installed more than 470 portal monitors nationwide. Efforts to 
deploy radiation detection equipment at home and abroad did not 
start smoothly, and lacked effective coordination and planning.
    On the international side, one of the most troubling 
consequences of lack of coordination is that DOE and DOD were 
installing better equipment in some countries than the State 
Department installed in others. Specifically, DOE installed 
equipment in one country and DOD installed similar equipment in 
another country that is better able to detect weapons, usable 
HEU and plutonium than the less-sophisticated radiation 
detection equipment State has installed in more than 20 other 
countries.
    Since our report was issued, coordination has improved, 
though it is still a concern; and while better planning has 
occurred, in March of this year we reported that DOE's 
Megaports Initiative did not include a comprehensive, long-term 
plan to guide its efforts.
    On the domestic front, we found that DHS had not 
coordinated with other Federal agencies and DOE national 
laboratories on long-term goals, including improving the 
radiation technology and portal monitors.
    This brings me to the subject of the effectiveness of the 
current generation of radiation detection equipment. It is well 
known that the equipment now being deployed in the United 
States and abroad has limitations. Furthermore, the ways in 
which the equipment is deployed, operated and maintained can 
also limit its effectiveness.
    Our work has identified problems not only with the 
equipment, but the way the inspectors have used the equipment 
as well, including allowing vehicles to pass through portals at 
high speeds, excessively reducing the sensitivity of portal 
monitors to limit the number of nuisance alarms, and using 
radiological detection pagers for purposes they were not 
designed for. In addition, environmental conditions, such as 
cold climates, high winds and sea spray can affect the 
equipment's performance.
    It is important to note that radiation detection equipment 
is only one of the tools that Customs inspectors and border 
guards use to combat nuclear smuggling. Proper training and 
intelligence are key and are vital.
    Furthermore, our first line of defense are U.S. programs to 
secure nuclear material at its source, both in the former 
Soviet Union and the United States. Radiation detection 
programs complement these other programs.
    Thank you, Mr. Chairman and members of the subcommittee. 
That concludes my statement. I would be happy to respond to any 
questions you may have.
    Mr. Linder. Thank you, Mr. Aloise.
    [The statement of Mr. Aloise follows:]

    [GRAPHIC] [TIFF OMITTED] T5356.016
    
    [GRAPHIC] [TIFF OMITTED] T5356.017
    
    [GRAPHIC] [TIFF OMITTED] T5356.018
    
    [GRAPHIC] [TIFF OMITTED] T5356.019
    
    [GRAPHIC] [TIFF OMITTED] T5356.020
    
    [GRAPHIC] [TIFF OMITTED] T5356.021
    
    [GRAPHIC] [TIFF OMITTED] T5356.022
    
    [GRAPHIC] [TIFF OMITTED] T5356.023
    
    [GRAPHIC] [TIFF OMITTED] T5356.024
    
    [GRAPHIC] [TIFF OMITTED] T5356.025
    
    [GRAPHIC] [TIFF OMITTED] T5356.026
    
    [GRAPHIC] [TIFF OMITTED] T5356.027
    
    [GRAPHIC] [TIFF OMITTED] T5356.028
    
    [GRAPHIC] [TIFF OMITTED] T5356.029
    
    [GRAPHIC] [TIFF OMITTED] T5356.030
    
    Mr. Linder. Dr. Wagner.

STATEMENT OF DR. RICHARD L. WAGNER, JR., CHAIR, DEFENSE SCIENCE 
    BOARD TASK FORCE ON PREVENTION OF, AND DEFENSE AGAINST, 
                   CLANDESTINE NUCLEAR ATTACK

    Dr. Wagner. Thank you, Mr. Chairman. I am gratified that 
your two subcommittees are addressing this problem. I have 
worked on this problem now, the problem of defending the 
country against--
    Mr. Linder. Doctor, your mike is not on.
    Dr. Wagner. I am sorry. I thought it was. Is it working 
now?
    Thank you very much.
    I am gratified that these subcommittees are working on this 
problem. I have, for 33 years now, I think it is, been involved 
in activities to defeat this threat, until about--well, 
unfortunately, it took the events of 9/11 before the government 
and the country began to pay attention to it. So I am gratified 
to see your committee and the executive branch are now finally 
trying to pay attention to it.
    You have my prepared statement. It is clear to me from your 
statements that you are thinking ahead of this problem. So what 
I would like to do in my few minutes allotted here is not 
paraphrase my prepared statement, but try to address two or 
three of the points you made. I may regret this, because I am 
not sure I am going to be articulate enough to do it well, but 
I will try.
    Chairman Linder, you used the word ``deterrence,'' and I 
think that since no defense, no matter how much money we spend 
on the technology and the deployments, is going to be perfect, 
it is important for us to build it and deploy it and operate it 
in such a way that it enhances deterrence. That means creating 
an uncertainty in the mind of the attacker as to what the best 
way to penetrate the defense is. That uncertainty can be 
created either by accident or by deliberate actions.
    I think that those developing this system ought to put more 
attention than I believe they are putting on methods to 
deliberately deploy and operate the system in ways that create 
uncertainty on the part of the detector. I think that is an 
important subject for the Congress to look at. It would have to 
be done in closed hearings.
    Second, Chairman King, you asked how fast can we get to 
improved detectors? In my prepared statement and the Defense 
Science Board Task Force that I chaired, both assert that it is 
possible to improve detection technology by a lot, think a 
factor of 10 better, although the metric for exactly what you 
mean by a factor of 10 is a little fuzzy.
    But, Chairman King, you asked, how fast can we get to 
better technology. And, Mr. Pascrell, you suggested that 
developing better standards should be done before the equipment 
is deployed.
    To me, the administration in its management of this work 
and the Congress are going to have to walk a fine line between 
exercising too little and too much oversight. To develop 
standards too soon means that they won't be right. The 
standards will have to be developed in an iterative way, where 
systems are put in the field, worked with, the flaws are seen 
and then preliminary standards are developed; and then the next 
generation of testing the equipment in the field to those 
preliminary standards will lead to firmer standards. So that is 
an iterative process.
    I believe you and the executive branch are going to have to 
recognize that there will be false starts and there will be 
money wasted. If you and they try too hard to eliminate all 
mistakes, we will not end up with a system that protects this 
country, or we will end up with it in 500 years and we won't 
have it when we need it.
    So I believe you are going to have to find some way--and I 
don't have a prescription for you--for finding just the right 
degree of oversight, but not too much. The same for the 
executive branch. The key to that is getting some good people 
in place, leaving them in place and building trust between 
yourselves and them; and that is a two-way street.
    Let me comment on Mr. Langevin's comment on the amount of 
money that is available. I am not carrying a brief for the 
administration's programs here, I think they have been too 
slow, not just for the last 4 years, but for the last 20-
something years, but I believe the administration's request for 
R&D in this area for fiscal 2006 is about right. That will be 
really kind of the first year, in which if the Appropriations 
Committees fund at the appropriate level, at that level, it 
will be really the first year for a serious program.
    I think you could expect, however, that the administration 
requests for R&D might go up in the years beyond that in order 
to reach what I will call the ``technology limit,'' as opposed 
to the funding limit approach to developing these technologies.
    Chairman King, you mentioned also that you would prefer to 
see checks for radiation while the cargo ships are at sea. I 
think that is a crucially important theme to pursue. I think 
that there have been two or three approaches brought to my 
attention, one by a graduate student--no, he was an 
undergraduate student at the time, at MIT--for doing that job 
in a pretty clever way. I think that more attention should be 
devoted to developing methods of detection at sea. And, in 
general, the farther out we can beat this threat, the better. I 
don't want them to get even as close as the ports, and I would 
prefer they not get the threat objects onto the ship to begin 
with.
    To do that, to defend as far forward as possible, DOE has 
programs for second lines of defense and their Material 
Protection and Control programs, and the Nunn-Lugar activities 
are crucially important and have to be woven into an overall 
global architecture for dealing with this problem.
    Then, finally, let me say with regard to beating the threat 
far away from our shores, the Department of Defense is going to 
have to play an important role in doing that. Many of the 
scenarios, I think, that could lead to attacks like this will 
involve failed regimes, let's say, in which DOD might want to 
take action forward, should have the capability to take action 
forward.
    The DOD is beginning to step up to this problem in several 
ways. I chaired the Defense Science Board Task Force, which 
reports to the Secretary of Defense, so I am involved in this. 
DOD has recently assigned the responsibility for their programs 
for combating WMD to the United States Strategic Command at 
Omaha. I am on their advisory committee as well, and I think it 
is crucially important for DOD to continue to step forward on 
this problem, and I would suggest that your committee might 
want to help them do that.
    Thank you.
    Mr. Linder. Thank you, Dr. Wagner.
    [The statement of Mr. Wagner follows:]

              Prepared Statement of Dr. Richard L. Wagner

    Mr. Chairman, Mr. Chairman, members of the committees, I am honored 
to be here to speak to you about the effectiveness of available 
technology for detecting nuclear weapons and radiological materials, 
and the potential for improving effectiveness in the future with new 
technology resulting from research and development. I am encouraged 
that the House Committee on Homeland Security and its subcommittees 
have focused so strongly on the crucial task of protecting our nation 
against clandestine nuclear attack.
    I represent the 2002/2003 Defense Science Board Task Force on 
Prevention of, and Defense Against, Clandestine Nuclear Attack. I am a 
senior staff member with the Los Alamos National Laboratory, although I 
do not represent the laboratory here today.
    Nearly forty-five years ago, my Ph.D. thesis experiment in physics 
involved radiation detection. Since then, on several occasions, I have 
done additional scientific work, or managed programs, that involved 
advanced radiation detection. Over thirty years ago, I helped form, at 
the national laboratories, what later became the DOE's Nuclear 
Emergency Search Team (NEST). In the winter of 1978, I was co-
scientific-leader of the NEST deployment to northern Canada to search 
for radioactive debris from the Soviet Union's Cosmos 954 satellite. In 
the 1980s, as Assistant to the Secretary of Defense for Atomic Energy, 
I brought NEST capabilities into the Department of Defense, and was 
involved in various activities to detect nuclear weapons. In 1997, and 
again in 2002/2003, I chaired Defense Science Board (DSB) Task Forces 
related to defense against smuggled nuclear weapons.
    I want to make the following six points to you today:
    1. Radiation detection at portals is but one part of what must be a 
multilayered, multi-component, civil/military, global architecture to 
prevent smuggling of nuclear weapons into the US. Effective detection 
at portals will require detection of other signatures than radiation, 
but effective radiation detection is essential.
    2. Currently installed radiation detection systems, or systems 
which could be procured in quantity in the next year or two, are quite 
limited in their capabilities and, in general, are insufficient to the 
task. Substantial research and development (R&D) is needed to improve 
detection capabilities. But deployment of even the limited near-term 
capabilities should be significantly expanded to: (1) provide some 
degree of added protection for the nation in the near term, (2) expand 
the experience base in operations with radiation detection systems in 
order to help guide research and development of greatly improved 
capabilities for the future, and (3) build the necessary industrial 
base.
        <bullet> When I speak of radiation detection capabilities, I 
        mean not only the detectors themselves, but networks of 
        detectors, communications and signal processing, protocols for 
        resolving alarms, and operational concepts for detection and 
        response-to-detection systems.
    3. With an expanded, spiral, research and development (R&D) 
program, carried out in the aggressive style that characterized certain 
highly successful R&D programs in other areas over the past few 
decades, capabilities to detect the presence or transit of nuclear 
weapons can be improved greatly, within about five years, before 
reaching the limits imposed by the physics involved.
        <bullet> Capabilities of specific detectors against specific 
        weapon designs are classified. Appendix #1 is an unclassified 
        excerpt from the report of the most recent DSB Task Force that 
        I chaired, which describes in general terms current and 
        potential future detection capabilities.
    4. I cannot provide you with a detailed prescription for how to 
apportion resources, over time, among near-term deployments with 
limited capability, R&D, and later deployments of improved capability. 
Such time-phasing must be worked out in some detail, and must be 
allowed to change flexibly, even within budget cycles, as operational 
experience is gained and as early results of R&D come in. But it might 
be useful for you to think in terms of four generations of 
capabilities, as follows:
        <bullet> Currently installed detection systems.
        <bullet> Modest but worthwhile improvements that might be 
        developed and deployed within a year or two.
        <bullet> A first generation of greatly improved detection 
        systems that would be quite expensive, but which should 
        nevertheless be deployed in limited quantities to protect some 
        crucial locations and to try them out in the field.
        <bullet> A generation that achieves greatly improved detection 
        at greatly reduced cost, which would be widely deployed in the 
        mature, objective architecture.
    5. Even with the best detection systems, the overall future 
protection architecture will not be perfect. No defense can be perfect. 
But a less-than-perfect defense can be effective if it has enough 
capability to:
        <bullet> Cause prospective attackers to have serious doubts as 
        to whether they will succeed.
        <bullet> Create synergies with other system elements, for 
        example by forcing the attacker to mount a larger operation 
        which is more likely to be discovered so that warning can allow 
        the defense to surge its capability.
    I believe that, with an aggressive R&D program, we can achieve that 
level of capability. The utility of a less than perfect defense is 
discussed in Appendix #2, which is also excerpted from the DSB report.
    6. The establishment, by the administration, of the Domestic 
Nuclear Detection Office (DNDO) is a big step in the right direction. 
It should be strongly supported by the Congress, along with especially 
strong support for ``transformational R&D''. But work on 
transformational capabilities is unlikely to be effective unless it is 
carried out in the style that characterized certain highly successful 
R&D programs in other areas over the past several decades. In Appendix 
#3, which is derived from recent discussions on this subject among me 
and a few broadly experienced colleagues, I mention these programs and 
say some things about their style. Support of the Congress will be 
essential in doing the program this way.

APPENDIX #1. EXCERPT FROM DEFENSE SCIENCE BOARD REPORT:
4.0 ASSESSING DEFENSE PERFORMANCE AND THE UTILITY OF POTENTIAL SYSTEMS' 
IMPROVEMENTS
    . . .Defense performance is determined by many factors. The 
performance of radiation detection systems is only one of them, but it 
is an important one, and we will use such systems' performance to 
illustrate broader issues. . . .
    As with other elements of the protection/prevention architecture, 
the performance of radiation-based detection systems can be thought of 
on three levels. . . .
    At the level of detailed technical metrics--detection range, 
detection time, false alarm rates, etc.--much of what this report 
recommends is based on our judgment that significant improvement is 
possible in detection-systems' performance in threat scenarios. 
Relative effectiveness is not too difficult to assess, but assessing 
absolute effectiveness is difficult for several significant reasons. 
One difficulty is that the utility of detectors in real operations 
depends strongly on natural radiation backgrounds, which vary greatly 
from place to place and often in time. Such backgrounds, and the nature 
of radiation detection in general, introduce a probabilistic element in 
assessment of performance, and the significance of detection and false-
alarm probabilities is very scenario-dependent. All of this fuzzes 
concreteness, which creates difficulties in assessing system 
performance and in planning defense (and is one basis for our belief 
that performance can only be determined by field experience with real 
systems). . . 

4.1 Radiation detection performance
Despite these difficulties, rough estimates of radiation detection 
performance can be made. The referenced IEEE paper lays out some 
approaches to improving radiation detection and attempts to assess the 
degree of improvement in terms of both technical metrics and scenario 
assessment. Key points are excerpted below.
    Today's capabilities. Only passive detection is available today. 
Correlated operation of multiple detectors can be done today only for a 
small number of sensors that can be integrated by human intelligence, 
assisted by limited automatic processing. With these and other 
capabilities:
        <bullet> Plutonium devices can be detected in vehicles at 
        portals, in cargo containers, and in vehicles at speed, if the 
        device is unshielded or lightly shielded.
        <bullet> Detection of devices containing highly enriched 
        uranium (HEU) is very difficult and varies widely and is 
        limited today to short range. In some cases lightly shielded 
        devices can be detected at portals. In other cases they can be 
        detected only if they are essentially unshielded.
Some high-value targets are defensible, thanks to geographic features 
that channel traffic through defensible chokepoints, where capable 
portal monitors can be stationed. Traffic that attempts to bypass these 
chokepoints (e.g., on foot) is by definition suspect, and can be 
detected by non-nuclear techniques.
    These current capabilities may be impaired by high and/or variable 
natural radiation backgrounds or innocent man-made radiation sources 
that yield unmanageable false alarm rates.
    In the future. This report recommends greatly expanded R&D on 
radiation detection. The referenced IEEE paper illustrates some 
improvements in capabilities that would result from R&D. The following 
points summarize the potential benefits:
        <bullet> Detection range can be extended by an order of 
        magnitude, opening new defense operational modes such as rapid, 
        wide-area airborne and vehicle sweeps, and monitoring large 
        remote areas and/or extensive road networks. Shielding around 
        the weapon could reduce performance of the detection systems, 
        but the shielding mass can slow down the attacker and expose 
        him to discovery by other means--e.g., detection of the 
        shielding itself.
        <bullet> Increased range and improved false alarm rejection 
        will enable intelligent networking of detectors. This could 
        enable coverage of road and rail transport over significant 
        distances--e.g., along the U.S. East Coast, where long-distance 
        transport must pass through a relatively small number of choke 
        points.
        <bullet> Background and innocent alarm rejection will allow 
        detection of HEU in a wider range of circumstances, for example 
        (in certain cases) in cargo that is naturally radioactive 
        (e.g., bananas).
        <bullet> Increased sensitivity and background rejection could 
        virtually eliminate the effects of incidental shielding in 
        vehicles or cargo containers, except for HEU in certain cases.
        <bullet> More-portable and longer-lived sources for active 
        interrogation will enable widespread screening of containers 
        and vehicles. Advances in detectors and sources will allow 
        operational restrictions on active interrogation due to health 
        and safety concerns to be reduced.
    Beyond such general and qualitative statements, what can be done 
with radiation detection is complicated to describe. It is a multi-
dimensional parameter space, even for a single attack scenario against 
a single defense layer. There are many possible scenarios, and we have 
posited a multi-layer defense. The format of the chart below is one 
greatly simplified way of summarizing some of this complexity. It 
illustrates a fundamental offense/defense trade between the detection 
range and time available for detection, and amount of shielding around 
the device that can reduce the radiation output of the threat object.

The detection metric that the vertical axis represents is a function of 
range and dwell-time, and it varies by approximately six orders of 
magnitude along that axis. The diagonal lines on the chart reflect 
current and future capabilities, some of which are summarized in the 
paragraphs immediately preceding the chart. The uncertainties and 
variations in the vertical location of the diagonal lines are about an 
order of magnitude, as illustrated by the plutonium current technology 
line. The relative locations of the lines are less uncertain. . . . .
[GRAPHIC] [TIFF OMITTED] T5356.031


Appendix #2: Excerpt from Defense Science Board Report

4.3 Thinking about the utility of imperfect defenses
    When and if the community involved in this work becomes able to 
assess system performance against threats accurately and 
comprehensively, it will be found that the defense is not leak-proof, 
as no defense can be. Because of this, some might argue that devoting 
the level of resources entailed in the Task Force recommendations would 
be wasted. We believe this is profoundly wrong. No protection system 
can be perfect, but over the course of history, defenses that are far 
from perfect have played vital strategic roles. To deal analytically 
with the issue of imperfect defense, the third level of performance 
measures--including the overall goals of the defense--must be 
addressed. . . . 
    With the best technology we can develop, how effective can 
prevention/defense be?
<bullet> Much better technology is essential, but not sufficient alone
<bullet> Right--not perfection; rather: attenuate threat, dissuade 
attempts, thwart some attacks, delay successful attack
        --Historically, imperfect defenses often effective
<bullet> Reference point: during late '70s, early '80s, the US. . .
<bullet> Best technology can raise defenses above ``the threshold of 
dauntingness'', dissuade attempts.
        -- Deliberately create uncertainties for attacker
<bullet> Synergies help. Examples:
        -- Better defense<r-arrow> larger threat operation<r-arrow> 
        more signatures
                        <r-arrow> possible warning<r-arrow> surge 
                        defenses
        -- Concentrate nuc mat'ls control on hardest-to-detect mat'ls
<bullet> Can't answer with paper studies; can find out only by trying
        The stakes are worth the bet
    The goal that should be set for a national/global system and its 
DoD elements is not perfection. Rather, because clandestine nuclear 
attack attempts will not be frequent, the goal should be to 
substantially attenuate the frequency of successful attacks (including 
significantly delaying the first one). Delay and attenuation could 
provide time to mitigate the threat in other ways, including measures 
to ameliorate the underlying political and cultural factors that 
stimulate the terrorist threat, writ large.
    Many of us believe that a strong case can be made that prevention/
protection can be developed that will substantially attenuate the 
frequency of successful attacks, by being good enough to (1) dissuade 
or deter many of those who might consider attempting attacks and (2) 
thwart or defeat a good fraction of the (fewer) attacks that might be 
attempted. The deterrent aspect of the protection equation involves the 
often-great differences between how a defender and an attacker will 
view the relative capabilities of the defense. The long history of 
offense/ defense competitions is strongly characterized by both sides 
taking own-side-conservative views. More particularly, the annals of 
terrorism and counterterrorism are replete with instances in which a 
prospective attacker was deterred by aspects of the defense that may 
have seemed relatively weak and ineffectual to the defender. The 
terrorist may not be afraid to die, but he (or his master) does not 
want to fail.
    Dissuasion/deterrence by the adversary's fear of failure might work 
in a variety of ways. One aspect is that an attacker will want to know 
enough about the defense to design a robust, successful attack. If the 
capabilities of the defense can be improved enough that the attacker 
must know the details of defensive measures in place to understand how 
to best surmount them, then the attacker may expose himself to 
discovery during the planning phases of the attack or be altogether 
dissuaded from the attempt.
    Creating uncertainty in the attacker's mind will be critical to 
maximizing the success of defenses which, realistically, cannot aspire 
to perfection. To exploit the effects of uncertainty, the defense 
should be deliberately designed and deployed to create as much 
ambiguity for the attacker as possible as to where the ``boundaries'' 
of defense performance lie. Deliberate deception should be used 
(carefully) as part of an overall perception management effort.
    Data that can be used to be more analytic about these and other 
deterrence effects should be systematically assembled from the annals 
of counterterrorism.
    Many kinds of synergies contribute to defense effectiveness. An 
obvious one is the effect of a layered defense, as we propose. With 
multiple layers, each layer need not be highly effective in order for 
the overall effectiveness to be high. If the layers require different 
tactics or technologies to penetrate, the attacker's job is 
considerably more difficult. This indicates a fundamental synergy 
between a layered defense and the capability to detect the threat by 
intelligence indicators, including from law-enforcement activities. A 
more capable and varied defense means that the attacker must mount a 
larger operation to penetrate it. A larger operation has more (and more 
observable) signatures. More people with more skills must be recruited 
and trained; more money must be obtained and laundered; the operation 
takes longer; and the attacker must surveil the defense more 
intensively. By increasing the signature of attack planning, the 
likelihood of discovery increases commensurately. This, in turn, could 
allow the defenses to be surged, further increasing effectiveness.
    These preliminary thoughts about the effectiveness of a defense 
have led the Task Force and its predecessors to become convinced that 
reasonable success in mitigating the threat is sufficiently likely 
that, in light of the seriousness of the threat and of the consequences 
of successful attack, a serious development and deployment program is 
warranted..

Appendix #3: Assuring program effectiveness
    The establishment of the Domestic Nuclear Detection Office (DNDO) 
is an extremely positive step in improving and deploying detection 
systems, and will provide a group which, adequately funded and properly 
located organizationally, can do much to accomplish the objectives 
cited above. But in light of the stakes involved, it is fair to ask 
whether DNDO will be able to improve deployed detection technology as 
much and as quickly as possible. DNDO's charter and authorities, as 
they are expressed in its founding documents, are sound as far as they 
go, but there are intangibles that are crucially important for success 
and that are difficult to address in a charter or authority. These 
intangibles are what I address here.
    To deal with such a difficult scientific, technological, and 
operational issue requires innovation, free thinking, continuity of 
effort, creativity and simultaneous risk taking (technology investments 
that may ultimately prove dead-ended). None of these qualities are 
among those generally attributed to the government's conventional 
research and development process--which often discourages even prudent 
risk taking and is at best ponderously slow.
    It has generally been found that truly creative research is best 
pursued by maintaining close coupling between the researchers and those 
dealing with day-to-day operational challenges. At the same time, it is 
exactly these latter challenges which often usurp the attention, 
priority, and budgetary resources which would otherwise be devoted to 
longer-term research.
    When facing such challenges in the past the government has 
generally been most successful when it removed the attack on a specific 
high priority problem from the every-day research and development 
process and established a dedicated, high priority assault on the 
specific issue at hand. DNDO is intended to catalyze such an assault, 
but whether it will be successful will depend on its ability to emulate 
key features of past successes. Examples include the Manhattan Project, 
the Apollo Project, the development of the Polaris submarine system, 
and the development of the U-2, SR-71 and F-117 at the ``skunk Works''. 
What is needed is a mini-Manhattan Project which focuses specifically 
on the detection of nuclear weapons and materials. The development of a 
weapons detection capability is not an easy task, but neither was the 
development of the nuclear weapon itself.

Key features of many of the past successes mentioned above include:
        <bullet> high-risk, high-payoff developments are pursued, 
        hedging against possible failure with alternative approaches 
        carried out in parallel;
        <bullet> R&D reaches from basic research through to fieldable 
        prototypes;
        <bullet> a streamlined management process with minimal 
        ``outside'' influence;
        <bullet> a cooperative and open relationship between government 
        and industrial/academic participants;
        <bullet> the role of senior, centralized government leadership 
        is to set broad goals, secure funding, and provide freedom of 
        action for the R&D teams; and
        <bullet> the R&D is conducted mainly outside of government by 
        large, integrated, multi-disciplinary R&D teams with forceful 
        and experienced leaders, and with:
                <bullet> wide latitude to achieve broad, ambitious, 
                mission-level goals,
                <bullet> direct, frequent, working-level contact 
                between users and R&D people,
                <bullet> freedom to change R&D objectives and 
                approaches quickly and flexibly as the R&D proves what 
                is feasible, and
                <bullet> the expectation of continued involvement to 
                achieve both near-term milestones and long-term goals.
    To accomplish such a feat would entail waiving many of the existing 
procurement regulations which were designed to conduct the ordinary 
course of research and development in the government.
    The approach sketched here would be exceptional today--a 
significant departure from the way most government R&D is currently 
done. Because of this, it will be controversial and difficult to 
implement and will need high level support, including from the 
Congress.

    Mr. Linder. Ms. Rooney.

   STATEMENT OF BETHANN ROONEY, MANAGER, PORT SECURITY, PORT 
              AUTHORITY OF NEW YORK AND NEW JERSEY

    Ms. Rooney. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify this afternoon on the 
important issue of detecting radiation entering the Nation 
through our U.S. ports.
    In early 2003, Customs and Border Protection announced that 
the radiation portal monitor program would be started in the 
top 22 ports in the country, including New York and New Jersey. 
We fully support the deployment of radiation detectors in our 
port and believe they serve an important function as the 
absolute last layer of defense in detection strategy. Our 
experience with the RPM initiative, in particular, the 
cooperation with the local Customs and Border Protection and 
Pacific Northwest National Laboratory staff, has been certainly 
exceptional.
    To date, a total of 22 RPMs have been deployed in the port. 
As has been indicated, we are not fully covered and there are 
another 10 RPMs expected to be deployed later this year. We are 
now averaging approximately 150 alarms a day from the radiation 
portal monitors that are installed, which is about one in 40 
containers that moves through our facilities. This high level 
of innocent or nuisance alarms are from commodities such as 
kitty litter, ceramics, medical isotopes and the like.
    Customs personnel are stationed at the exit gates of the 
container terminals. In each instance that a container sets off 
an alarm, they are immediately directed to a secondary 
inspection area where the containers are scanned with a 
radiological isotope identifier and compared to the manifest.
    CBP follows strict protocols to determine the source of the 
alarm. In the vast majority of the cases, these alarms are 
solved within 10 minutes or less causing no undue delays to the 
flow of commerce. In the 16 months since these RPMs have been 
operational in the ports, only twice have they detected what is 
believed to be a neutron source which would be indicative of 
either plutonium or uranium. In these instances, the container 
was isolated and CBP worked with the Port Authority police and 
other Federal, State and local agencies in order to render the 
container safe, taking upwards of 24 hours to do so.
    Approximately 15 percent of our containerized cargo volume 
moves by rail or barge out of the port. None of that cargo, or 
virtually none of that cargo, is currently being scanned by the 
radiation portal monitor deployment. CBP recognizes this 
shortcoming in the program and is working with Pacific 
Northwest Lab and our terminal operators in order to devise 
options to screen this internodal cargo.
    In addition to screening the rail cargo, we also must find 
a way to screen the cargo that transferred by barge, because in 
many instances these barge movements are going through highly 
congested urban areas and we don't want these containers to be 
delivered to an inland area without being scanned.
    Also given its heavy focus on containerized cargo since 9/
11, we remain concerned about the ability to use imported 
vehicles, busses and subway cars to deliver weapons of mass 
destruction to the United States. We import approximately 
620,000 automobiles a year, and absent any other programs to 
check the integrity of vehicular cargo and inspect it upon 
arrival in the United States, we believe that steps must also 
be taken with the auto terminal operators to devise a 
methodology of screening this cargo with suitable technology.
    Under an agreement with the Department of Homeland 
Security, Science and Technology Directorate, the Port 
Authority is involved in a very productive program of testing 
radiation sensor technologies at various transportation 
facilities, including our river crossings, airports and 
seaports.
    Since most of the commercial off-the-shelf radiation 
detection devices use gross counters, a large number of alarms 
from innocent sources are generated when the detection 
threshold is set too low. Under the leadership of the 
Department of Homeland Security's Environmental Measurement 
Lab, we have first bench-tested devices with various radiation 
sources and operating conditions at the Brookhaven National Lab 
before deploying them at our facilities. Two devices are now 
ready for commercialization and could be available for use as 
early as fiscal year 2006. These devices will be better at 
detecting things such as highly enriched uranium and plutonium.
    The new Domestic Nuclear Detection Office at the Department 
of Homeland Security provides an opportunity to recommend a 
comprehensive research agenda that would focus on the marine 
transportation system. We should take advantage of 
opportunities to detect, deter and intercept a device well 
before it passes through a terminal exit gate. Among the ways 
to do this is to place radiation detection devices on the 
container entry cranes or other container handling equipment. 
The Federal Government should establish a research and 
development program focusing on identifying a way to scan 100 
percent of the containers as they are off-loaded from the ship 
or when they are sitting idle in the terminal for upwards of 7 
days.
    We would also encourage the development of an integrated 
scanning and detection device that would essentially allow for 
the RPM and the VACIS exam to occur simultaneously. This 
holistic approach could provide 100 percent screening of 
international cargo for both radiation and density without 
causing additional delays.
    As screening technology is further developed and tested, we 
must also take into consideration the potential impact that 
this technology might have on other container security devices, 
such as electronic seals and the advanced container security 
device. We have experienced in Operation Safe Commerce trials 
that the VACIS exam may have interfered with the radio signals 
generated by electronic seals, thus rendering them unusable. 
Therefore, the interference of VACIS and RPM inspection must be 
considered as these technologies are further developed and 
deployed.
    Of course, detecting a weapon of mass destruction after it 
arrives in our port or anywhere in the U.S. is too late. Since 
9/11, the Federal policy has been to push our American borders 
out, and DHS from those very first days has implemented that 
policy through various programs.
    In keeping with that policy and with a layered approach to 
security, RPMs or other suitable radiation detection devices 
should be installed at foreign ports of export. It would give 
the U.S. greater confidence that cargo headed our way is not 
likely to contain a weapon of mass destruction.
    I hope my comments today have provided you with some 
helpful insight on just one aspect of this complex matter of 
radiation detection. We at the Port Authority of New York and 
New Jersey are prepared to offer any additional assistance that 
you may require.
    Mr. Linder. Thank you, Ms. Rooney.
    [The statement of Ms. Rooney follows:]

                  Prepared Statement of Bethann Rooney

    Mr. Chairmen, members of the Committee, thank you for the 
opportunity to testify on the important issue of radiation detection as 
it relates to our nation's ports. I am Bethann Rooney and I am the 
Manager of Port Security at the Port Authority of New York & New 
Jersey.
    I appreciate the invitation to speak on the steps that have been 
taken since 9/11 to secure our ports and maritime industry from 
terrorist acts, specifically our ability to detect nuclear weapons and 
radiological materials that may attempt to enter the country through 
our Port. The tragic events of September 11th have focused our 
collective attention on the need to protect our borders at major 
international gateways like the Port of New York and New Jersey and 
small ports alike.
    This morning I would like to briefly discuss the vital nature of 
ports and the risk associated with them; the importance of supply chain 
security, the status of Radiation Portal Monitor deployment in the 
Port; our experience with the Department of Homeland Security 
Countermeasure Test Bed and finally some recommended next steps.

THE VITAL ROLE OF PORTS
    Ninety-five percent of the international goods that come into the 
country come in through our nation's 361 ports; twelve percent of that 
volume is handled in the Port of New York and New Jersey alone, the 
third largest port in the country. The Port generates 229,000 jobs and 
$10 billion in wages throughout the region. Additionally, the Port 
contributes $2.1 billion to state and local tax revenues and $24.4 
billion to the US Gross Domestic Product. Cargo that is handled in the 
Port serves 80 million people or thirty-five percent of the entire US 
population. In 2004 the port handled over 5,200 ship calls, 4.478 
million twenty-foot equivalent units (TEUs), which is approximately 
7,300 containers each day, 728,720 autos and 80.6 million tons of 
general cargo. Today international trade accounts for 30 percent of the 
US economy. Considering all this, it is easy to see how a terrorist 
incident in our nation's ports and along the cargo supply chain would 
have a devastating effect on our country and its economy.

THE TERRORIST RISK
    When describing the potential impact of a terrorist event, the 
words ``risk'', ``threat'' and ``vulnerability'' have generally been 
used interchangeably. The fact, however, is that in the standard risk 
equation, risk is a factor of threat, vulnerability and consequence. 
Therefore, any discussion of the terrorist risk to ports and other 
elements of the marine transportation system (MTS) must include each of 
those three areas.
    The most difficult area to understand is the threat, mostly because 
it is a moving target and we must assume that terrorists are devising 
new tactics everyday. There are a number of threat scenarios however 
that are believed to be more likely and therefore are those that most 
maritime security programs today are built around. These include the 
use of vessels and ports as a means to smuggle weapons of mass 
destruction or terrorist operatives into the United States, the use of 
ships as a weapon, the scuttling of ships in major shipping channels, 
and attacks on ships such as ferries or oil tankers. Since 9/11, we 
have seen a number of these tactics used around the globe in events 
such as suicide bombings using containers in the Port of Ashdod, small 
boat attacks on an oil platform in Al Basra and the French oil tanker 
Limberg, and the transportation of suspected terrorist operatives via 
containers in Italy.
    The maritime transportation system's vulnerability or the 
likelihood that the safeguards will fail is complicated by the general 
nature and openness of ports, with hundreds of miles of shorelines and 
facilities that have historically been public access areas. 
Additionally, the movement of cargo has been built on the tenets of 
speed, reliability and cost, not security. Therefore, the sheer volume 
of containers that move through US ports on a daily basis makes them 
potentially attractive as a potential Trojan horse . . .62,000 of them.
    The consequences of a terrorist attack by means of the maritime 
industry could have an overwhelming and lasting effect. Not only would 
there potentially be significant death and destruction but the national 
and global economies could be devastated. It is estimated that for 
every day that a port is shut down, it takes seven days for full 
recovery. The West Coast labor strikes last year demonstrated that a 
ten day shut down can cost an estimated one billion dollars a day.
    While our ability to directly influence the threat is limited we 
can use our understanding of the threat, to make infrastructure 
improvements, and create policies, programs and procedures that can 
help reduce our vulnerability and the consequences and thereby mitigate 
our overall risk.

OUR PROGRESS SINCE 9/11
    As a result of significant legislative action, capital investments 
and operational improvements on the part of the public and private 
sectors in the nearly three and a half years since 9/11, the Maritime 
Transportation System (MTS) is more secure today than ever before. 
While significant progress has been made and much has been 
accomplished, work still remains to be done.

A Multifaceted Approach
    Enhancing maritime security is a complex problem which requires a 
multi-faceted and layered approach. Maritime security is so much more 
than just the physical security of our ports and terminals and the 
vessels that use them. We must also enhance security of the supply 
chain and the cargo that moves through our ports.

Cargo and Supply Chain Security
    America's consumer-driven market now depends upon a very efficient 
logistics chain, of which the nation's ports are just a single link. US 
ports provide the platform to transfer imported goods from ships to our 
national transportation system--primarily trucks and trains--that 
ultimately deliver those products to local retail outlets or material 
to manufacturing plants. Historically, that goods movement system has 
had one overall objective: to move cargo as quickly and cheaply as 
possible from point to point. Today, a new imperative--national 
security--has imposed itself onto that system. As such, we know that 
ports themselves are not the lone point of vulnerability. Rather, the 
potential for terrorist activity stretches from where cargo is stuffed 
into a container overseas to any point along the cargo's route to its 
ultimate destination.

    We believe that through programs like Operation Safe Commerce, a 
Federally supported study of international supply chain security, of 
which the Port Authority of New York & New Jersey is a part, efforts 
must be taken to verify the contents of containers before they are even 
loaded on a ship destined for a US port. The process must include 
certification that the container was packed in a secure environment, 
sealed so that its contents cannot be tampered with, transported under 
the control of responsible parties, and screened for dangerous 
substances before it is loaded on a ship. This will be accomplished 
through the identification and evaluation of new technology, business 
processes, policies and procedures that could improve supply chain 
security, and minimize disruption to commerce. The solutions must also 
be economically and commercially viable.

    The many programs that the Departments of Energy and Homeland 
Security have implemented in the last three years--MegaPorts, the 24-
Hour Rule, the Customs-Trade Partnership Against Terrorism (C-TPAT), 
the Container Security Initiative (CSI), the increase in VACIS exams, 
and the deployment of Radiation Portal Monitors (RPMs) at terminals are 
all valuable elements of a layered security system and have gone a long 
way toward ensuring supply chain security.

RADIATION PORTAL MONITORS
    One of the many layers of cargo security is Radiation Portal 
Monitors (RPMs). In response to a Congressional mandate to preclude 
nuclear weapons and radiological materials from entering the United 
States, Customs and Border Protection (CBP) established a strategy in 
early 2003 to deploy RPMs at twenty-two ports throughout the country, 
including the Port of New York and New Jersey. RPMs are a passive, non-
intrusive means to screen containers for the presence of nuclear and 
radiological materials, including special nuclear material (SNM), 
naturally occurring radiation and common medical and industrial 
isotopes.
    We fully support the deployment of radiation detectors in our Port 
and believe they serve an important function as the absolute last layer 
of the defense in depth strategy. Of course, detecting a Weapon of Mass 
Destruction after it arrives in our Port, or anywhere in the US, is too 
late. The placement of RPMs in US ports must be coupled with the 
installation of RPMs or other suitable radiation detection technology 
in foreign ports through programs like MegaPorts and the Container 
Security Initiative.
    Our experience with the RPM initiative has been nothing but 
positive and the level of coordination and cooperation with local CBP 
officials and staff from the Pacific Northwest National Laboratory 
staff exceptional. In July 2003, CBP brokered a meeting with all of our 
port stakeholders to introduce them to the RPM program, describe the 
technology and the environment in which it works, and address concerns 
of different stakeholder groups and layout the timeline for deployment. 
CBP later met with each of the individual terminal operators, their 
executive management, traffic engineers and other employees to discuss 
each terminal operator's specific issues, with the goal of integrating 
the RPMs into each terminal's operation and not creating disruptions to 
the normal flow of commerce.
    To date, a total of 22 RPMs have been deployed in the Port of New 
York and New Jersey (Global--5, PNCT-5, APM-12), with the first coming 
on line in February 2004. Another 8 RPMs (Maher-7. NYCT--1) are 
expected to be deployed by year-end. We are also expecting to receive 2 
mobile RPMs that will be employed during the vessel discharge process 
at one of our smaller terminals. At this time, we do not have a 
confirmed schedule for when these mobile RPMs will be available.

CONCERNS WITH THE RPM PROGRAM
High Level of False Alarms
    At the outset of this program, we were advised by Pacific Northwest 
Labs that we could expect the alarm rate to be 1 in every 400 
containers. In the Port of New York and New Jersey, we are now 
averaging about 150 alarms a day from the RPMs, which is approximately 
1 in 40 containers, ten times more than was expected. In order to 
detect nuclear and radiological devices, the RPMs must be calibrated at 
a low threshold. This results in a high level of innocent or nuisance 
alarms from commodities with naturally occurring radiation such as 
bananas, kitty litter, fire detectors and ceramics that move through 
the port, even truck drivers who not long before had medical tests or 
treatments with radioactive isotopes.
    Customs personnel are stationed at the exit gates of each of the 
container terminals. In each instance that a container sets off an 
alarm, they are immediately directed to a secondary inspection point 
when the container is scanned again, verified with a Radiological 
Isotope Identifier Device (RIID) and compared to the manifest. CBP 
follows strict protocols to determine whether the alarm is a potential 
terrorist threat, a natural source or legitimate medical source of 
radiation. In the vast majority of the cases, CBP is able to resolve 
the alarm in approximately ten minutes or less and release the truck 
without causing any undue delays to the flow of commerce.
    In the sixteen months that the RPMs have been operational in New 
York and New Jersey, there only twice have RPMs detected a neutron 
source, which would be indicative of either Plutonium or Uranium. In 
these instances, the container was isolated and CBP worked with the 
Port Authority Police and various Federal and state agencies, under 
established response protocols, to render the container safe, which 
takes up to 24 hours.

Ability to Screen All Intermodal Cargo
    In the Port of New York and New Jersey, 13 percent of our cargo 
volume moves by rail and another 2 percent moves by barge. We expect 
these percentages to significantly increase in the next 10-15 years. 
While the current deployment schedule does not include RPMs at our on-
dock rail facility (670,000 TEUs), CBP recognizes that this area has 
not yet been fully addressed and discussions are underway to develop a 
way to effectively screen these containers. CBP, Pacific Northwest Labs 
and the terminal operators are collaborating to devise options to 
screen intermodal cargo in the least disruptive way. This could include 
the installation of RPMs at choke points where containers enter the 
rail facility from other container terminals or screening the entire 
train as it exits the terminal. One concern would be delaying the 
entire train schedule while an alarm from one or more of the containers 
on that train is resolved. We expect to conduct a trial of scanning the 
entire train later this year.
    A process to screen containers that will be transferred by barge to 
another US port must also be developed. In many instances, these barges 
traverse congested waterways adjacent to densely populated urban areas. 
We need the same level of assurance that these containers are free of 
nuclear or radiological devices as we have about the containers that 
are being delivered to inland destinations by truck.

Ability of CBP to Fully Staff RPM Operations
    In some ports around the country, the RPMs are manned not by CBP 
but by a local law enforcement agency. In theses cases, CBP has 
committed to responding to an alarm within a specified period of time. 
As ports and terminals across the country move toward expanding their 
gate hours, we need to ensure that CBP will have the adequate resources 
to staff and monitor all of these devices and analyze the high volume 
of alarms that they will be receiving. Provision must also be made to 
reimburse the local jurisdiction for assuming responsibilities under a 
federally mandated program.

Ability to Scan Roll On Roll Off Cargo
    Given the heavy focus on containerized cargo since 9/11, we remain 
concerned about the ability to use Roll On / Roll Off (RoRo) cargo, 
such as automobiles, buses and subway cars to deliver weapons of mass 
destruction to the United States. Absent any other programs and 
initiatives to ensure the integrity of RoRo cargo and inspect it upon 
arrival in the United States, we believe that steps must be taken to 
work with the auto terminal operators to devise a method of screening 
all RoRo cargo with RPM's or other suitable technology upon discharge 
from the vessel.

COUNTER MEASURE TEST BED
    Under an agreement with the Department of Homeland Security, 
Science and Technology Directorate, the Port Authority is involved with 
a very productive program of testing radiation sensor technologies at 
various transportation facilities including our river crossings, 
airports and the seaport, including the New York Container Terminal on 
Staten Island and the Customs and Border Protection VACIS facility in 
Port Elizabeth.
    Since most commercial off-the-shelf radiation detection devices use 
gross counters, a large number of alarms for innocent sources are 
generated when the detection threshold is set sufficiently low in order 
to detect nuclear weapons or radiological materials. The 
Countermeasures Test Bed (CMTB) explores operational methodologies and 
tests advanced radiation sensor systems that have spectroscopic 
identifiers that have been developed at various Department of Energy 
laboratories in a real world environment at fully operational 
transportation facilities.
    Under the leadership of the Department of Homeland Security's 
Environmental Measurements Laboratory in New York, potential devices 
are first bench tested with a variety of radiation sources and under 
various operating conditions at the Brookhaven National Laboratory 
before being deployed at our facilities.
    As a result of the test bed work in which we participated, the 
Adaptable Radiation Area Monitor (ARAM) and Sensors for the Measurement 
and Analysis of Radiation Transient (SMART) devices are now ready for 
commercialization and could be available for use as early as FY06. 
These devices will be better at detecting things such as highly 
enriched uranium and plutonium.
    Through our participation in this important initiative, we hope to 
improve the Nation's ability to prevent the illicit entry and movement 
of nuclear and radiological devices and materials, increase radiation 
sensor coverage of the region's critical infrastructure and to advance 
the capacity of technology to be reliable and of practical use in the 
field. We remain committed to making our many facilities and operations 
available to the Department of Homeland Security for this and other 
important demonstrations and test bed projects.
    In the coming year DHS S&T will conduct head-to-head operational 
testing and evaluation of commercially available spectroscopic units at 
New York Container Terminal (NYCT) to determine operational viability 
and performance against real cargo in the port environment. 
Additionally, DHS will evaluate how integrated radiation monitoring 
systems at a complex intermodal facility such as NYCT (maritime and 
rail) could improve operational performances of the facility while 
meeting DHS goals.

RECOMMENDATIONS
    With the advent of the new Domestic Nuclear Detection Office (DNDO) 
at the Department of Homeland Security there is a unique opportunity to 
recommend a comprehensive research agenda that would specifically 
benefit the marine transportation system.
    While the port itself is generally not thought of as a likely 
terrorist target but rather a means of delivering a radiological device 
to a higher priority target, we believe that we should take advantage 
of opportunities to detect, deter and intercept a radiological or 
nuclear device well before it passes through a terminal exit gate. 
Among the ways to do this is to place radiation detection devices on 
the container gantry cranes and other container handling equipment.
    On average, an import container sits in a US port terminal for five 
to seven days before it is picked up for delivery to the consignee. 
Under the current design of the RPM program, the nuclear weapon or 
radiological material could be sitting on the dock for an extended 
period of time before it passes through a RPM at the exit gate on its 
way to the highway system. The Federal government should establish a 
research and development program focused on identifying a way to scan 
100 percent of the containers as they are off loaded from the ship and/
or when they are sitting idle in the terminal.
    Both we and the Virginia Port Authority have each conducted 
``proof-of-concept'' projects over the last four years to design, 
fabricate, install and test radiation detectors placed on the spreader 
bars of gantry cranes. The device would need to be able to be rugged 
enough to withstand the repeated shock and vibration from handling 
containers, distinguish between the container that was being lifted and 
other containers around it, and transmit data to a central monitoring 
location. The state of the technology was inadequate for this 
application however, we do believe that the problems can be overcome 
and should be further evaluated by DNDO.
    Another alternative would be to place radiation detection equipment 
on straddle carriers or rubber tire gantry cranes, which are used to 
move and stack containers at the marine terminal. That would allow for 
containers that are stacked three high to be scanned simultaneously and 
repeatedly during the normal course of business as they dwell on the 
terminal.
    We would also encourage the development of an integrated scanning 
and detection device that would essentially allow for the RPM and the 
VACIS exam to occur simultaneously. This approach is a much more 
holistic solution to provide 100 percent screening of international 
cargo for both radiation and density, without causing additional 
delays.
    As screening technology is further developed and tested, we must 
also take into consideration the potential impact that this technology 
might have on container security devices such as electronic seals and 
the Advanced Container Security Device.
    We experienced in Operation Safe Commerce that the VACIS exam may 
have interfered with the radio signal generated by electronic seals 
rendering them unusable. Therefore, the interference of VACIS and RPM 
inspections must be considered as these technologies are further 
developed and deployed.
    Finally, I'd like to make one last point. Since 9/11 the Federal 
policy has been to push our borders out and DHS from those very first 
days has implemented that policy though their various programs such as 
the 24 Hour Rule, CSI, and CTPAT. As part of both the layered approach 
to security that I described earlier and the policy to push our borders 
out, the deployment of RPM's at ports of export should be increased and 
strengthened so that we can have even greater confidence that the cargo 
destined for the US in not likely to contain weapons of mass 
destruction.

CHALLENGES THAT REMAIN
    Addressing the issue of port and maritime security is an enormous 
challenge given the complexity of the international transportation 
network. Devising a system that enhances our national security while 
allowing the continued free flow of legitimate cargo through our ports 
will not be solved with a single answer, a single piece of legislation, 
or by a single nation. It will require a comprehensive approach with 
coordination across state lines and among agencies of all levels of 
government and the cooperation of the private and public sectors and 
the international community. Importantly, it will require additional 
resources for the agencies charged with this awesome responsibility and 
for the public and private ports and terminals where the nation's 
international commerce takes place.
    I hope my comments today have provided with you some helpful 
insight on just one aspect of the complex matter of radiation 
detection. We at the Port Authority of New York & New Jersey are 
prepared to offer any additional assistance that you may require. Thank 
you.

    Mr. Linder. Dr. Tannenbaum.

STATEMENT OF DR. BENN TANNENBAUM, AMERICAN ASSOCIATION FOR THE 
                     ADVANCEMENT OF SCIENCE

    Mr. Tannenbaum. Mr. Chairman, Mr. Chairman, Congressman 
Langevin, Congressman Pascrell, members of the subcommittees, 
thank you for this opportunity to testify before you today on 
the detection of nuclear weapons and radiological material.
    I am Benn Tannenbaum, Senior Program Associate at the 
Center for Science, Technology and Security Policy within the 
American Association for the Advancement of Science. Founded in 
1848, AAAS is the world's largest general scientific society, 
with over 120,000 members and 262 affiliated societies.
    The specific center for which I work seeks to connect 
policy members, such as the members of these subcommittees, 
with scientific and technical experts in a broad range of 
science- and security-related topics. In general, we work to 
identify the experts best suited to meet your needs by 
providing clear, objective, unbiased research. We do not 
perform original research ourselves, but instead act as a 
conduit between the academic research community and the policy 
arena.
    We were approached this spring by Congressmen Markey and 
Thompson, who sought to better understand the capabilities and 
limitation of the radiation portal monitors being deployed to 
detect smuggled radioactive and fissile materials arriving in 
U.S. ports. We consulted two physicists with long experience in 
this particular field, Professor Frank von Hippel of Princeton 
University and Professor Steve Fetter of the University of 
Maryland. Based on their expert input, we drafted a report that 
is included within my written testimony and is the basis for my 
testimony. In addition, I am a physicist with experience in the 
design and construction of detector technology.
    Having made those caveats, I would like to address five 
main points in my remarks.
    First, the isotopes best suited for use in dirty bombs can 
be detected with passive radiation detectors similar to those 
being deployed at ports both abroad and in the United States. A 
passive radiation detector is simply one that monitors the rate 
at which radioactive decays occur near the detector. The very 
feature that makes for a good dirty bomb, namely a strong 
source of radiation, also makes detection easier and shielding 
more difficult.
    In addition, the properties of plutonium, one of two 
elements used to construct nuclear weapons, are such that it 
can be detected with passive radiation detectors. An active 
radiation detector, in contrast, uses some sort of a probe, 
such as x-rays or neutrons, to determine the contents of a 
container.
    Second, the physical properties of uranium, including the 
highly enriched uranium that would be used to construct a 
nuclear weapon, are such that even lightly shielded uranium is 
very likely to escape detection by passive radiation monitors. 
While some ports of entry have both active and passive 
detectors, some observers argue that they are not being used in 
the most effective manner.
    Third, there are several ways to improve the capabilities 
of the passive detectors currently in use and to improve future 
generations of detectors. The current detectors can be improved 
by increasing the sampling time, decreasing the distance 
between the container and the detector, decreasing the 
background radiation through additional shielding around the 
detector, and improving algorithms and adding column meters to 
the detectors.
    In addition, the passive detection of specific energies of 
radiation, coupled with an active method that identifies the 
location of very dense objects, greatly reduces false positives 
by distinguishing harmless radioactive materials, such as kitty 
litter, from dirty bombs and nuclear weapons.
    Fourth, there are several interesting R&D programs 
exploring new techniques to locate radiological and fissile 
materials. At Los Alamos, researchers are using cosmic rays to 
find very dense materials, such as plutonium and uranium, in 
kilogram quantities within cargo containers. At Lawrence 
Livermore, researchers use neutrons to ping a container. These 
neutrons induce a very characteristic gamma ray response in 
fissile materials.
    Another proposal uses inexpensive detectors placed in cargo 
containers during transoceanic shipment. These detectors take 
advantage of the 10-day or longer transit time to locate HEU. 
This has the additional feature of allowing the interception of 
dangerous materials before they enter a U.S. port.
    The Department of Homeland Security and the Department of 
Energy's National Nuclear Security Administration have recently 
begun construction of a facility to test portal monitors and 
expects to select the next deployment of technology this year 
using a temporary test bed.
    Fifth, the best way to protect the United States from 
smuggled nuclear weapons is to use a layered defense. The 
currently deployed portal monitors in some domestic and foreign 
ports are an important first step. Adding in-transit detectors 
and active scanners would increase our ability to locate 
radiological and fissile material.
    The intrinsic difficulties in detecting uranium make it 
particularly important to secure, control and protect existing 
supplies of HEU around the world. It will always be far easier 
to monitor a lump of uranium at a known location than it will 
be to detect uranium smuggling, and the infrastructure required 
to make HEU is much more substantial than that required to 
construct a gun-type nuclear weapon with existing HEU.
    The comprehensive threat reduction threat program has 
enabled the safeguarding of much of Russia's HEU, and some of 
the HEU is being converted to fuel for use in nuclear power 
reactors. This program should be expanded to cover more 
countries and the rate of fuel conversion should be increased. 
In addition, research reactors in many countries use HEU as 
fuel. These reactors should all be converted to use low 
enriched uranium fuel as soon as possible.
    I thank you for the opportunity to testify here and look 
forward to your questions.
    Mr. Linder. Thank you, Dr. Tannenbaum.
    [The statement of Mr. Tannenbaum follows:]

                 Prepared Statement of Benn Tannenbaum

    Mr. Chairman, Congressman Langevin, Congressman Pascrell, members 
of the Subcommittees, thank you for this opportunity to testify before 
you today on the detection of nuclear weapons and radiological 
material. I am Benn Tannenbaum, Senior Program Associate at the Center 
for Science, Technology and Security Policy within the American 
Association for the Advancement of Science. Founded in 1848, AAAS is 
the world's largest general scientific society with over 120,000 
members and 262 affiliated societies. The specific Center for which I 
work seeks to connect policy makers, such as the members of this 
Committee, with scientific and technical experts in a broad range of 
science and security-related topics. In general, we work to identify 
the experts best suited to meet your needs by providing clear, 
objective, unbiased research; we do not perform original research 
ourselves but instead act as a conduit between the academic research 
community and the policy arena.
    In this case, we were approached by Congressmen Markey and 
Thompson, who sought to better understand the capabilities and 
limitations of the radiation portal monitors being deployed to detect 
smuggled radioactive and fissile materials arriving in U.S. ports. We 
consulted two physicists with long experience in this particular field, 
Professor Frank von Hippel of Princeton University and Professor Steve 
Fetter of the University of Maryland. Based on their expert input, we 
drafted a report for Congressmen Markey and Thompson that is included 
with my written testimony. The testimony I present today is based in 
large part on their work. In addition, I am a physicist with some 
experience in the design and construction of detector technology.
    Having made those caveats, I would like to address five main points 
in my remarks.
    First, the isotopes best suited for use in dirty bombs, such as 
cesium-137, cobalt-60, or americium-241, can be detected with passive 
radiation detectors, similar to those deployed since 9/11 at ports both 
in the United States and abroad. A passive radiation detector is one 
that simply monitors the rate at which radioactive decays occur near 
the detector. The very feature that makes for a good dirty bomb--
namely, a strong source of radiation--also makes detection easier and 
shielding more difficult. In addition, the properties of plutonium, one 
of two elements most useful in constructing nuclear weapons, are such 
that it, too, can be detected with passive radiation detectors. An 
active radiation detector, in contrast, uses some sort of a probe such 
as x-rays or neutrons to determine the contents of a container.
    Second, the physical properties of uranium, including the highly 
enriched uranium (HEU) that would be used to construct a nuclear 
weapon, are such that shielded uranium is very likely to escape 
detection by passive radiation monitors. While some ports of entry have 
both active and passive detectors, some observers argue that they are 
not being used in the most effective manner. The passive detection of 
specific energies of radiation coupled with an active method that 
identifies the location of very dense objects is a good technique to 
detect smuggled uranium.
    Third, there are several ways to improve the capabilities of the 
passive detectors currently in use and to improve future generations of 
detectors. The current detectors can be improved by increasing the 
sampling time, decreasing the distance between the container and the 
detector, decreasing the background radiation through additional 
shielding around the detector, and adding collimators to the detectors. 
In addition, future detectors must have better energy resolution. This 
allows one to distinguish harmless radioactive materials, such as kitty 
litter, from dirty bombs and nuclear weapons. There are limits, 
however, to the space available for these detectors and to the time 
available for scanning.
    Fourth, there are several interesting R&D programs exploring new 
techniques to locate radiological and fissile materials. At Los Alamos 
National Lab, researchers are using cosmic rays to find very dense 
materials, such as plutonium and uranium, in very small quantities 
within cargo containers. At Lawrence Livermore National Lab, 
researchers use neutrons to ``ping'' a container. These neutrons induce 
a very characteristic gamma ray response in fissile materials. An Ohio-
based company has proposed inexpensive detectors that would be placed 
in cargo containers during transoceanic shipment. These detectors take 
advantage of the 10-day or longer transit time to locate HEU. This has 
the additional feature of allowing the interception of dangerous 
materials before they enter a U.S. port. The Department of Homeland 
Security and the Department of Energy's National Nuclear Security 
Administration have recently begun construction of a facility to test 
portal monitors and expects to select the next generation of technology 
next year using a temporary test bed.
    Fifth, the best way to protect the United States from smuggled 
nuclear weapons is to use a layered defense. The currently deployed 
portal monitors in many domestic and foreign ports are an important 
first step. Adding in-transit detectors and active scanners would 
increase our ability to locate radiological and fissile material. The 
intrinsic difficulties in detecting uranium make it particularly 
important to secure, control, and protect existing supplies of HEU and 
plutonium around the world. It will always be far easier to monitor a 
lump of uranium at a known location than it will be to detect uranium 
smuggling. The Comprehensive Threat Reduction program has enabled the 
safeguarding much of Russia's HEU and plutonium, and some of the HEU 
and plutonium is being converted to fuel for use in nuclear power 
reactors. This program should be expanded to cover more countries and 
the rate of fuel conversion should be increased. In addition, research 
reactors in many countries use HEU as fuel; these reactors should all 
be converted to use low enriched uranium fuel as soon as possible.
    I thank you for the opportunity to testify, and look forward to 
your questions.

[GRAPHIC] [TIFF OMITTED] T5356.001

[GRAPHIC] [TIFF OMITTED] T5356.002

[GRAPHIC] [TIFF OMITTED] T5356.003

[GRAPHIC] [TIFF OMITTED] T5356.004

[GRAPHIC] [TIFF OMITTED] T5356.005

[GRAPHIC] [TIFF OMITTED] T5356.006

[GRAPHIC] [TIFF OMITTED] T5356.007

[GRAPHIC] [TIFF OMITTED] T5356.008

[GRAPHIC] [TIFF OMITTED] T5356.009

[GRAPHIC] [TIFF OMITTED] T5356.010

[GRAPHIC] [TIFF OMITTED] T5356.011

[GRAPHIC] [TIFF OMITTED] T5356.012

[GRAPHIC] [TIFF OMITTED] T5356.013

[GRAPHIC] [TIFF OMITTED] T5356.014

[GRAPHIC] [TIFF OMITTED] T5356.015


    Mr. Linder. Mr. Aloise, you talked about the troubling 
problem of lack of cooperation and coordination between the 
various agencies. I presume you studied the proposed DNDO that 
the department is attempting to stand up. Can this center help?
    Mr. Aloise. Actually, Mr. Chairman, we have not yet studied 
that proposal. We are doing that as we speak. We have ongoing 
work doing that. But if the agency can get better coordination 
and get the agencies talking to each other on a continuous 
basis, that would help.
    Mr. Linder. Dr. Wagner, if you were advising the terrorists 
on how to get radioactive material into this country, would you 
advise them to avoid the points of entry that are guarded?
    Dr. Wagner. Mr. Chairman, that would depend on what we had 
done elsewhere. Certainly today, I think, coming through the 
guarded points of entry might be as good a way of getting in as 
some other way. We can close off those relatively easily 
because we control those. If we have done that and if we have 
made it easy for them to get it to our shores, which we ought 
to not let it be easy for them, then either you or Mr. King, I 
believe, talked about bringing it in a pickup truck. That might 
be a pretty easy way to do it.
    I think, however, that with an aggressive R&D program it 
would be possible to develop sensor technologies that might be 
able to be deployed, even where pickup trucks could come 
across, to close off that route too.
    Mr. Linder. Mr. Aloise, you talked about two important 
things that are going to have to be improved--training and 
intelligence. I assume you are aware that the Department's 
intelligence portion of the budget is about 1 percent, maybe as 
much as 2, and we are sending billions of dollars to local 
communities to buy things with no training and experience tied 
to it.
    Do you think it would be a good idea for us to find a way 
to tie any of these grants to local States and localities for 
training issues?
    Mr. Aloise. Training is vitally important. It doesn't 
matter how good the equipment is if they don't know how to use 
it. It lessens the effectiveness of it greatly. I would say 
that training would be a very good thing to invest in.
    Mr. Linder. How about intelligence?
    Mr. Aloise. As well as intelligence, of course, yes.
    Mr. Linder. Should it be more than 1 or 2 percent of the 
budget?
    Mr. Aloise. I really couldn't comment on that at this 
point.
    Mr. Linder. Dr. Tannenbaum, how many locations do you think 
there are in this country where you could find cesium-137?
    Mr. Tannenbaum. Dozens.
    Mr. Linder. Unprotected?
    Mr. Tannenbaum. Yes.
    Mr. Linder. Do you think it is fair to say that hospitals 
spend more energy and money disposing of hypodermic needles 
than they do taking care of their cesium?
    Mr. Tannenbaum. I believe so.
    Mr. Linder. How much would a terrorist have to have to make 
a problem?
    Mr. Tannenbaum. A dirty bomb is a weapon of mass terror; it 
is a weapon of not mass destruction, but of mass disruption. So 
as long as they were sufficient to trip radiation detectors, 
that would be enough.
    Mr. Linder. Thank you. I yield to my partner, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Aloise, you have done a great deal of work on nuclear 
detection, and one thing that stands out in your testimony is 
that the Federal Government does not have a nuclear detection 
and interdiction strategy. Such a strategy would define agency 
responsibilities, ensure that all screening operations are 
integrated and set the framework for our government's research 
and development efforts.
    In your work, have you come across such a nuclear detection 
strategy, and if not, do you feel one is needed?
    I would also, of course, be interested in hearing the 
opinions of our other witnesses.
    Mr. Aloise. When we started our work, none of the agencies 
we looked at actually had plans or strategies, strategic plans. 
Since the issuance of our report, some plans have been 
developed, but we still are hearing of and are aware of 
problems with coordination. That suggests there is still a need 
for a broader strategy.
    Mr. Langevin. Do any other witnesses care to comment?
    Dr. Wagner. Well, since I already waded into this a minute 
ago, I will wade a little farther, sir.
    Somebody said that plans are nothing, but planning is 
everything, and I think that is really important. I once read a 
quotation from Winston Churchill where at the beginning of 
World War II, one of his aides said, ``Prime Minister, are we 
going to plan to win this war, or are we just going to muddle 
through?'' And Churchill's answer was, ``We are going to plan 
to muddle through.''
    I think the flavor of the way the government approaches 
this problem has to be to ``plan to muddle through.'' I think 
it is possible to overplan, to spend so much effort on planning 
and detail that the people doing the work in the field will 
never get things to actually figure out how they work and feed 
that back into the R&D process.
    So, again, it is a question of balance between how much you 
plan, how elaborately you lay out the architecture in advance 
and actually get something in the field that helps a little bit 
and gets some experience to plan the next cycle.
    Ms. Rooney. As I mentioned in my statement, the 
coordination at the local level is absolutely exceptional. As 
we have said in other testimony on other subjects, there 
appears to be a greater need for a strategy at the Department 
or at the agency levels.
    The delivery of the product on the local level is very 
good, but we notice a number of gaps and overlaps in the 
strategy, or lack thereof, from department to department.
    Mr. Tannenbaum. There should also be better coordination 
between domestic and foreign ports. I think the training levels 
that the foreign operators receive are not always sufficient. 
That would be a definite place to start.
    Mr. Langevin. And in your testimony, Mr. Tannenbaum, you 
had suggested that we need as quickly as possible to protect 
research and medical reactors.
    Mr. Tannenbaum. There are a set of research reactors used 
at universities all over the world. There are also a set of 
reactors used to produce medical isotopes. By and large, these 
use highly enriched uranium as fuel, typically in several-
kilogram quantities. These are on university campuses, often 
with low security, so these are prime targets.
    Many of them, since they are being used for research 
purposes, can be converted to low enriched uranium. Those that 
are being used for medical purposes can also be converted to 
low enriched uranium. There is no reason economically or by the 
laws of physics not to convert those.
    Mr. Langevin. Is that the standard right now, that those 
research reactors use high enriched uranium, or is that the 
exception?
    Mr. Tannenbaum. When research reactors were first deployed 
I believe they all used HEU, and as time has gone on, we have 
converted more and more to low enriched uranium.
    Mr. Langevin. Can you clarify that in terms of percentages?
    Mr. Tannenbaum. I am afraid I cannot.
    Mr. Langevin. I would be curious to know if you have the 
committee follow up with getting an answer to that question. I 
would like to know how much research reactors right now are 
still using highly enriched uranium. I see my time is just 
about to expire, so I just want to thank you very much. I have 
other questions I will submit for the record.
    Mr. Linder. Thank you, Mr. Langevin. Chairman King.
    Mr. King. Thank you, Mr. Chairman.
    Ms. Rooney, in your testimony, you said that New York has 
approximately, has 22 of the 30 RPMs that are required. You 
also said that the intermodal cargo is not screened. So 
obviously, not all cargo is being screened. But even assuming 
that you had 30 out of 30 and the intermodal cargo was 
screened, it would seem to me that if the terrorists had 
managed to get these type of devices into New York harbor, it 
would be much more worthwhile for them to detonate it right in 
the harbor rather than go to the trouble of offloading it. Do 
you have any idea how many of the ships coming in have been 
screened before they get into the harbor, into the port?
    Ms. Rooney. If there is credible intelligence that CBP or 
other agencies get of a particular device or substance that may 
be on a ship, they do some screening and some preliminary 
testing out at sea. We have a number of ships in the last four 
years, the Mayview Maersk, the Palermo Senator, that have all 
had suspect cargo on board that were screened out at sea. Other 
than credible intelligence, all of the screening is done after 
the cargo is discharged, after it has sat on the pier for 5 to 
7 days, and only on its outbound entry, outbound exit of the 
terminal into the hinterland.
    We maintain that the screening should be done at the port 
of export so that we have every reasonable assurance when the 
cargo arrives in the United States, that it is in fact clean, 
and that if we are doing screening here in the U.S., it is as 
an absolute last resort, just to double-check, not as our 
primary inspection point.
    Mr. King. There is a practical matter, for instance, with 
the megaport program and the container initiative, do you have 
any way of knowing what percentage of ships that would affect 
right now?
    Ms. Rooney. I am not familiar with the container, as 
familiar with the container security initiative in terms of 
what equipment is deployed in which particular ports. I know 
other container security issues that are not required to have 
radiation portal monitors, as opposed to having an extra type 
machine, which perform extremely different functions. So I 
can't quantify that at this point.
    Mr. King. Obviously, I am more familiar with New York and 
New Jersey, but I would just think that Los Angeles, Baltimore, 
Houston would all have the same dilemma that once it arrives, 
the catastrophic damage that could be caused, you know would be 
incalculable.
    Okay. Let me go to another point. We are talking about 
containers, but how about the thousands of boats and yachts and 
other non cargo ships that travel in and out of our ports on a 
daily basis? I can open it up to anyone on the panel. They are 
not subject to RPM inspection. How significant a problem is 
that? Let me just add that I agree with Dr. Wagner. We 
shouldn't be afraid to fail in certain respects here. If we 
have to overspend, if we have to make some mistakes, fine. It 
is important to go ahead. So when I am asking these questions, 
I am not trying to be overly negative. I really like your 
opinions. What are we doing about non cargo ships that are 
coming into our ports?
    Ms. Rooney. In terms of passenger vessels or personal, you 
know, vehicles, again, there is little that is being done 
certainly by Customs on those vessels, unless they are arriving 
from foreign, they are reported to Coast Guard. They do need to 
indicate their arrival, their intended arrival to the Coast 
Guard but there is very generally little focus on personal 
vessels as compared to commercial vessels. And that remains an 
area of concern, even so much as the physical security of 
marinas, you know, remains a concern of ours.
    Mr. King. Anybody else wish to comment?
    Dr. Wagner.
    Dr. Wagner. Yes, sir. You keep posing tough problems and 
that is a really tough one. To beat that particular avenue of 
attack, I think the main tool we have is intelligence and law 
enforcement overseas. Now, portal monitors and other means that 
we have at our disposal are not unconnected to intelligence. 
They are connected to the question of discovering an attack on 
us and interdicting it by intelligence and police work in the 
following way. They are connected. If we can raise the bar by 
deploying effective systems where we do control the 
environment, that means the attacker has to mount a larger 
operation, he has to recruit more people, he has to surveil the 
routes that he will take in. Every one of those steps makes him 
more subject to being discovered by police work and 
intelligence.
    Mr. King. Thank you for your testimony.
    Mr. Linder. The time of the gentleman has expired. The 
gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. My first question is 
this to the panel, and I have asked you to be brief and I will 
try to be brief with my question. There are very few containers 
that are going through radiological inspection now before they 
hit our ports. We have a relationship with about 35 countries 
that are examining cargo before it goes on foreign ships when 
they come here.
    It would seem to me we want to cut down the amount--we are 
never going to be able to examine every container, we know 
that, for explosives, for nuclear weapons. But it would seem to 
me, with such a small percentage of those ships, those 
containers that will be inspected for radiological situations, 
how can we increase appreciably the amount of inspections? Are 
we trying to guess at this?
    I know we don't have a seamless, and we will never have a 
seamless process. I understand that. I heard the Secretary talk 
about that as well. All right. We can accept that. We know this 
is not a perfect world. We are finite beings. But it would seem 
to me, that we--either we haven't--not only we haven't created 
the technology, we don't have enough money to increase the 
state of the art. What am I missing here? Suppose you start us 
off, Dr. Wagner.
    Dr. Wagner. Having, being a scientist and having been a 
technologist my whole career, I believe that research can lead 
to reductions in costs of even high tech stuff. It will take a 
while. It will take years, although not decades to do that. The 
Defense Science Board task force that I chaired posited 
procurement and deployment of hundreds of thousands of 
detectors. We said that such a defense might cost a few 10s of 
billions of dollars. To me that is kind of the right--I mean, 
we are spending many tens of billions of dollars on missile 
defense, so I think the combination of thinking big in terms of 
procuring large numbers of the detectors and driving the cost 
for those detectors down through R&D is the path to success.
    Mr. Pascrell. Ms. Rooney.
    Ms. Rooney. I believe that the scientific community needs 
to partner more with the private sector and with the maritime 
industry in that, you know, making the technology work is only 
one aspect of the problem. Fitting the technology into the 
business process is a much more complex issue. And by 
partnering with the private sector, the--we can inform the 
scientists on how the technology needs to work within our 
industry. Just by way of example, both the port of Virginia, 
Norfolk and the port of Newark, New Jersey experimented with 
radiation detector devices on our cranes.
    The technology works, but the technology was beat up by 
being, you know, the impact of hitting the container. The 
technology needs to be ruggedized in order to withstand our 
industry, and it is something as easy as understanding how we 
operate that could help the science and their research and 
development community to make better devices.
    Mr. Pascrell. Thank you. Anyone else wish to respond to 
that?
    Mr. Tannenbaum. I would focus on ports where security is 
the least right now rather than those that have the highest 
volume.
    Mr. Pascrell. Well, we are doing an assessment of that. So 
you are saying we should provide resources for those ports that 
are most vulnerable, obviously.
    Mr. Tannenbaum. Correct.
    Mr. Pascrell. Okay.
    Mr. Aloise. Well the DOE's megaports program is in two 
ports. And one of the problems they are facing is convincing 
other ports to cooperate. So it is not only technology, it is 
getting the cooperation of other ports overseas to join in on 
us in this effort.
    Mr. Pascrell. Yeah. I am not too hopeful about the 
situation from what I am hearing from you. I know that you are 
telling me what you really think. But, I mean, you know, we are 
going to hear from the panel, Department of Energy, Department 
of Defense, Homeland Security, we hope that they are talking to 
each other. We hope the intelligence community, all of these 
agencies are talking with each other, since we do not have the 
state of the art to find out where this radiation is. If it is 
out there, hopefully these 15 agencies are talking with each 
other, you know. I don't believe they are talking to each 
other. But let me ask one more question.
    Ms. Rooney, so far only the port of Oakland had fully 
deployed radiation portal monitoring equipment. How far along 
is the New York-New Jersey Port Authority in deploying this 
equipment, and when do you expect to complete the work?
    Ms. Rooney. Well, we have 22 out of the 30 devices that we 
are going to get. They are not currently installed in our 
largest volume terminal operator. So approximately 45 percent 
of our cargo volume is currently being scanned. We expect that 
they will be fully implemented by the end of the year, except 
for the rail and barge cargo.
    Mr. Pascrell. Thank you. Thank you, Mr. Chairman.
    Mr. Linder. I thank the gentleman. Mr. Simmons, do you wish 
to inquire?
    Mr. Simmons. I thank you, Mr. Chairman, I thank both of our 
Chairs and both rankings for a very interesting subject. As I 
reflect on Mr. Tannenbaum's testimony, point five had to do 
with a layered defense, and I think there is a lot to be said 
for a layered defense. I spent some time in Israel a few months 
ago, and they have a very excellent system of layering their 
defenses against terrorist activities, not so much nuclear but 
terrorist. But it occurs to me that a layered system is 
essentially passive in nature; that portals, especially fixed 
portals, the portals that don't move around but are set in 
certain locations are essentially passive; that even 
inspections in ports, unless they are informed by intelligence 
or tip offs are essentially passive.
    And I recall a comment that was made some months ago that 
if you want to find a needle in a haystack, it helps to have a 
magnet. If you want to find a needle in a haystack, it helps to 
find a magnet. Using a magnet to find a needle is more active, 
less passive, in my opinion. And taking that analogy to the 
next step, if indeed we are going to be successful and if 
indeed we are going to be able to afford what we are doing, it 
seems to me that we have to be more active. We have to rely 
more on intelligence and law enforcement, both at home and 
abroad, and that we may even have to rely on active measures to 
draw the terrorists out, perhaps sting operations, things of 
that nature, where you place a piece of bait out into the 
domain and see who nibbles, and roll them up. Is there any 
value in that? Has anybody in the panel given consideration to 
those types of active measures?
    Dr. Wagner. I think, sir, that you are just right. The 
limit threat, in some sense, is highly enriched uranium that 
has as much shielding around it as will fit in whatever the 
container is that carries it, whether it is a pickup truck or a 
cargo container. I don't think you are going to find that 
without active interrogation.
    Now, I was talking with Ms. Rooney before the hearings 
began, and she tells me that the longshoremen in New York are 
getting comfortable with x-ray radiation and the health and 
safety concerns that might come along with that. I think that 
is a fruitful avenue to pursue and it ought to be pursued 
strongly.
    Mr. Tannenbaum. If it reaches the United States it is too 
late. If it leaves a foreign port it is too late. If it arrives 
at a foreign port it is too late. I think that the best thing 
to do is to maintain control of as much material as possible 
where it is right now and rather than letting it be stolen and 
converted into a weapon.
    Mr. Simmons. So that would be essentially a ``nail it down 
and keep an eye on it'' strategy, which works except in the 
case of loss or theft.
    Mr. Tannenbaum. Yes.
    Mr. Simmons. Another alternative, and you made a very 
interesting remark about whether a nuclear, a dirty bomb would 
be designed to destroy or designed to disrupt. I believe cesium 
is available in the United States in hospitals and universities 
and other medical facilities. So in fact, it is resident here 
in the United States. It could be stolen here and could be used 
for a dirty bomb attack on an urban area. How would we address 
that issue?
    Mr. Tannenbaum. Even worse than being stolen or lost is on 
a regular basis we have thousands of sources that are lost in 
this country that are utterly unaccounted for. It depends on 
how much money we want to spend. Do we want to put a radiation 
detector on the underside of every bridge in New York City? Do 
we want to put one on the corner of every building? I think 
that is the extreme you have to go to if you are absolutely 
sure that you want to get rid of absolutely every possible 
dirty bomb.
    Mr. Simmons. Anybody else?
    Mr. Aloise. Yes. The question of dirty bomb material is a 
significant question, and we have reported on this in the past. 
DOE has developed a program to collect some of the worst types 
of those materials. But again, it is a matter of resources. If 
they had more money they could collect more. But it is an 
important program that they have, and one that we support.
    Ms. Rooney. Well, I can't comment on the amount of sources, 
you know, that are available. We are heavily focused on supply 
chain security and needing to know exactly what it is in a 
container, what is going in a container from its point of 
origin all the way through its final destination. And we 
believe that development of supply chain security standards, so 
that we know what is going in the container, we know the 
individuals that are stuffing it.
    We can ensure the integrity of the container. We can have 
sensors in the container that will regularly scan for chemical, 
biological, radiological devices and send an alert if something 
happens all the way to the final point of delivery is what 
needs to be developed as yet another layer in that overall 
security system.
    Mr. Linder. The time of the gentleman has expired. Mr. 
Thompson wish to inquire?
    Mr. Thompson. Yes, Mr. Chairman. This is a good topic. One 
of the questions, Ms. Rooney, that I hear quite often from the 
business community is if we do the inspections, how will this 
impact the movement of goods? Have you all done an analysis of 
these technologies and whether or not they would impair the 
movement of goods?
    Ms. Rooney. Well, one of the reasons why it is important to 
get the private sector involved in the development phase, is so 
that we don't impact the movement of goods, we highly encourage 
the R&D community to get the private sector involved at the 
ground level. We have not done a study, per se, but I can tell 
you that we have not had any complaints from the likes of the 
trucking community or the shippers saying that their cargo has 
been delayed because of the radiation portal monitors. Again 
most of the alarms have been resolved within 10, 15 minutes and 
the truck is sent on its way, so it is not a tangible delay 
that the community is faced with right now.
    Mr. Thompson. Thank you. Dr. Wagner, in your view, has the 
deployment of the portal monitors, resulted in improved 
coordination between agencies, such as DHS or DOE? Is there 
enough communication for us not to be repetitious, for us to 
make sure that there is a standard that is employed across the 
board so that we deploy the best possible technology?
    Dr. Wagner. Mr. Thompson, I have not watched that 
particular program closely enough to know whether the agencies 
are coordinating well enough or not. My guess is probably not 
because that is often the case. I am more concerned about close 
coordination between Ms. Rooney's people and the scientists and 
engineers in the private sector and at the laboratories than I 
am about coordination between the government agencies. That is 
the short circuit that I want to build in, between the people 
really doing the work in the field to develop better 
technologies and her people who are using the current ones so 
that we can learn and they can learn.
    Mr. Thompson. Mr. Aloise, do you want to address that?
    Mr. Aloise. Yes. Coordination was a problem in the 
beginning. It got better, but it is still of concern. And it is 
not just coordination for coordination's sake. As we reported 
and it is in my statement, one agency, State Department was 
deploying equipment that wasn't as good as other agencies were 
deploying, so the countries that the State Department were in 
deploying, their borders were more vulnerable because the 
equipment they were deploying was not as good.
    So, you know, coordination was a problem. It got better but 
it is still a concern. We are still concerned that labs are not 
talking to each other as they should. The agencies are not 
talking to each other as they should. And we are looking at 
that problem again right now.
    Mr. Thompson. The other question I have speaks to whether 
or not the communication between government and the private 
sector is sufficient enough that we can get the latest 
technology into the ports within a reasonable period of time, 
or do you feel that DHS, for instance, does not move fast 
enough in its implementation of this new technology? Have you 
had an opportunity to look at any of that?
    Mr. Aloise. Yes, we looked at deployment and it was slow in 
the beginning. It is better now. The question is, a question 
everyone faces, I guess at this point, do you wait until the 
better technology comes along or do you deploy what you have 
now? Originally this program was thought of as just another 
tool for the Customs agent or border inspector. It wasn't an 
end all or be all. So what we are facing now, what is the 
incremental value we are going to get from this new technology 
against what we have now, because the question is whether you 
wait or not to deploy more equipment is a vital one.
    Mr. Thompson. I guess the other issue is, protected 
regardless of the technology, is there a uniform standard so 
that we are not vulnerable at one point of entry, and not 
vulnerable at another? Or is it that the technology is such a 
state that it would render us more vulnerable? I guess that is 
my point.
    Mr. Aloise. The present set of equipment has limitations. 
But the bottom line is that with the equipment you have some 
chance of catching this material. Without it you probably have 
very little chance of catching it.
    Mr. Thompson. Thank you.
    Mr. Linder. Thank you, Mr. Thompson. Mr. Pearce, do you 
seek to be recognized?
    Mr. Pearce. Thank you Mr. Chairman. Mr. Tannenbaum the 
portal that you mentioned, is that the DTRA attempt to put 
monitors in all of the Soviet Union sites?
    Mr. Tannenbaum. That is part of it, yes.
    Mr. Pearce. Are you familiar with the requirement to have 
that completely done by 2007? In other words we have had about 
15 years and it was supposed to be 100 percent finished by 
2007.
    Mr. Tannenbaum. That is correct.
    Mr. Pearce. The reports I have are that it is about 30 
percent done.
    Mr. Tannenbaum. Again, correct.
    Mr. Pearce. And the reports that I have is the 30 percent 
that is done is very poorly done. In your report you are 
pretty, you have--you have been very supportive of the portals, 
and yet it sounds like the program is not functioning so well.
    Mr. Tannenbaum. It has been, shall we say, a bad few years 
for the installation of portal monitors where a lot of 
negotiations on liability have been happening. And I am hopeful 
that we will see things change now.
    Mr. Pearce. Mr. Wagner, you indicate that we need not be 
too concerned about waste. Does this waste that we see here 
rise to the level that you get concerned, or is it part of what 
you said, we just need to, if we try to eliminate all the 
mistakes, we are not going end up with any progress. Are we 
rising to the level where you are concerned?
    Dr. Wagner. If you are asking, sir, about the DTRA CTR 
program--
    Mr. Pearce. Yes, that is what I am asking about.
    Dr. Wagner. I think that no, sir, that particular one, I 
don't think waste is the right way to characterize it. I agree 
that the deployments have not been as effective. But I think 
that the difficulties in doing contract work in Russia and 
those places are so great that--
    Mr. Pearce. Well, I mean we have spent the money.
    Dr. Wagner. I am pleased that we have made the progress we 
have. But I think it ought--I mean, I wish it were a lot faster 
and a lot more--
    Mr. Pearce. I understand. But if we have spent the money 
and we didn't get--I just can't envision that it would be as 
expensive to do that here as it is there. And if there are 
problems getting it in, I can understand. But if we go ahead 
and spend the money and we don't succeed, I don't understand 
that.
    Recently the vice president of Los Alamos labs was quoted 
as saying that the future of Los Alamos labs is not nuclear 
detection and security, but instead nanotechnology. Do you 
agree or disagree with his statements?
    Dr. Wagner. I am not sure I know--I wasn't aware of that 
statement. But I would disagree. I think it is both radiation 
detection, nanotechnology and a lot of other technologies that 
are important for national security.
    Mr. Pearce. Why do you think that he made those comments? 
It makes it very difficult for us to--
    Dr. Wagner. I know it does. The national labs, if I may 
volunteer, the national labs, which are of crucial, although 
not--they are not sufficient, but are a crucial part of working 
this problem, have institutional issues that they need to deal 
with. And what I mean by that is the following: That the labs 
for decades have provided technology for problems like this 
one, coming out of the technology base, the science 
understanding that came with the nuclear weapons program, since 
the Manhattan Project. The labs are concerned that programs 
like the radiation detector program, will suck effort out, but 
not renew that technology base. And I think that is an 
important question for the labs.
    Mr. Pearce. Okay. I have got one more question. Mr. Aloise, 
also we have reports that the Department of Commerce is 
permitting technology to be shipped out to accomplish these 
oversight capabilities. But DOE is requiring certain permits 
and slowing the process down by 6 months. Are you familiar with 
that?
    Mr. Aloise. I am not familiar with that, no, sir.
    Mr. Pearce. Thank you, Mr. Chairman. That is my last 
question.
    Mr. Linder. Thank you. Mr. Etheridge, do you wish to 
inquire?
    Mr. Etheridge. Thank you, Mr. Chairman. I do. Mr. Simmons 
touched on the issue a while ago and several others have. I 
tend to agree that if we could get our hands on this stuff, 
especially through the Nunn-Lugar, we would be a lot better 
off, and the dollars we spend there probably are the best 
dollars we can spend.
    But Mr. Aloise, let me ask you a question, if I may, sir. 
Several have raised the issue of movement of goods, the 
commerce that is so critical. People obviously want to get the 
stuff here and we want to ship it out. And one of the issues 
that has popped its head up as we move stuff in and out is this 
whole issue of a false positive pops up with some of the 
technology as important as technology is. As an example, if it 
pops up in a port, you may just stop one truck. But it happened 
to be at an airport, you know, you have got a much bigger 
problem. Has the GAO done any kind of cost-benefit analysis on 
these issues as the result of an unknown or even if it were an 
unknown issue, or a medical piece, the cost of such issue?
    Mr. Aloise. We have not done a cost benefit analysis, but 
in our work every place we have gone we have asked that 
question and we have observed operations overseas. The nuisance 
alarms are a problem. And we have been at border sites at 
Russia and around the world watching trucks pulled over and 
gone through secondary inspections. No one has really told us 
that it has impeded commerce to the point that they thought it 
might at this point, even with the nuisance alarms they are 
getting.
    Mr. Etheridge. All right. Let me follow that up. Have you 
done any examination of the cost-benefit or some of the higher 
performing radiation technologies that may be out, or do you do 
that?
    Mr. Aloise. We have not.
    Mr. Etheridge. Who does?
    Mr. Aloise. We have not done that. And I am not aware of 
any studies we have had along those lines. However, a lot of 
the newer technologies are not to the point yet where, you 
know, we would have even been there to do that yet. That is 
what some of these new test beds that are developed around the 
country are designed to do in Nevada starting in August.
    Mr. Etheridge. Okay. Thank you. Ms. Rooney, let me ask you 
a question along the same lines, if I may, because as someone 
said, you are right where the rubber meets the road, where the 
containers come in and out. As it relates to the containers 
coming in, you mentioned earlier that you have had some, but it 
was a matter of minutes, or certainly less than an hour they 
would move. Do you consider such indirect cost when acquiring 
the detection equipment that you buy?
    You did allude to the fact that some of this was really not 
designed for the heavy impacting it will take when you unload 
containers, et cetera.
    Ms. Rooney. We are not the purchaser or the users of 
technology. It is the--
    Mr. Linder. Is your mike on?
    Mr. Etheridge. Turn your mike on, please.
    Ms. Rooney. The Port Authority is not either the procurer 
or the user of the technology. It is procured by CBP and it is 
operated by CBP. So we have not done any cost-benefit analysis 
as well. And as I mentioned before, we have had no complaints 
of commerce being impeded as a result of these technologies. 
There was grave concern when the program was first announced 
that commerce would be impeded and would be slowed down, but 
that has not come to be.
    Mr. Etheridge. Let me just read a piece. A recent New York 
Times article reported that at the port of Newark, the ports 
follow system for radiation alarms are handling devices that 
are supported to or supposed to determine what sets off an 
alarm as a flawed device. The weakness of the devices were 
apparent in Newark. One recent morning a truck whose records 
indicated it was carrying brakes from Germany triggered the 
portal alarm, but the back-up device could not identify the 
radiation source. Without being inspected, the truck went on 
its way to Ohio.
    Ms. Rooney. I can't speak to the details of that particular 
incident because I am not familiar with it. My understanding of 
the way that CBP operates the program is if an alarm goes off 
through the portal monitor, it then goes to a second inspection 
where a handheld isotope identifier is used in order to 
identify the actual isotope. That is then compared to the 
manifest and a determination is made whether or not it could go 
on. I would find it hard to believe that until the source was 
identified and satisfactorily identified that that truck would 
have been allowed to go on.
    Mr. Etheridge. Mr. Chairman, I only read what I read in the 
paper and I assume that is, but I--I know my time is expired. 
Is there a record kept of those kind of things, someone keeping 
the documented records, because I think that is important?
    Ms. Rooney. CBP does keep the documented records of all of 
the radiation alarms and their resolution.
    Mr. Etheridge. And their disposition?
    Ms. Rooney. Yes, sir.
    Mr. Etheridge. Thank you, Mr. Chairman. I yield back.
    Mr. Linder. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. To our 
witnesses, thank you today for being here and helping us 
understand this issue greatly. I have just one question because 
throughout the period of the Cold War, we have spent so much 
time developing a strategy that was based on assured mass 
destruction as a deterrent. What kind of deterrence do you 
envision to be able to enact that would threaten somehow those 
that are willing to perpetrate a disastrous event with one of 
these radiological or nuclear devices in our community? How do 
you create a deterrence image with--how would you do such a 
thing? Dr. Wagner.
    Dr. Wagner. Having lived through that Cold War, the 
deterrence developed into almost a theology, as you know. 
Deterrence meant in that context, deterrence by fear of 
punishment. I don't think that is going to work very well 
against these enemies. But there is another meaning, which is 
deterrence by fear of failure.
    Chairman Linder, I believe it was in his comment, said that 
the terrorist would go to great lengths to be sure that he can 
penetrate the defense. Deterrence by making him unsure that can 
he penetrate the defense is the kind of deterrence that I think 
is available and crucial for this job.
    Mr. Gibbons. It seems a bit uncertain to me that those 
people who are so committed to this type of a heinous act, who 
have gone to such great lengths, would be so vulnerable or so 
casual as to not select an avenue or a route that would allow 
them to achieve their goal. They are not stupid people. They 
are not people that would not, or would just take a rather 
casual approach to this whole thing, but one which I believe 
are very well studied. So I am not sure that that is any kind 
of a deterrence at all.
    Dr. Wagner. May I respond sir?
    Dr. Gibbons. Yes, sir.
    Dr. Wagner. I am not sure either. But no defense is going 
to be absolutely sure. Do I think it is worth the money? If the 
stakes weren't so high I would say it is not worth the money to 
try. But the stakes are incredibly high, and so I think it is 
worth the money.
    Mr. Gibbons. One other issue that came to mind was the 
issue about reporting for health issues. In other words, 
whenever there is some kind of a radiation disease that is 
noticed or recognized by a hospital or health care facility in 
an individual, is there a mandatory report that has to be filed 
with that so that we know somebody has been exposed? When you 
are dealing with this type of material, it is a very expensive 
process to avoid being exposed to this type of thing. I would 
think that one of our first signs of intelligence would be some 
type of a health report on somebody who is exposed, received 
care for some type of radiation treatment. Is there a mandatory 
report at all in any of the areas that you know about?
    Dr. Wagner. I don't know whether there is or not sir, and 
others may want to comment. But some of the, what are called 
innocent alarms in portal monitors and other kind of radiation 
monitors come from, you are quite right, people who have 
received radiation treatment. It is possible to develop, in 
fact, one can buy them today, isotope identification systems 
that can distinguish the signature of that kind of radiation 
from the signature of a bomb.
    Mr. Gibbons. Well, that would be something like a 
nanolever, wouldn't it, where it is coded to receive a certain 
molecular or isotope?
    Dr. Wagner. Some of the biological warfare programs are 
intending to be molecular identifiers. In the case of 
radiological treatment, health treatments, it is more detecting 
the gamma rays, which is what we have been talking about here 
this morning.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Linder. Gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman. Dr. Tannenbaum, first 
of all, excellent study by you and Dr. Neureiter and Dr. Fetter 
and Dr. Von Hippel. As you know, we sent our request to you 
because there was a discrepancy between the views of many 
experts who determined that the radiation portal monitors 
deployed by the Department of Homeland Security were unable to 
detect highly enriched uranium and assertions by Department 
officials who repeatedly claimed that the portal monitor is 
capable of detecting HEU. You, like so many others, came to the 
conclusion that the laws of physics simply do not lend 
themselves to detecting the very material that represents the 
easiest pathway for a terrorist to build and detonate a 
homemade nuclear weapon capable of killing tens of thousands 
Americans.
    Your analysis also discusses some cost effective 
engineering fixes the Department could utilize in the short 
term to approve the sensitivity of its equipment. Could you 
please elaborate.
    Mr. Tannenbaum. Certainly. We described several ways that 
you could physically modify the terminals, the portal scanners. 
I have since spoken with the current deployment of those 
monitors and they question whether or not our recommendations 
make sense. But we suggested that you decrease the distance 
between the actual detector and the sample. That increases the 
likelihood of measuring it. We suggest that you increase the 
sampling time, meaning, you drive the truck through the portal 
slower. This gives you more data to work with.
    We suggest that you increase the amount of shielding around 
the detector to decrease the amount of background so you can 
find a real signal and get rid of all the background noise. And 
finally, the algorithms that are being used right now are sort 
of second generation algorithms, and I believe that there are 
many ways that those can be improved.
    Mr. Markey. How long do you think it would take for these 
short-term fixes to be completed before entirely new detection 
technology is ready?
    Mr. Tannenbaum. I can't answer that question.
    Mr. Markey. Let me ask this. ABC News smuggled kilogram 
quantities of depleted uranium, not once but twice into the 
United States. The Department of Homeland Security says the 
detection problem is fixed. Do you agree with that?
    Mr. Tannenbaum. I am not convinced that it is, no.
    Mr. Markey. No. Dr. Wagner, you, like so many others, came 
to the conclusion that detection of devices containing highly 
enriched uranium is very difficult and varies widely and is 
limited today to short range. Dr. Tannenbaum has said that 
taking some simple short-term engineering measures such as 
shielding the detector or decreasing the distance between the 
container and the detector would help. Do you think the 
Department of Homeland Security should take some of these or 
all of these measures in the short-term while recognizing that 
continued R&D might result in even better solutions long term?
    Dr. Wagner. Yes, I do.
    Mr. Markey. Could you elaborate.
    Dr. Wagner. There is a continuum and the process is to 
close off a larger and larger fraction of that continuum in the 
threat space. My own view is that some of these near-term 
measures of the sort that Dr. Tannenbaum mentioned ought to be 
deployed, but in a relatively limited way at the highest 
priority locations. And in parallel with that, R&D for even 
better capability, ought to be done and deployed more widely 
later.
    Mr. Markey. All right. So let us just take that and parse 
it a little bit. Where would those high--where would you deploy 
these short-term fixes waiting for a longer term solution?
    Dr. Wagner. The DOE has an analysis model that prioritizes 
the risks at various locations. To first order, I think I would 
follow the recommendations of that model. It is not a perfect 
model. It will miss some things.
    Mr. Markey. Okay. For the committees purposes could you 
elaborate on where the specifics of those locations are.
    Dr. Wagner. I don't know where those locations are. I like 
New York City.
    Mr. Markey. New York City would be on the list to have a 
short-term solution.
    Dr. Wagner. If I were calling the shots, yes.
    Mr. Markey. Anything else that you would, off the top of 
your head, put on that list?
    Dr. Wagner. I would rather not give you specifics because I 
haven't thought through those specifics.
    Mr. Markey. Okay. Well, I thank both of you. It is very 
helpful. And I think we do Mr. Chairman have to look from some 
short-term solution especially for high priority targets, I 
think.
    Mr. Linder. I thank the gentleman. Does Mr. Lungren seek to 
inquire?
    Mr. Lungren. Thank you very much Mr. Chairman. Mr. 
Tannenbaum you mentioned in your testimony about an Ohio-based 
company that has proposed inexpensive detectors that would be 
placed in cargo containers during transoceanic shipment. 
Obviously, detectors would take advantage of the 10-day or 
longer time to locate it. Can you tell us any more about that?
    Mr. Tannenbaum. Certainly. The notion is that you have a 
set of detectors that are placed in each container right before 
it is shipped off across the ocean. They measure radiation. 
They communicate with each other and before the ship arrives in 
the port of the United States it communicates its data back to 
some central location where it is interpreted and decided is 
this a ship we need to intercept or is it one that can go ahead 
and dock.
    Mr. Lungren. Do you have any idea how far along this is in 
terms of development?
    Mr. Tannenbaum. This particular company claims to have a 
prototype that is working and is ready to start doing some 
serious scale testing.
    Mr. Lungren. Thank you. Mr. Aloise, your earlier work--
    Mr. Linder. Will the gentleman yield for 1 minute?
    Mr. Lungren. Yes.
    Mr. Linder. I would just like to ask, do you have any 
estimate on cost on that?
    Mr. Tannenbaum. No, I don't, sir.
    Mr. Linder. Thank you. Thank the gentleman.
    Mr. Lungren. Anybody else on the panel aware of that? Okay. 
Mr. Aloise your earlier work has identified certain weaknesses 
in the effectiveness of the personal radiation detectors called 
pagers.
    Mr. Aloise. Right.
    Mr. Lungren. It is my understanding, are Customs agents 
still using these pagers in an attempt to search containers for 
radiologic materials? Is this an effective use of these pagers?
    Mr. Aloise. As search instruments, no. As we understand it 
the Customs inspectors wear them on their belts as safety 
devices. It is best used in a combination suite of equipment, 
with the portals, with the grids, the isotope identifiers and 
the pager. Used by itself it has limited effectiveness.
    Mr. Lungren. Is it being used in concert with these others?
    Mr. Aloise. Yes, as far as we know it is. But in some cases 
we have seen them misused.
    Mr. Lungren. What do you mean?
    Mr. Aloise. Well, they were used as search instruments. 
Instead of searching a truck with isotope identifier, we have 
seen them search the truck with the pager, and it just does not 
have the same effectiveness and is not designed to do that.
    Mr. Lungren. So you are not suggesting that it is a 
strategy that is proved by the Department, are you? You are 
suggesting it may just be a lapse in good work product by the 
people using them?
    Mr. Aloise. It is a need for better training of the 
equipment.
    Mr. Lungren. Okay. The Department of Energy has the 
Megaports Program. DHS has the Container Security Initiative. 
Both place radiation monitors at foreign seaports. What is the 
difference between these programs and why do we need both?
    Mr. Aloise. Well, the Megaports Program is placing the 
radiation detection equipment at the seaports and they have 
done two so far. They have got five more underway. The CSI 
program, which I am less familiar with, has got agreements with 
many more ports and does a number of other things to target 
containers for review.
    Mr. Lungren. Dr. Wagner, you have been involved in 
detection for many, many years. We have a limited budget. We 
have admittedly incomplete technology right now. We have to 
make some decisions. Where would you put the emphasis right 
now?
    Dr. Wagner. I would put it on developing detectors that can 
both increase the sensitivity to the wanted--the signal 
radiation from the weapon if it is there, by being larger so 
that more radiation can intercept it, but can also sort out the 
signal from the noise by doing very highly resolved 
identification of the energies of the gamma rays. That is--
there are many, many instantiations of that general idea, and 
exactly which one of those instantiations I would choose, I 
can't say.
    Mr. Lungren. Ms. Rooney, if you had one thing that you 
needed from us, what would it be?
    Ms. Rooney. Well, that is a loaded question. We do, as I 
mentioned before, need to move to supply chain security 
standards. And as an overall approach to cargo security, the 
radiation portal monitors and the isotope identifiers and 
Megaports and CSI are all parts of that.
    Mr. Lungren. Well, let me ask you a question on that. And 
that is with all due respect, you speak as if that is something 
that can be done. Are you telling me we lose no containers at 
sea, we don't lose track of them, that they are totally secure 
once they are on an ocean-going vessel?
    Ms. Rooney. We need to have greater assurances that we know 
what is going into the container, that the container's 
integrity is maintained, that we have indication of its 
location of the radiation signal that is being emitted from the 
container, all the way along in the supply chain, yes.
    Mr. Lungren. Thank you, Mr. Chairman.
    Mr. Linder. Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. Ms. Rooney, you 
spoke of high level of false alarms, and if there is a hit, the 
container is then scanned again and has a second inspection. 
And I am just wondering if you are able to attach a cost for 
that second inspection and who bears that cost?
    Ms. Rooney. The entire program is funded and operated and 
maintained by Customs and Border Protection. There is no cost 
of the radiation inspection to the cargo owner or to the 
trucking company, so we don't have any quantifiable numbers on 
that.
    Mr. Reichert. Additional personnel?
    Ms. Rooney. It is all borne by Customs. We don't have any 
visibility into that cost.
    Mr. Reichert. So the cost is borne by Customs?
    Ms. Rooney. Yes, sir.
    Mr. Reichert. Can you describe to me what port security 
looked like before September 11 in your world then?
    Ms. Rooney. Port security prior to 9/11 was predominantly 
based on theft and pilferage as opposed to national security. 
We were more concerned about keeping cargo in a container and 
on a facility until it was legally picked up than we were about 
keeping bad stuff out of a container. So there has been a 
complete change in our focus of container security.
    Mr. Reichert. What kind of tools did you use then?
    Ms. Rooney. There were little tools in terms of cargo 
security or facility security. I mean, all of the port 
facilities were secured. They had a perimeter fence. But the 
threat was different. The threat profile, again, was completely 
different pre-9/11 than it is today.
    Mr. Reichert. Had you ever heard of RPMs?
    Ms. Rooney. I personally had not, no.
    Mr. Reichert. Before September 11?
    Ms. Rooney. No, sir.
    Mr. Reichert. I am just asking this question. The point is 
that I am new to Congress and I am sitting in this hearing and 
I am listening to this discussion and I think we would be 
remiss to point out that this world has really changed. Your 
world has really changed, and I appreciate the work that each 
and every one of you are doing. We are in a transition period. 
And I do agree with Dr. Wagner that there will be mistakes made 
and we will spend some money that we wish we didn't have to 
spend, but I think we are going to be in that process for a 
while.
    And with research and development that you have spoken 
about, I now just want to ask this one last question, if you 
can describe for me what port security will look like in 5 
years or 10 years. Do you have a vision of what port security 
might look like? We know where we came from and we know where 
we are right now. We are trying to figure this out and here we 
are talking about the things that we need to do. We might have 
to place these monitors on corners of buildings as the doctor 
had indicated earlier, if we really carried this thing out 
further and further and further. What will port security look 
like in this 5 to 10 years from now?
    Ms. Rooney. Port security, from my perspective, has two 
components, the physical security of the facility and the 
vessels, and then the security of the cargo. The physical 
security of the facilities and the vessel has been well 
addressed by the Maritime Transportation Security Act. I 
believe that there are more things that we can do in terms of 
other threats, such as a small boat attack on a vessel, you 
know, a USS Cole-type event. The Coast Guard has the--the Coast 
Guard is trying to address that threat, but it is something 
that is very difficult to get anyone's arms around, you know, 
those types of threats.
    In terms of cargo security, again, we talk about supply 
chain security from origin to destination that we know a lot 
more about the cargo. We don't know a lot more about the people 
that are doing it. There is tremendous value in things like the 
monitors and C-TPAT where there is voluntary compliance to new 
standards. We believe that a container will have a lot more 
security devices on board on the container, that it will have 
electronic seals, that it will have tracking and trace devices, 
that it will have sensors inside the container that will be 
able to tell us whether there is a chemical, biological 
radiological device, or whether or not a hole has been cut 
inside the container.
    We are fairly far along through a program, Operation Safe 
Commerce, which is federally funded in developing those 
technologies and coming up with the cost-benefit of those, with 
the ultimate goal of not impacting the flow of commerce and 
providing a cost-benefit to the shipper that there is 
encouragement for the shipper to purchase this technology or 
apply this technology on to their container, because there will 
be some business benefit for doing that.
    Mr. Reichert. Thank you very much. We now know you know 
where you are going and we just have to figure out a way to 
help you. And if anyone else has a comment, that would be 
appreciated.
    Dr. Wagner. I just want to comment. I think that was an 
absolutely wonderful vision. I think radiation detection 
technology can complement that vision, but it is only a 
complementing function. All those things you mentioned are 
really important to do. I see the radiation detection 
technology part of this as doing triage while the container is 
coming to the port, so that at the port the authorities at the 
port can be fairly sure that certain ships and certain segments 
on the ships don't have weapons. The radiation detection at the 
port can then focus on those areas where there might still be a 
problem, where identification, not just sensing, not just 
getting a hit, as you say, but identifying what the hit is, is 
highly sure and can be done very, very quickly. And I think the 
radiation detection technology can be made available with R&D 
to complement that vision.
    Mr. Linder. The time of the gentleman has expired. Mr. 
McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. A bit of a follow-up 
on the technology. I am interested in the technology of today 
and what we are capable of doing. And I see we have votes 
coming up right now. Timing is everything in this game. But I 
have one of the largest ports in the Nation in my district, in 
Houston. Representative King led a delegation to the New York 
Port Authority, you may recall that, very insightful. What I 
have been told is that in 6 months, we will have radiological 
sensors in place at the ports. Is that still an accurate 
estimate of time? And this is probably to you, Ms. Rooney.
    Ms. Rooney. My understanding in talking to my colleagues in 
the port of Houston is that that is the current schedule yes, 
but I am only getting that from my colleagues.
    Mr. McCaul. Okay. How accurate is the technology of today 
in detecting, and obviously we can't go through every cargo 
container, which seems to me to be a very pragmatic way of 
screening cargo. How effective is it in screening the 
containers coming through?
    Ms. Rooney. It does have the capability of screening 100 
percent of the cargo when fully deployed. The capabilities of 
the detection technology is something, you know, that Dr. 
Tannenbaum and Dr. Wagner can speak of much better than I can.
    Mr. McCaul. Do you care to comment, Dr. Wagner?
    Dr. Wagner. I think the near-term technologies are going to 
be pretty limited. But they are worth deploying for two 
reasons. One is to give an attacker something more to worry 
about and be some protection, but also to get experience with 
actual use of even the limited technologies and actual 
operations, which is really important for guiding the R&D that 
will give you the better things later on.
    Mr. McCaul. There is a concept, talking about R&D and the 
energy windowing process. Are you familiar with that? Will that 
enhance our ability to detect radiation?
    Dr. Wagner. It won't help too much with the actual 
detection of radiation, but it will help to you say, help a lot 
with saying what is the radiation from. Is it a threat object, 
an innocent alarm or natural background? That is really the key 
to doing this.
    Mr. McCaul. The University of Texas is in my district as 
well. They are teaming with Lockheed Martin to bid on the Los 
Alamos research project. What is your assessment in terms of 
the sharing between the research laboratories out there and the 
United States on this very issue? Is it working?
    Dr. Wagner. I think sharing among the labs is not perfect, 
but it is working pretty well. The government can help to 
enhance the sharing by creating larger programs where the labs 
aren't, in a sense, acting as contractors seeking small 
contracts but are challenged with large problems. When they are 
challenged with large problems they can work together.
    Mr. McCaul. My final question, because I know we have to go 
vote, and that is, I have the Mexican border in my home state. 
What I have found in my experience at Justice was that you have 
the major ports and we seem to be protecting those pretty well. 
But the cartels can move contraband. They don't typically move 
it through the ports. They move between the ports. And this is 
really no exception. The movement of a nuclear device the size 
of, say, a bale of marijuana, could be easily transported 
across the border. And I know we can't be 100 percent safe in 
everything. Where are we with the technology with these sensors 
to detect between the ports of entry where we are most 
vulnerable to a terrorist threat? Where is the technology today 
with that?
    Dr. Wagner. I think that within 5 or 6 years it might be 
possible to build a sensor that could be put into a rather 
large helicopter, like a Chinook, which I once flew around in 
with radiation detectors in northern Canada trying to find 
pieces of Cosmos 954, but much, much better, so that grid 
patterns could be flown over low air grade at low altitude. But 
certainly man-portable devices that would have to be made of 
plutonium which would be light enough to smuggle in easily in 
that way.
    Mr. McCaul. We are moving towards that?
    Dr. Wagner. Not as fast as we should.
    Mr. McCaul. I thank you for your time here today. Thank 
you, Mr. Chairman.
    Mr. Linder. I want to thank the panel. Your testimony has 
not only been interesting, but it has been helpful. We 
appreciate it. You are excused. Thank you very much.
    We have a 15-minute vote and four 5-minute votes. We will 
ask the next panel to join us at about 4:45. Thank you all.
    [Recess.]
    Mr. Linder. We will reconvene this hearing. If you could 
keep your statements to 5 minutes, thank you for being here.
    Mr. Linder. Mr. Oxford, Acting Director, Domestic Nuclear 
Detection Office, Department of Homeland Security.

                    STATEMENT OF VAYL OXFORD

    Mr. Oxford. Good afternoon, Chairman Linder, Chairman King 
and ranking members and members of the subcommittees. Thank you 
for the opportunity to come before you today to show the 
progress we have made in developing and deploying new 
technology to protect the Nation from a terrorist nuclear or 
radiological threat.
    Today I will discuss several topics related to the use of 
technology in the detection of nuclear and radiological 
materials that could be used in a terrorist attack. 
Specifically, I will discuss the Department's formation of the 
Domestic Nuclear Detection Office, or DNDO, as you have heard 
referred to it previously, and its near-term nuclear detection, 
development and deployment strategy, as well as some of the 
current DHS deployments. I will also address the various 
detection technologies that we are currently developing and the 
technology development and deployment model that we hope to use 
in the future.
    Before describing the Department's efforts, I would first 
like to point out that protecting the United States from 
nuclear threats is a job that extends beyond DHS. I would like 
to thank my partners who are here today from the Department of 
Defense and the Department of Energy for their contributions in 
developing and deploying technologies to protect the Nation.
    First, let me address the creation of DNDO. Combating the 
threat of catastrophic destruction and loss of life posed by 
terrorists possessing and using nuclear or radiological weapons 
is one of the most critical priorities of the Nation. In order 
to integrate the Department's efforts against this threat under 
a singular direction, as well as to coordinate these efforts 
with the partners with me today and others across the 
government, the President established the DNDO.
    This new office is chartered with developing a global 
nuclear detection architecture and strategy and acquiring and 
supporting the deployment of the domestic detection system to 
detect or report attempts to import or transport a nuclear 
device or fissile or radiological material intended for illicit 
use.
    Let me say a few words about the detection deployment 
strategy that we have in mind. No single detection layer can 
prevent a terrorist from importing nuclear or radiological 
material with intent to harm the Nation. Therefore, partnering 
with other government agencies and the private sector, we must 
create coordinated, robust layers of defense.
    While technology is a critical tool to combat nuclear 
terrorism, we recognize that this threat is not one that can 
effectively be done by technology alone. Accordingly, while the 
DNDO is allocating considerable funding to research, 
development and acquisition, we are also dedicating resources 
to the people and infrastructure required to develop a fully 
integrated operating environment.
    We will ultimately have the ability to fuse detection data 
and intelligence assessments in a near real-time environment to 
maintain an overall system and situational awareness. This 
integrated approach to detection and information analysis will 
ultimately provide substantial improvement in alarm resolution, 
threat assessments, data trend analysis, and, most importantly, 
overall probability of mission success.
    Regarding current DHS deployments, even as we develop next-
generation technologies, we are in the process of deploying 
several commercially available technologies to the field. For 
example, U.S. Customs and Border Protection has made rapid 
progress with the radiation portal monitoring program, which 
deploys commercially available radiation detectors to the 
Nation's official ports-of-entry. The Coast-Guard also has 
begun deployments of personal radiation detectors and more 
advanced handheld detectors for use in detection and 
characterization of radiological materials.
    Technology itself is being pursued in several venues. 
Recent reports have been published in the media questioning the 
overall capability of currently deployed detection equipment. 
Contrary to public perception that, that detection equipment is 
not sensitive enough, the actual primary limitation of today's 
systems is one of discrimination and shielding. Specifically, 
today's equipment lacks a refined capability to rapidly 
determine the type of radioactive material it detects. 
Operationally, this leads to higher nuisance alarm rates, or 
those alarms that must be resolved by further inspection. 
Because false alarm rates are a direct function of probability 
of detection, the operators must make operationally driven 
decisions when deploying and operating currently available 
systems.
    To overcome these limitations, we are investing substantial 
resources in the Advanced Spectroscopic Portal program that is 
focused on developing detectors that will be able to 
discriminate between naturally occurring radioactive materials 
and threat materials. This level of discrimination will allow 
systems to operate at a substantially lower detection 
threshold, while simultaneously offsetting the subsequent 
operational constraints associated with the current systems.
    However, passive detection systems are ultimately limited 
by physical properties of the radiation they are designed to 
detect, specifically with regard to range of detection. The 
problem is confounded by the sufficient amounts of high-density 
shielding materials, such as lead or steel, that can act as 
effective measures to prevent the emissions of detectable 
amounts of radiation.
    Radiography systems can, however, overcome this limitation 
by providing images of the contents of the container to 
identify areas of high density that are potentially indicative 
of shielding materials. An integrated passive detection and 
radiography system would, then, be capable of detecting either 
the unshielded materials that are emitting radiation, or 
detecting the materials that are used to shield the material 
itself.
    Active interrogation systems can further alleviate 
detection limitations by probing or interrogating containers to 
induce additional measurable detection signatures. A number of 
methods are currently under investigation and are currently in 
a prototype development and demonstration phase, including 
systems which ``interrogate'' containers with either neutron or 
gamma rays.
    Let me talk next about the RDT&E process and model that we 
hope to use. I would like to discuss a little bit more in that 
context the ASP Program, the Advanced Spectroscopic Portal 
program, that I mentioned previously.
    The model that DNDO will use was, first of all, initiated 
based on an operational requirement from Customs for a more 
capable portable monitoring system to be deployed at the 
borders. There are currently 10 R&D efforts under way that will 
culminate late this summer with a high-fidelity test and 
evaluation campaign to take place at our new Radiological and 
Nuclear Countermeasures Test and Evaluation Complex at the 
Nevada Test Site where each of these developed systems will be 
fully evaluated against one another as well as against 
currently deployed systems. Based on the results of these 
tests, a limited number of vendors will be selected to begin 
initial low-rate production of detection systems to be deployed 
at the border. Meanwhile, operational testing of these systems 
will begin taking place at the Countermeasures Test Bed in New 
York and New Jersey.
    This comprehensive technology development program will 
guarantee that capable radiological portal monitors, with known 
performance characteristics, are being deployed to implement 
the baseline domestic detection architecture. The bottom line 
is, only after extensive testing is complete and performance is 
characterized will acquisition and deployment decisions be 
made.
    In conclusion, the DNDO has taken a comprehensive approach 
to addressing the threats posed by a nuclear attack. This 
approach, which begins with focused research and development 
and culminates in high-fidelity test and evaluation campaigns, 
provides the basis for the Department to make informed, 
justifiable acquisition decisions. Equally important, the DNDO 
recognizes that the deployment of these technologies must be 
done as part of an overall larger strategy, one that extends to 
overseas deployments executed by the other agencies. 
Ultimately, all of these systems must be connected and work 
within an environment that is responsive to information gained 
from the intelligence, counterterrorism and law enforcement 
communities.
    Mr. Chairman, this concludes my statement. I will be glad 
to answer any further questions.
    Mr. Linder. Thank you, Mr. Oxford.
    [The statement of Mr. Oxford follows:]

               Prepared Opening Statement of Vayl Oxford

Introduction
    Good afternoon, Chairmen Linder and King, Ranking Members Langevin 
and Pascrell, and distinguished members of the subcommittees. I thank 
you for the opportunity to come before you today to share the progress 
we have made in developing and deploying new technology to protect the 
Nation from a terrorist nuclear or radiological attack.
    My name is Vayl Oxford. I am the Acting Director of the Department 
of Homeland Security's newly created Domestic Nuclear Detection Office 
(DNDO). Additionally, I am currently serving as the Acting Director of 
the Homeland Security Advanced Research Projects Agency within the DHS 
Science and Technology Directorate. Prior to this, I have also held 
positions at the National Security Council and with the DoD's Defense 
Threat Reduction Agency.
    Today, I will discuss several topics related to the use of 
technology in the detection of nuclear and radiological materials that 
could be used in a terrorist attack. Specifically, I will discuss the 
Department's formation of the DNDO and its nuclear detection deployment 
strategy, as well as current DHS deployments. I will also address the 
various detection technologies that we are currently working to develop 
and deploy and the program model that we are following, using the 
Advanced Spectroscopic Portal monitor program as an example.
    Before describing the Department's efforts, I would first like to 
point out that protecting the United States from nuclear threats is a 
job that extends beyond the work of DHS, and I would like to thank my 
partners who are here today from the Departments of Defense and Energy 
for the contributions that their organizations are also making to 
develop and deploy technologies to protect the Nation.

Creating the DNDO
    Combating the threat of catastrophic destruction and loss of life 
posed by terrorists possessing nuclear or radiological weapons is one 
of the most critical priorities of DHS. In order to integrate the 
Department's efforts against this threat under a singular direction, as 
well as coordinate these efforts with the partners with me here today 
and others across the government, Secretary Chertoff provided 
notification to the Committee on April 13 of this year, of his intent 
to establish the DNDO.
    On April 15, 2005, the President signed a joint presidential 
directive establishing the office, NSPD-43/HSPD-14, ``Domestic Nuclear 
Detection''. This new office is chartered with developing a global 
nuclear detection architecture and acquiring and supporting a 
deployment of the domestic detection system to detect and report 
attempts to import or transport a nuclear device or fissile or 
radiological material intended for illicit use.

DNDO Detection Deployment Strategy
    No single detection layer alone can prevent a terrorist from 
importing nuclear or radiological material with the intent to harm the 
Nation. Therefore, partnering with other government agencies and the 
private sector, we must create a well coordinated, robust layered 
defense with built-in redundancies.
    While technology is a critical tool to combat terrorism, we 
recognize that this threat is not one that can be effectively overcome 
by technology alone. That is why we must work hand-in-hand with well 
trained Federal, State, Tribal, and local law enforcement agencies, as 
well as the larger intelligence and counterterrorism communities. 
Accordingly, while the DNDO is allocating considerable funding to 
technology research, development, and acquisition, we are also 
dedicating significant resources to the people and infrastructure 
required to develop a fully integrated operating environment. We will 
ultimately have the ability to fuse detection data and intelligence 
assessments in a near real-time environment to maintain an overall 
system and situational awareness. While this plan will require the DNDO 
to interact closely with the Intelligence Community as a developer of 
intelligence requirements and consumer of intelligence products, the 
DNDO will not act as an intelligence collection agency. This integrated 
approach to detection and information analysis will ultimately provide 
substantial improvement in alarm resolution, threat assessments, data 
trend analysis, and, most importantly, overall probability of mission 
success.

Current DHS Deployments
    As next-generation technologies are being developed, the Department 
is already in the process of deploying several commercially available 
technologies to the field For example, U.S. Customs and Border 
Protection has made rapid progress with their Radiation Portal Monitor 
Program, which deploys commercially-available radiation detectors to 
the Nation's official Ports-of-Entry (POE). CBP has already deployed 
detectors to international mail facilities and major POEs along the 
Northern Border. Additionally, CBP officers are equipped with personal 
radiation detectors, pager-like devices that indicate the presence of 
radioactive materials. The U.S. Coast Guard has also begun deployments 
of these same personal radiation detectors and more-advanced handheld 
detectors for use in the detection and characterization of radiological 
materials.

Technical Approaches to Detecting Nuclear Materials
    Recent reports have been published in the media questioning the 
overall capability of currently deployed detection equipment. Contrary 
to public perception that detection equipment is not sensitive enough, 
the actual primary limitation of today's systems is one of 
discrimination. Specifically, today's equipment lacks a refined 
capability to rapidly determine the type of radioactive materials it 
detects. Operationally, this leads to higher ``nuisance alarm'' rates--
the number of alarms that must be resolved by further inspection. 
Because false alarm rates are a direct function of the probability of 
detection, the operators are being forced to make operationally-driven 
decisions when deploying and operating the currently available 
technologies.
    To overcome these limitations, the DNDO is currently investing 
substantial resources to the Advanced Spectroscopic Portal (ASP) 
program, which is focused on developing detectors which will be able to 
discriminate between naturally occurring radioactive materials and true 
threat materials. So, rather than alarming when any radiation is 
detected, whether it is emitting from granite tiles or a nuclear 
weapon, these new systems will be able to determine, ``yes, there is 
radiation present, but the radiation signature matches that of 
naturally occurring radioactive materials and not special nuclear 
materials or radiological threat materials, and, therefore, is not a 
threat.'' This level of discrimination will allow the systems to 
operate at a substantially lower detection threshold, while 
simultaneously offsetting the subsequent operational constraints 
associated with the current-generation systems.
    However, ``passive'' detection systems are ultimately limited by 
the physical properties of the radiation that they are designed to 
detect, specifically with regard to range of detection. The problem is 
exacerbated by the fact that sufficient amounts of high-density 
``shielding'' materials, such as lead or steel, can act as an effective 
measure to prevent the emission of detectable amounts of radiation.
    Radiography systems, similar to x-ray machines, can, however, 
overcome this limitation by providing density images of the contents of 
a container to identify areas of high density that are potentially 
indicative of shielding materials. An integrated passive detection and 
radiography system would, then, be capable of either directly detecting 
unshielded materials that are emitting radiation, or detecting the 
materials used to shield materials and prevent radiation emission.
    ``Active interrogation systems'' can further alleviate detection 
limitations by probing, or ``interrogating,'' containers to induce 
additional measurable detection signatures. A number of methods are 
currently under investigation, including systems which ``interrogate'' 
containers with either neutrons or gamma rays. However, current systems 
are still in a prototype development and demonstration phase, and 
design and performance obstacles must be overcome to substantially 
reduce the size and cost of systems if they are to be widely deployed.

Research, Development, Test, and Evaluation to Advance the State-of-the 
Art
    I would like to discuss in a little more depth the Advanced 
Spectroscopic Portal (ASP) program, which I mentioned previously, in 
order to explain the model that the DNDO will use for all technology 
development and acquisition programs. The ASP program was initiated in 
direct response to a CBP requirement for more capable radiation portal 
monitors to be deployed at the borders. The Homeland Security Advanced 
Research Projects Agency, or HSARPA, then issued two Broad Agency 
Announcements and awarded contracts to ten private industry 
participants for the development of these portals; these contracts have 
subsequently been transferred to the DNDO. These efforts will culminate 
late this summer with an extensive high-fidelity test and evaluation 
campaign to take place at the Radiological and Nuclear Countermeasures 
Test and Evaluation Complex (Rad/NucCTEC) at the Nevada Test Site 
(NTS), where the developed systems will be evaluated against one 
another, as well as currently-deployed systems. Based on the results of 
these tests, a limited number of vendors will be selected to begin 
initial low-rate production of detection systems to be deployed at the 
border. These first deployments will provide an opportunity for 
operational test and evaluation of the systems, the results of which 
will be provided to the design and production team for incorporation 
into subsequent spiral developments. This comprehensive technology 
development program will guarantee that capable radiation portal 
monitors with known performance characteristics are being deployed to 
implement the baseline domestic detection architecture.
    This program highlights a unique DHS asset that I believe is 
critical to the overall success of the DNDO research and development 
efforts. The Rad/NucCTEC, currently under construction at NTS, has been 
developed to ensure a high-fidelity test and evaluation cycle for all 
technologies developed and transitioned to operational end-users. The 
facility is being built in close proximity to the Department of 
Energy's Device Assembly Facility, or DAF, to leverage its ability to 
handle significant quantities of special nuclear materials (SNM). The 
RadNucCTEC will be authorized to handle SNM for the purpose of testing 
developed technologies against actual samples of these materials which 
provide the greatest threat to the Nation for use in a nuclear attack. 
Until the construction of this facility, no location existed which 
allowed access to these quantities of materials while maintaining the 
flexibility to place these materials into relevant threat scenarios and 
cargo configurations. Once completed, the complex will provide the 
Nation with a unique capability that will bridge the gap between 
``bench-top testing'' preformed by developers and operational field 
testing conducted during pilot deployments.

Conclusion
    The DNDO has taken an end-to-end approach to systems development 
and technology improvement. By integrating research and development 
efforts with a comprehensive test and evaluation program that 
ultimately leads to an informed systems acquisition and deployment 
process, the DNDO is working to provide the Nation with a continuously 
improving capability to protect against a terrorist nuclear attack.
    The DNDO has taken a comprehensive approach to addressing the 
threat posed by a terrorist nuclear attack. This approach, which begins 
with focused research and development programs that culminate in high 
fidelity test and evaluation campaigns, provide the basis for the 
Department to make informed and justifiable acquisition decisions. 
Equally important, the DNDO recognizes that the deployment of these 
technologies must be done as part of a larger strategy, one that 
extends to overseas deployments executed by other agencies. Ultimately, 
all of these systems must be connected and work within an environment 
that responds to information obtained from intelligence, 
counterterrorism, and law enforcement communities.
    I am proud to have shared with you today how the Department and its 
interagency partners will work within the DNDO to continue to make 
progress against this very real threat. I look forward to working with 
you on these subcommittees in a continuing effort to confront this 
threat to the Nation.
    This concludes my prepared statement. With the committee's 
permission, I request my formal statement be submitted for the record. 
[Chairmen, Congressmen Langevin and Pascrell, and Members of the 
Subcommittees, I thank you for your attention and will be happy to 
answer any questions you may have.

    Mr. Linder. Mr. Huizenga.

 STATEMENT OF DAVID HUIZENGA, ASSISTANT DEPUTY ADMINISTRATOR, 
  INTERNATIONAL MATERIAL PROTECTION AND COOPERATION, NATIONAL 
     NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. Huizenga. Thank you, Mr. Chairman and other members of 
the committee, for inviting me to testify today.
    I will be discussing the Department of Energy's role in the 
interagency effort to prevent a nuclear terrorist attack 
against this country. I will focus on the role of my office, 
the Office of International Material Protection and 
Cooperation, as part of this larger, coordinated effort.
    Our mission is to enhance U.S. national security by 
reducing the threat of nuclear proliferation and nuclear 
terrorism. We pursue this mission in two broad areas.
    The first line of defense, our first goal is to secure 
nuclear weapons and weapons-usable material by upgrading 
security at vulnerable sites at international locations. We 
focus on the Russian Federation and other countries of greatest 
concern to U.S. national security. By working to secure these 
materials and weapons at the point of origin, we are making 
significant progress toward denying terrorists the essential 
element of a nuclear weapon, the fissile material. Securing the 
material is a top priority of the Bush administration, and we 
have now completed security upgrades at over 75 percent of the 
sites in Russia and the former Soviet Union. We are building a 
momentum from the recent Bush-Putin Summit and are poised to 
accelerate these critical activities in the upcoming months.
    The second line of defense, the second mission, basically, 
is to prevent smuggling of nuclear and radiological material at 
international seaports, airports and land border crossings. The 
Second Line of Defense, or SLD, program, is dedicated to this 
program. At the committee's request, the Second Line of Defense 
program is the focus of my testimony today.
    The SLD program has two parts. The Core Program focuses on 
securing material primarily in Russia and other former Soviet 
States, Eastern Europe and the Mediterranean region; and the 
second part, the Megaports Initiative, which we had some 
discussion of earlier today. It is a 2-year-old effort to equip 
major international seaports with radiation detection equipment 
to screen cargo containers bound for the U.S.
    The implementation of the SLD program involves deploying a 
suite of equipment, including fixed radiation portal monitors 
and associated communications system, as well as handheld 
equipment for secondary searches. This equipment is part of an 
overall system that includes initial site surveys, installation 
of the equipment followed by acceptance, testing and 
calibration of these radiological detection monitors. We 
provide extensive training on the use of the equipment to 
assure the long-term reliability. This training is essential 
since the very best equipment is ineffective if it is ignored, 
incorrectly calibrated, improperly maintained or easily 
bypassed by corrupt or incompetent operators.
    The centerpiece and workhorse of the SLD effort is the 
radiation portal monitor, RPM. Currently, we deploy monitors 
that use plastic scintillators to detect gamma signatures and 
helium 3 tubes to detect neutrons. The purpose of the 
technology is to detect special nuclear material, in particular 
plutonium and uranium. These monitors will also detect 
radiological materials suitable for use in a radiological 
dispersal device or a dirty bomb.
    I am aware of and somewhat disappointed in the recent 
criticism of the U.S. efforts to deploy radiation portal 
monitors both here at home and abroad. I want to be clear at 
the outset, over the last several years these portals have 
proven their value on many locations, and I expect they will 
continue to do so well into the future.
    The gravity of the potential consequences of elicit 
trafficking in nuclear material requires that we deploy and 
employ all of the tools available to us now, while, of course, 
seeking to update and improve our efforts as new technologies 
emerge.
    Certainly, as you have heard, there are issues, both 
domestic and international. We face these challenges in 
deploying this equipment. I have discussed these challenges in 
some detail in my written statement, and I will briefly 
summarize here.
    First, certain configurations of shielded HEU are difficult 
or impossible to detect. Intense R&D work is going on, as Vayl 
Oxford has pointed out. Currently, the best solution is the 
overlapping use of existing RPMs in conjunction with the 
imaging technology to reveal anomalies within the container's 
contents.
    The second challenge is to quickly and effectively 
distinguish the NORM alarms from special nuclear material. 
Currently, the best solution is various types of energy 
windowing used by both Customs and the Second Line of Defense 
program to eliminate a significant number of NORM alarms and 
then do secondary inspections to eliminate the rest. 
Spectroscopic portal monitors may help with this problem. 
However, the data on the portal monitors is being collected, 
and we await the results.
    The third challenge is transshipment, finding ways to scan 
the container traffic at a port that moves from ship to ship or 
ship to shore and then to ship and doesn't pass through a 
checkpoint. As the program gains experience, we are finding 
innovative ways to solve this problem.
    In the port of Freeport, for example, we are using a 
straddle carrier, which is a device that is pointed out on the 
left-hand side of the picture over here that is used to carry 
containers around in the port. We put monitors, both 
spectroscopic and plastic monitors, on this straddle carrier; 
and we are driving this around the port to make sure we are 
screening the cargo that doesn't actually go through an entry 
and exit gate.
    SLD, the program is working closely with the Department of 
Homeland Security to develop solutions to these issues. We are 
engaged in cooperative efforts with several offices, including 
the DNDO office and the Customs and Border Protection Office of 
Field Operations and the Office of International Affairs. We 
routinely exchange information, data and lessons learned with 
our counterparts at CBP. We are also providing training courses 
at the Pacific Northwest Laboratory facility, the HAMMER 
facility, for CBP officers and foreign customs officers as 
well. Finally, we work closely with the SNT office to share 
implementation challenges and seek promising solutions.
    I have addressed the effectiveness of the technology but 
for context need to point out something that our trainers 
always tell both the U.S. and foreign customs officers. 
Equipment supplements the skill of the officers but does not 
replace it. These officers must use all that they have learned 
about human behavior, suspicious activities and smuggling 
techniques in order to make the technology most effective. 
Alert and effectively trained officials using the best 
equipment available will always be our strongest protection 
against illicit trafficking.
    I would like to close by reiterating what I stated earlier. 
While we are focused on technological challenges in our hearing 
today, there are a lot these monitors can and are doing. They 
can detect radiological materials. They can detect shielded 
plutonium and certain configurations of shielded HEU. They have 
proven to work reliably in a variety of extreme field 
conditions.
    An example pointed out recently by our Russian Customs 
Ministry informed us that the second line of defense in Russian 
monitors deployed along the Russian border recorded 14,000 hits 
last year. Two hundred of these cases involved potential 
attempts to smuggle nuclear or radiological materials. That is 
200 cases that would not have been discovered and investigated 
but for the presence of the radiation portal monitors.
    Thank you. I would be happy to answer any questions you 
have.
    Mr. Linder. Thank you, Mr. Huizenga.
    [The statement of Mr. Huizenga follows:]

                  Prepared Statement of David Huizenga

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify before you today. I would also like to express my 
appreciation for the efforts of my colleagues from the Departments of 
State, Defense and Homeland Security. I will be discussing the role of 
the Department of Energy's National Nuclear Security Administration 
(NNSA) in the interagency effort to prevent a nuclear terrorist attack 
against this country. More specifically, I will focus on the role of my 
office, the Office of International Material Protection and 
Cooperation, as a part of this larger, coordinated effort.
    The mission of the NNSA's Office of International Material 
Protection and Cooperation is to enhance U.S. national security by 
reducing the threat of nuclear proliferation and nuclear terrorism. We 
pursue this mission by improving the security measures protecting 
weapons-usable material and by enhancing radiation detection and 
proliferation interdiction capabilities at key transit points including 
international border crossings and large ports of call. My group 
implements these critical programs in Russia and other states of the 
former Soviet Union (FSU) and in other countries around the world.
    The first goal of my office is to secure nuclear weapons and 
weapons-usable nuclear materials by upgrading security at vulnerable 
nuclear sites. We focus on efforts in the Russian Federation and other 
countries of greatest concern to U.S. national security. By working to 
secure nuclear material and weapons at the point of origin, we continue 
to make important strides toward denying terrorists and states of 
concern the essential element of a nuclear weapon: the fissile 
material. As you know, securing nuclear material is a top priority of 
the Bush Administration, and we have now completed security upgrades at 
over 75% of the sites containing nuclear materials and nuclear weapons 
in Russia and the FSU.
    The second goal of my office is to prevent smuggling of nuclear and 
radiological material at international seaports, airports and land 
border crossings. The Second Line of Defense program or SLD is 
dedicated to this important effort. At the Committee's request, the SLD 
program will be the focus of my testimony today.
    The SLD program has two parts. The Core Program focuses on securing 
border crossings in Russia and other former Soviet States, Eastern 
Europe, the Mediterranean region and other key countries. The second 
part of our SLD program, the Megaports Initiative, equips major 
international seaports with radiation detection equipment to screen 
cargo containers for dangerous materials.
    Implementation of the SLD program involves deploying a suite of 
equipment including fixed radiation portal monitors and an associated 
communications system, as well as hand held equipment for secondary 
searches of shipping containers.
    I would like to emphasize that the nuclear detection technology 
deployed by the SLD program is part of an overall system. This overall 
system includes site surveys to determine the best placement of the 
monitors at major transit points, and vulnerability assessments to 
determine the potential efficiency of this technology at the particular 
site. Once the technology has been installed, we perform extensive 
acceptance testing and calibration of the radiation detection monitors. 
We also work with the host country government to provide extensive 
training on the most effective use of the installed equipment. This 
training program includes specifics on incident response procedures, 
requirements for maintenance and technical support, and long-term 
sustainability planning. This systematic approach recognizes that the 
effectiveness of the installed equipment is fundamentally determined by 
how it is used on the ground by host country personnel. The very best 
equipment available is ineffective if it is ignored, incorrectly 
calibrated, improperly maintained or easily bypassed by corrupt or 
incompetent operators. Therefore, the fundamental objectives of the SLD 
program include ensuring that our equipment is operated properly and 
effectively by the host country. We seek to ensure that the host 
country understands how to maintain the equipment after U.S. assistance 
has ended. We also work to ensure that the equipment, particularly the 
communication system, is minimally susceptible to corruption at these 
foreign locations.
    The centerpiece of every Core and Megaport installation is the 
radiation portal monitor or RPM. Currently, we deploy monitors that use 
plastic scintillators to detect gamma signatures and Helium 3 tubes to 
detect neutrons. The purpose of this technology is to detect special 
nuclear material (SNM), in particular plutonium and uranium enriched to 
levels of 20% or higher in the isotope U-235. Equipment targeting this 
SNM will also detect other radioactive materials suitable for use in 
radiological dispersal devices.
    To understand how the RPMs work, it is important to understand the 
interface between the detector and communication system. Our 
communications systems will graph the gamma or neutron signal detected 
by the RPM and help the operators identify what type of alarm has 
occurred and where it seems to be located. If the RPM signals an alarm, 
hand held equipment is then used to further localize the alarm and to 
identify the specific radioisotopes that caused the alarm. 
Determination of the specific isotopes involved and their specific 
location is important because a number of common materials such as 
ceramic tile and kitty litter, in large quantities, may signal an alarm 
due to their relatively high concentration of radioisotopes. We call 
these `NORM' alarms, for `naturally occurring radioactive material' 
alarms. In addition, individuals who have recently had certain medical 
treatments involving radiation may trigger an alarm. In these cases, 
secondary inspections allow us to identify the actual nature of the 
alarm.
    Distinguishing ``NORM'' and medical alarms from actual instances of 
illicit trafficking is one of a number of technological challenges 
facing the operators of this equipment, in any location. For this 
reason, there are a number of critics of U.S. efforts to deploy 
radiation portal monitoring both here at home and abroad. I want to be 
clear, however, at the outset that these portals have proven their 
value on many occasions and I expect that they will continue to do so 
well into the future. The gravity of the potential consequences of 
illicit trafficking in nuclear material requires that we employ all of 
the tools available to us now, updating and improving them as new 
technologies emerge.
    Now to the challenges we all face in deploying this equipment. 
Serious concerns have been raised about the efficacy of RPMs in three 
key areas.
    First, certain configurations of shielded highly-enriched uranium 
(HEU) can be very difficult to detect. This issue is of great concern. 
Intense work is ongoing in laboratories and commercial arenas to 
develop solutions to this challenge. The Bush Administration is making 
substantial investments in an interagency research and development 
(R&D) program in nuclear detection technology coordinated by the 
recently created Domestic Nuclear Detection Office (DNDO) at the 
Department of Homeland Security. I am sure my colleague from DHS will 
discuss these R&D efforts in greater detail.
    Until these R&D efforts improve the detection of well-shielded HEU, 
the best solution is overlapping the use of existing RPMs in 
conjunction with imaging technology that reveal anomalies within a 
container's contents. A trained operator can pinpoint areas of concern 
within a suspicious shipping container or vehicle using imaging 
technology and reveal a potential effort to shield HEU. Such imaging 
equipment is present or will be soon in many U.S. and foreign ports.
    Once imaging technology reveals a potential anomaly within a 
container, the container can be searched, or an active interrogation 
device can bombard the specific area of concern with a neutron signal 
revealing more information as to the nature of the potential threat. 
These active interrogation devices currently exist as prototypes, and 
we believe they will become commercially available within the next few 
years. I would like to note that the combination of imaging equipment 
and RPMs is what DHS's Container Security Initiative (CSI) and SLD 
provide cooperatively to foreign ports. Put another way, our joint 
efforts maximize the possibility of the detection of trafficking in 
nuclear materials.
    The second technological challenge faced by users of portal 
monitors is finding ways to quickly and correctly distinguish `NORM' 
alarms from actual illicit trafficking in nuclear materials in order to 
minimize the need for time and resource-consuming secondary 
inspections. International port operators and foreign governments as 
well as our own domestic ports are sensitive to the fact that these 
nuisance alarms can and do slow down the flow of traffic and commerce. 
We have developed number of ways to address this particular challenge. 
Energy windowing (EW) is a method that U.S. Customs is using to reduce 
the number of `NORM' alarms so as to allow more effective deployment of 
RPMs. This approach entails specific algorithms that sort out alarms on 
the basis of the fact that norm alarms generally have higher gamma 
signals than special nuclear material. SLD currently uses a version of 
EW that works well on our monitors by which the monitors are configured 
for increased sensitivity to the low gamma energies of HEU. This 
approach also reduces the number of NORM alarms. We are currently 
working with Customs to compare these two approaches and to ensure the 
highest possible standards for effectiveness.
    Another promising approach for resolving `NORM' alarms is the 
development and use of spectroscopic portals. These portals essentially 
provide a means to identify the presence of nuclear material and to 
identify the type of radioisotope present by means of a fixed monitor. 
Although these portals will not, unfortunately, have increased 
``intrinsic'' SNM sensitivity, they may be useful for quickly 
distinguishing alarms caused when approved or naturally occurring 
radioactive materials are found in cargo or vehicles. This potential 
increased operational effectiveness may allow the monitors to be set at 
a lower threshold, thus allowing for greater sensitivity. The potential 
improvement in sensitivity may or may not be significant. Until these 
monitors are completed and tested, it is impossible to know for sure. 
We are currently studying their use for secondary inspections in cases 
where a large spectroscopic portal will be more effective than the 
currently available hand-held identifiers.
    Such spectroscopic portals are currently under development and will 
be tested by DHS later this summer. If these tests are successful, SLD 
hopes to work through DHS to procure a number of these spectroscopic 
portals and then put them in secondary inspection locations in selected 
ports around the world. Operational testing under real deployment 
conditions will help us determine the true effectiveness of the 
monitors in the field. We hope that providing more extensive field-
testing for this DHS-led effort will be another exemplary example of US 
interagency cooperation in the area of nuclear detection. It is 
important to note that these spectroscopic portals are estimated to be 
approximately eight times more expensive than the RPMs currently 
deployed by SLD. Unfortunately, scintillation crystals with sufficient 
sensitivity and sufficient resolution to be effective in these 
spectroscopic portals are very costly and currently unavailable in 
large quantities.
    SLD is deploying a specialized version of the spectroscopic 
detector as part of a pilot project in a selected port. In this effort, 
a straddle carrier stripped of its lifting equipment has been outfitted 
with plastic scintillators, neutron detectors, NaI detector systems 
(spectroscopic detectors), and other equipment to allow the modified 
straddle carrier to travel through rows of containers for successive 
screenings. We expect to learn more about spectroscopic detector 
capability from this specialized effort to solve the problem of 
transshipment, which is containers that don't come into a port through 
a gate, but rather are moved from ship to ship or ship to shore to 
ship.
    This issue of transshipment leads into the third challenge that 
impacts the effectiveness of portal monitors--monitor placement. For 
these monitors to work, they must be appropriately spaced, and vehicles 
of all types must move through them within certain specified speeds. 
This is not generally a problem for gate traffic, but large ports may 
not be configured with choke points where portals can be effectively 
deployed to screen the transshipped cargo, which is moving through the 
port from one ship to another.
    Such difficulties present serious deployment challenges. However, 
as we gain valuable implementation experience in a variety of 
environments and as new technology develops, we fully expect that our 
ability to screen cargo effectively will improve. R&D efforts may 
contribute to solving the current challenges we face. For example, in 
addition to the straddle carrier which is being implemented, a crane-
mounted monitor may eventually be developed to facilitate the screening 
of transshipped cargo. We are also taking new and creative approaches 
to strategic deployment of RPMs and the technology that we do have at 
our disposal right now. For example, in addition to the large 
transshipment hubs, SLD is working to install equipment at feeder ports 
in designated high threat locations, where most of the traffic comes 
through the gate and can be screened entirely before it moves into the 
maritime system.
    In confronting these challenges and developing solutions to them, 
SLD works closely with DHS. We are engaged in active cooperative 
efforts with several offices including DNDO and various components of 
Customs and Border Protection (CBP) including the Office of Field 
Operations and the Container Security Initiative. We routinely exchange 
information, data, and lessons learned with our counterparts in CBP. 
Additionally, we provide joint training courses at the HAMMER training 
facility at the Pacific Northwest National Laboratory for CBP officers 
and foreign customs officials. Commissioner Bonner and NNSA Deputy 
Administrator Paul Longsworth signed a Memorandum of Understanding on 
12 April to formalize this relationship.
    Let me address a final concern that has been raised about the 
portals--the variability in the detection capabilities of the portal 
monitors that are being deployed in domestic and international 
settings. Although DHS/CBP and SLD are deploying different portal 
monitor models, they target essentially the same amounts of material. 
Recent comparison tests conducted by DOE and DHS indicate that when SLD 
and CBP radiation detection monitors are set to operate at thresholds 
that would produce acceptable nuisance alarm rates in an operational 
cargo setting, they demonstrate similar detection capabilities. In 
other words, in operational settings, the two types of monitors are 
operating at similar levels of effectiveness.
    I have attempted to address the issue of efficiency of technology 
while still keeping the place of the technology in perspective within 
the larger system of inspection, detection and identification. On that 
point, I would remind you of something that our trainers always remind 
both the U.S. and foreign customs, border protection, and port 
authority officers during training at DOE facilities. Equipment 
supplements the skill of the officers but does not replace it. These 
officers must use all that they have learned about human behavior, 
suspicious activities and smuggling techniques and patterns in order to 
make technology most effective. Alert and effectively-trained officials 
in foreign and domestic facilities using the best equipment available 
will always be our strongest protection against illicit trafficking in 
nuclear materials.
    I'd like to close by saying that, while we focused on technological 
challenges today, there is a lot these monitors can do: they can detect 
radiological materials, they can detect plutonium, and they can detect 
HEU. They can also detect shielded plutonium and many configurations of 
shielded HEU. They are proven to work in a variety of field conditions.
    As an example, Nikolai Kravchenko, our counterpart in the Russian 
Customs Ministry, recently informed us that these monitors deployed 
along the Russian border recorded 14,000 ``hits'' last year. Some 200 
of these cases involve potential attempts to smuggle nuclear or 
radiological materials. That's 200 cases they would not have discovered 
nor be investigating without these monitors that the Second Line of 
Defense program has installed.
    Finally, I would like to reiterate the strong and deepening 
relationship with State, DHS, DoD and other agencies participating in 
this effort to improve our nuclear and radiological detection 
capabilities. We share the common objective of preventing terrorists 
and states of concern from obtaining and smuggling nuclear materials 
and work closely with other USG agencies in the implementation of the 
program. The unique capabilities of each Department and agency are 
being leveraged to accomplish this objective.
    Thank you. I would be happy to answer any questions you may have.

    Mr. Linder. Mr. Evenson.

   STATEMENT OF MICHAEL K. EVENSON, ACTING DIRECTOR, COMBAT 
        SUPPORT DIRECTORATE, DTRA, DEPARTMENT OF DEFENSE

    Mr. Evenson. Thank you, Mr. Chairman.
    Chairman Linder, Congressman Langevin, distinguished 
members, it is an honor for me to be here this afternoon to 
discuss the effectiveness of radiation portal monitors and 
other technologies to detect smuggled nuclear and radiological 
materials. I will summarize my statement and ask that it be 
included in its entirety in the record.
    DTRA conducted the Unconventional Nuclear Warfare Defense 
program, UNWD as we refer to it, as directed by Congress in the 
2002 defense appropriations bill, and installed four test beds 
to demonstrate nuclear protection systems at four different 
U.S. military bases. We used existing technology, as directed.
    For almost any ``bright'' materials, i.e., medical and 
industrial, those probably used in a radiological dispersal 
device, the existing portal monitors that were installed will 
detect unshielded material, both at fixed and at highway 
speeds. The detectors were somewhat effective against these 
types of materials even if moderately shielded. However, for 
special nuclear materials, the detectors are not as effective.
    We have also conducted numerous tests at the Technical 
Evaluation and Assessment Monitoring Site, the TEAMS facility, 
at Kirtland Air Force Base, New Mexico, and conducted red team 
exercises against all four bases.
    Our observations are that when the concept of operation, or 
CONOPS, is followed rigorously by the personnel at the portals, 
the protection scheme is 100 percent effective against all 
unshielded materials.
    We also developed detectors that detected at highway speeds 
over 55 miles an hour. We developed detectors that detected 
over water on small craft, 35- to 40-foot-size boats.
    Our most successful installation is at Camp Lejeune, North 
Carolina, where at the initiative of the base commander and the 
local city and State governments the detectors are located off 
base. The warning and notification network is integrated into 
the base, city and county emergency operations centers, and the 
local officials developed a plan to respond to detections and 
prevent the device's approach to the base.
    Our experience with this project and other detector work 
DTRA performs leads us to the conclusion that the concept of 
protection from nuclear devices must be thought about as 
gaining warning time for a proper response and not solely that 
of radiation detection. That is, we must have an integrated 
systems approach and a well-developed concept of operations.
    Currently, we must depend on an extensive number of sensors 
to gain this warning time. For that reason, we encourage the 
investigation and research into means to make the detectors 
themselves cheaper.
    We also encourage the committee to look into developing 
alternative technologies, that is, other than radiation 
detection, for technologies that detect other physical 
phenomena, such as weight, density, heat and the presence of 
high explosives. Despite the success of the UNWD program, our 
conclusion is that much research needs to remains to be done. 
Much of this work is detailed in the independent report on 
UNWD, copies of which I provided the committee.
    I would emphasize my earlier comments that the concept of 
protection from nuclear devices must be thought about as 
gaining warning time for a proper response and not solely that 
of radiation protection, and we must look for alternative 
technologies in the integrated system solution.
    I thank the committee for their time and welcome your 
questions.
    Mr. Linder. Thank you very much.
    [The statement of Mr. Evenson follows:]

              Prepared Statement of Mr. Michael K. Evenson

    Mr. Chairman and members of the Subcommittees, it is an honor for 
me to be here today to discuss the Defense Threat Reduction Agency's 
(DTRA's) radiation detection and portal monitoring programs. I will 
summarize my statement and ask that it be included in its entirety in 
the record.
    The mission of DTRA is to reduce the threat of weapons of mass 
destruction (WMD). Countering chemical, biological, radiological and 
nuclear weapons is the reason for the agency's existence. We focus 
full-time on countering these threats. Our mission is guided by the 
National Strategy to Combat Weapons of Mass Destruction, and direction 
provided by the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff. While our primary customers are the Combatant 
Commanders, DTRA also makes unique contributions to homeland security 
with its dual-use tools, knowledge, expertise, and services. We provide 
these through the US Northern Command, the Assistant Secretary of 
Defense for Homeland Defense, and others to address, counter, and 
mitigate WMD threats.
    DTRA programs and activities support the three components of the 
national strategy: counterproliferation, consequence management, and 
nonproliferation. These components are synergistic by nature. Our 
counterproliferation programs provide offensive and defensive means for 
combating WMD. DTRA nonproliferation programs support diplomatic and 
cooperative international efforts to halt the spread of WMD. Our 
consequence management efforts provide capabilities for responding to 
actual use of WMD.
    We also provide an interface between science and technology and the 
warfighters by integrating current and emerging technologies from many 
sources--US Government agencies, the DOE National Laboratories, 
academia, the private sector, and from our friends and allies--into 
products and tools that permit warfighters to counter and defend 
against the threat of WMD, including the nuclear/radiological threat. 
Within the realm of DTRA's detection technology program, our goals are 
to provide and enhance current detection, identification, and 
characterization capabilities for nuclear/radiological items, improve 
equipment survivability during military operations, and improve ease of 
use by the military forces. We also seek to standardize Concepts of 
Operations, improve data dissemination and networks, and provide 
reachback. These efforts yielded several tools that have been 
operationally employed in several missions to include OPERATIONs 
ENDURING FREEDOM and IRAQI FREEDOM.
    One of our recent success stories is the Unconventional Nuclear 
Warfare Defense (UNWD) Program wherein we collaborated with DOE, the 
National Labs and the Services to establish four permanent test beds to 
develop technologies and concepts of operation to counter the threat 
from stolen nuclear weapons, improvised nuclear devices (INDs), or 
radiological dispersal devices (RDD) delivered by unconventional means 
other than missile or aircraft. Original funding for UNWD was provided 
by Congress under Public Law Number 107-117. The four sites, one for 
each branch of the armed forces, are located at: Kirtland Air Force 
Base, NM; Submarine Base Kings Bay, GA; Camp Lejeune, NC; and Fort 
Leonard Wood, MO. Successful demonstrations at these sites have also 
provided a unique venue for critical infrastructure facility protection 
systems, as well as integrating the system into state/local emergency 
response assets that will augment the facility response and recovery 
capabilities that could be used for homeland security.
    As an off-shoot of this program, DTRA manages the Technical 
Evaluation and Assessment Monitor Site (TEAMS) at Kirtland AFB. TEAMS 
is a flexible, multi-use facility that serves as an important test-bed 
to evaluate DTRA and inter-agency programs and emerging technologies to 
detect, combat, and defeat the nuclear/radiological threat.
    Under the Cooperative Threat Reduction or CTR program, DTRA is also 
fielding nuclear/radiological portal monitors in Uzbekistan at 11 of 
that nation's international ports of entry. We are also planning for a 
second increment that will add six more ports of entry. Additionally, 
the CTR program will help the Government of Uzbekistan develop and 
implement a comprehensive ``Train the Trainer'' program to support the 
CTR-provided equipment. Our goal is to provide Uzbekistan with self-
sustaining WMD detection and interdiction capabilities. The Department 
of Defense coordinates CTR WMD border security activities closely with 
the Departments of Energy (DOE) and State. In Uzbekistan, the CTR 
program also will install nuclear/radiological portal monitors similar 
to those that DOE is installing in Russia in its Second Line of Defense 
(SLD) program. The Department of Energy will provide follow-on 
maintenance and sustainment.
    DTRA also executes the DoD International Counterproliferation 
Program. Congress mandated that the Department of Defense work in 
cooperation with the Federal Bureau of Investigation and the U.S. 
Customs Service (now, the Department of Homeland Security's (DHS) 
Bureau of Customs and Border Protection and Bureau of Immigration and 
Customs Enforcement) to develop and deliver training programs to 
counter the WMD proliferation threat. The resulting DoD International 
Counterproliferation (ICP) Program provides training, equipment, and 
technical assistance designed to enhance the detection, identification, 
interdiction, and investigation capabilities of border, customs and law 
enforcement officials in vulnerable regions. Using a country-specific 
implementation approach, the ICP Program directly supports the National 
Strategy to Combat Weapons of Mass Destruction as the United States 
continues ``to work with other states to improve their capability to 
prevent unauthorized transfers of WMD.'' A significant component of the 
DoD ICP Program is delivering equipment necessary to allow officials 
tasked with interdicting WMD materials, or responding to crimes 
involving WMD-related materials, to perform their duties. The equipment 
includes radiation pagers, hand-held and bench-top isotope identifiers.
    Two promising radiation detection research and development projects 
are sensitive scintillating glass fibers technology and mechanically 
cooled high-purity germanium spectrometry. These are particularly 
applicable to our operational requirements in that the glass fiber 
supports multi-mode application (land, sea, or air) and the 
mechanically cooled spectrometer provides unequaled resolution and 
identification capability in a hand-held device. In keeping with the 
defense in depth concept, these technologies allow interrogation of 
materials at any given point rather than in a single material handling 
area, such as a port or staging area. Both technologies are at, or 
slightly beyond, prototype stage and expect maturation with the year. 
Our technology development process optimizes these and other 
technologies by integrating their capabilities for a more robust effect 
including integration with information connectivity, ruggedness, and 
operator ease-of-use engineering.
    Under the UNWD and other programs, DTRA has performed numerous 
tests to evaluate the performance of current detection technologies. 
For almost any ``bright'' materials, i.e., medical, and industrial, 
those probably used in an RDD, the existing portal monitors will detect 
unshielded material, whether fixed or at moderate highway speeds. The 
detectors were somewhat effective against these types of materials even 
if moderately shielded. However, for Special Nuclear Materials (SNM) 
the detectors are not as effective. However, while shielding reduces 
the potential for radiation detection, it opens other venues for 
interdiction such as X-ray for dense materials (or alternative 
signatures). Additionally, the evaluations demonstrated that if portal 
monitors are placed in tandem, they are more effective and harder to 
defeat; problems with false and nuisance alarms and system interface 
need further development; and, that Concepts of Operations are key to 
the system success.
    DTRA's knowledge, experience, and expertise are available to 
address the nuclear/radiological threat and we stand ready to assist 
other US government agencies in addressing their mission requirements. 
The most recent example of this long-standing commitment is our 
assignment of two detailees in coordination with OSD to the newly-
formed Domestic Nuclear Detection Office (DNDO), one of whom was a key 
player in the Unconventional Nuclear Warfare Defense Program. DTRA 
stands ready to assist DNDO as it performs its critical mission.
    Mr. Chairman, this concludes my remarks. I would be pleased to 
respond to your questions.

    Mr. Linder. Mr. Oxford, Mr. Huizenga and Mr. Evenson, do 
you all talk to each other regularly?
    Mr. Oxford. Mr. Chairman, at least Mike and I have known 
each other for at least 10 to 15 years, so we have known each 
other well. Dave and I have gotten to know each as part of the 
transition team to stand up DNDO. So we have worked very 
closely in putting this together.
    Mr. Linder. Do you think that the DNDO should have 
statutory authority?
    Mr. Oxford. Mr. Chairman, I guess it would depend on 
statutory authority to do what? I think, right now, the way it 
is established, with the agreements that we have across the 
participating departments, that we are sufficiently authorized 
to do what we need to do. We have agreed, as I testified 
before, to jointly develop the strategy, because we do think 
the strategy is critical, with each of us then understanding 
our various implementation paths to make sure we are working 
cooperatively across that and then sharing that information 
with that deployed strategy.
    Mr. Linder. You heard the previous panel, or one of the 
members, talk about the lack of coordination in getting these 
detectors out. Some countries have different types of detectors 
than other countries. Some are better. Some are worse. Would 
DNDO be the agency to try to pull those various disparate 
groups together?
    Mr. Oxford. Mr. Chairman, I believe it will. The goal, 
again, was to do the joint planning. As the previous panel 
said, planning together is very, very important. We do have 
overseas hurdles, I think Congressman Markey was getting to the 
point, we will have to deal with, and that is some of the 
technology export control issues of advanced technology. There 
are software and some other things we may have to deal with 
from an export control perspective.
    But understanding systems performance together so that as 
we take these systems to our common test bed I think is our 
goal, collectively, and the other members can respond to this. 
I think you will ultimately see a narrowing down of the number 
of test beds that are out there, so the one at the Nevada test 
site will become a common test bed for all of us so we fully 
understand systems performance. Therefore, we will be deploying 
systems that we all understand how they work. The 
implementation then becomes a lot more simple if we understand 
that performance.
    Mr. Linder. Mr. Huizenga, you note in your testimony that 
14,000 hits--is that radiological hits in Russia?
    Mr. Huizenga. Yes, it is, Mr. Chairman.
    Mr. Linder. What were most of them from? Is it Norm?
    Mr. Huizenga. Some of it is Norm, some of it is 
contamination, and some of it is the actual illicit movement of 
material.
    Mr. Linder. That was 200.
    Mr. Huizenga. That is correct.
    Mr. Linder. Did anyone ever determine, was it weapons grade 
material?
    Mr. Huizenga. Those are things probably that we would be 
better off talking about in a separate session.
    Mr. Linder. Did anybody track down where it came from?
    Mr. Huizenga. We worked closely with the intelligence 
community in that regard.
    Mr. Linder. Okay. All of you have mentioned Megaports, I 
think. Are we a little bit behind in getting those Megaports 
stood up?
    Mr. Huizenga. Well, it is a matter of perspective, I guess. 
Gene Aloise and I talked at length about the report. It did 
take us a while to get going. He is accurate. We have two done, 
and we are working on--he said five--are actually working on 
six, and we are negotiating with another 20 countries, and by 
the end of 2006 we are projecting to have 10 done. So we are, 
actually, I think ramping up and making steady progress right 
now.
    Mr. Linder. The radiography you talked about, it pictures 
through the container, but it can't go through lead, is that 
correct, to get a picture of what you are looking at?
    Mr. Oxford. Mr. Chairman, that is exactly right. Although 
we do expect with some of the advanced radiography systems to 
have the possibility--again, we have to test this--to actually 
be able to discriminate the HEU as well. We will definitely get 
the high-density material so we know there is an anomaly in the 
image. We are also hoping to be able to get some of the threat 
materials. But that is what the advanced techniques will give 
us over what is currently fielded.
    Mr. Linder. How far away are we from that?
    Mr. Oxford. Again, the design methodology and model that I 
talked about in my opening statement, we are pushing hard for 
that technology that is within hand to be able to fielded 
within 3-1/2 years. So we are not proposing a protracted 
development cycle. We are looking at doing an RFP, request for 
proposal, for advanced radiography within the next 4 months.
    Mr. Linder. Mr. Evenson, is anybody looking for cesium-137?
    Mr. Evenson. Well, I think I understand your meaning, but 
all our detectors will detect it. Do you mean are we actively 
out searching for it?
    Mr. Linder. We have got cesium-137 in virtually every 
hospital in America, unprotected.
    Mr. Evenson. Absolutely, Mr. Chairman. Yes, sir.
    Mr. Linder. Is that a problem for us?
    Mr. Evenson. Yes, sir. Actually, I am part of a Defense 
Science Board that is meeting now, and one of our conclusions 
is that we in this country, at least if you share that board's 
view, it is more likely a radiological dispersal device. The 
materials will be gathered inside the United States and not 
transhipped. We need to get control of the materials, yes, sir.
    Mr. Linder. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentleman, thank you for being here today.
    Mr. Oxford, I want to welcome you back and begin with you. 
I would like to discuss a couple of things with you, the first 
being the deployment plan for the current version of radiation 
portal monitors.
    You stated in your testimony in April that $71 million of 
the fiscal year 2006 budget request will go to research and 
evaluation of advanced portal monitors. Now, this will be $54 
million for the deployment of current systems.
    The concern that I have is that the deployment plan of the 
current portal monitors is really funding dependent, and the 
CBP has never received a full allocation to cover seaports, 
landports and other ports of entry. So taking $71 million and 
putting it towards research, while needed, clearly hurts 
current detection operations.
    So my question is, does the Department intend to reprogram 
funds to cover the balance of the program costs, which are 
about $163 million? And, if not, what is the target completion 
date for the deployment of the current system if your funding 
level remains unchanged?
    Mr. Oxford. Out of the $125 million that was requested in 
fiscal year 2006, what we agreed to do was not research with 
the remaining amount. It really is all going towards deployment 
activities. What we wanted to do was gradually phase in the 
deployment of new systems, the advanced spectroscopic systems.
    Based on a limited available amount of the sodium iodide 
crystals and the actual source selection process, we felt it 
was prudent to go ahead and continue with the deployment of 
existing radiation portal monitors with Customs. The rationale 
for that is our design methodology for the advanced systems is 
what I will call a retrofit or plug-and-play. So for every 
location that we have a current radiation portal monitor, we 
will be able to go back in and replace directly those panels 
with the new advanced spectroscopic systems.
    About 80 to 90 percent of the cost of the existing 
installation is in the physical installation, as opposed to the 
current detector hardware. So we will be able to benefit by 
their continuing deployment. But we will be following directly 
behind them with deployment of the new systems. Roughly $131 
million I think is our estimate in fiscal year 2006 of the new 
advanced spectrographic systems. So we are not diverting R&D 
money from that $125 million. It is all for deployments of 
different kinds of systems.
    Mr. Langevin. The cost that we are talking about here, does 
that also include the training for those individuals that are 
going to be operating? That is one of the Chairman's concerns, 
we are spending money on equipment, that we may not be paying 
as much attention to adequate training so that the people that 
are operating this equipment are proficient.
    Mr. Oxford. The total amount of money going into the 
radiation portal monitoring in fiscal year 2006 is roughly $178 
million, $53 million of which goes into training in the 
operational support of fielded systems. So the $125 million you 
saw as a direct acquisition request in the 2006 budget was for 
deployment of either the current systems or the follow-on 
systems. But there is a separate $53 million for training and 
support in the field.
    Mr. Langevin. Right now, it is my understanding that the 
portal monitors, they can't distinguish between special nuclear 
materials and naturally occurring radioactive material. This 
has resulted in I guess numerous nuisance alarms at border 
crossings and seaports, causing CBP inspectors to reduce the 
sensitivity of the machines. Obviously, reducing the 
sensitivity of this equipment diminishes the machine's 
effectiveness. Can you comment on that?
    Mr. Oxford. Again, the sensitivity is not the issue. It is 
the discrimination, as I mentioned earlier. So one benefit of 
the new systems is that we will be able to discriminate between 
the normally occurring material and the threat material.
    Again, without going into a lot of vulnerabilities, we 
still have the issue of shielding that I mentioned in my 
opening statement. The new systems--and, again, this is all 
subject to the tests that we will do in August and September--
will give us the results. It will give us the discrimination 
capabilities that replaces the currently fielded systems.
    Mr. Langevin. On another topic, both the House and Senate 
appropriations committees cut about $100 million out of the 
President's request for the DNDO. The appropriators, along with 
the members of the committee and Senator Lieberman, have also 
voiced concerns with your office. Congress' primary concern 
deals with role of DNDO as it relates to other Federal 
agencies, especially the Departments of Energy and Defense. How 
do you envision the role of the DNDO? Can you elaborate on 
that? Can you tell us what steps you are taking to address 
appropriators concerns?
    If I could, I would also like to request Mr. Oxford brief 
the members on DNDO as soon as possible.
    Mr. Linder. We will be happy to invite him back.
    Mr. Oxford. I would welcome that opportunity.
    Let me address your first question. The extent of the $100 
million cut causes great concern, obviously, and we have gone 
through and briefed the Senate in an extensive fashion and will 
do so with the House before the Conference Committee. I believe 
in some cases it is a matter of a new office being stood up and 
not having the ability to execute the resources in 2006. But I 
will tell you that we have active programs in all the areas 
that I mentioned before, the strategy development, the 
architecture work, the active interrogation, the passive 
detectors, as well as the radiography systems.
    On top of that, we have an aggressive new start proposed in 
the transformational research. It is in that category that you 
will find us working things like this, what we call the long-
dwell transit problem, what the previous panel referred to as 
the time between point-of-debarkation to point-of-entry, where 
we have days to weeks to deal with the radiation detection 
problem versus minutes at either the-point-of-departure or 
point-of-entry.
    We really want to be able to work that, and we think there 
are technologies out there, even though some have mentioned 
that there are industry representatives selling it as a near-
term solution. We have to drive the costs and the false alarm 
rate significantly lower than what we currently expect. So, 
from that vantage point, we would really like to start the 
transformational program in 2006, and the $100 million cut 
would seriously jeopardize that.
    The coordination issue you raised, again, the first 
priority we put within DNDO was to get a team together from 
DOD, DOE, the FBI and DHS to work the strategy and the 
architecture. That is our first priority. We have set a 
baseline of March of 2006 to have that strategy in place so as 
we go forward collectively we know what we want to implement.
    So, again, we are very happy to work with the Congress on 
resolving those issues as we go forward.
    Mr. Linder. The time of the gentleman has expired.
    The gentleman from California.
    Mr. Lungren. Thank you, Mr. Chairman.
    Mr. Evenson, in response to the last question asked of you, 
you suggested that a group that you are working with is either 
coming to or has come to the conclusion that it is more likely 
that we would see an attack based on material from within 
rather than transported here.
    Mr. Evenson. That is correct, Congressman.
    Mr. Lungren. Can you tell me a little more about that?
    Mr. Evenson. We actually think it is much easier to gather 
the material inside this country and make a radiological 
dispersal device than it is to go through DHS or anybody else's 
detectors.
    Mr. Lungren. Is that because of our lack of security with 
hospitals and so forth?
    Mr. Evenson. The conclusion of the group is we don't track 
the materials well. It is not unguarded. Certainly you are more 
aware of the problem possibly than I am. It is guarded, but it 
is not tracked. It is not something you regard as a serious 
weapon in this country, so our conclusion was it would be 
fairly easy for a determined terrorist to gather that material.
    Mr. Lungren. Mr. Oxford, you mentioned in your testimony 
that the U.S. Coast Guard has deployed some handheld radiation 
detectors. Are these different than the ones we were talking 
about with the first panel that are used by Customs and Border 
Patrol now? And for what purpose are they used? The suggestion 
was that they are actually used for the protection of the 
agents, as opposed to actually being able to identify things in 
a significant way.
    Mr. Oxford. The current technology that they are using is 
very similar to what Customs has used, at least in the handheld 
and the pagers, but they are used in a much more strict 
environment, they are doing it on a controlled boarding and an 
interdiction where they actually know what they are going 
after.
    In the R&D program we have some handheld devices, some 
advanced systems, that we are ruggedizing for maritime 
application, specifically for the Coast Guard, to replace those 
that should be available in the next couple of years. But they 
are reliant on the currently existing systems as well.
    Mr. Lungren. I like the word ``ruggedizing'' because 
normally the word around here is robustness. So ruggedizing is 
a nice word.
    You were talking about the radiation portal monitor program 
and about the $125 million for fiscal year 2006. As I 
understand it, for you to continue onto that program in the 
various modes you wish it to have, you are going to need 
something like $880 million in fiscal year 2007.
    Is it the thinking of your Department that, that is what 
you are going to be asking for, and if you don't get it, can 
you really suggest that you are going to complete the 
installation of the portal monitors in 2009 as planned?
    Mr. Oxford. I was actually scheduled to brief the Deputy 
Secretary on our 2007 to 2011 program tomorrow, but it got 
delayed for a week or so.
    We will come in with a bigger request than that in 2007. I 
can't tell you what that means. The $800 million that you heard 
was a Customs number predicated on the existing plastic portal 
systems versus some of the advanced systems. So we are going 
back and looking at a combination of the retrofit and the 
deployment of the new systems. We will be trying to seek an 
2007 through 2008 completion at the legitimate ports-of-entry.
    Mr. Lungren. Suffice to say, it is going to be a good chunk 
of change?
    Mr. Oxford. Absolutely.
    Mr. Lungren. Mr. Huizenga, you have testified about the 
usefulness of the energy windowing to improve the performance 
of the RPMs and lower the number of NORM alarms. At least I 
have been informed there is some debate within the scientific 
community regarding the effectiveness of energy windowing. Can 
you comment on that debate and the reasoning behind DOE's 
decision to go forward with the deployment?
    Mr. Huizenga. Yes. It depends on the cargo, and what you 
are hearing is the noise in the system. Some locations, the 
energy windowing works better than others. So we have adjusted 
our monitors in general to be focused more on the HEU, because 
it is harder to detect, and we found this will allow a proper 
balance between the NORM alarm rate and the actual target 
quantities. So we have found it to be successful. It is kind of 
a crude energy windowing we are actually using. It is a little 
different than the one the CBP people are pursuing right now. 
But if the cargo is right, it actually has a benefit.
    Mr. Lungren. Do you have anything to say about that?
    Mr. Oxford. We were asked by the Senate as well as the IG 
to look at energy windowing. They wanted us to convene an 
expert panel to look at the merits of that. What we finally 
collectively agreed to do is we are bringing those systems to 
the test bed in Nevada, so we will fully test those along with 
a new developmental system. So instead of doing this based on 
theory, we are going to actually test them against the various 
threats and find out how well that works.
    Mr. Lungren. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Linder. Mr. Oxford, are you familiar with the GAO 
recent study that said that some of these other nations are 
reluctant to use radioactive detectors in there simply because 
it will slow down commerce?
    Mr. Oxford. Yes, sir.
    Mr. Linder. What is your response to that?
    Mr. Oxford. I think that I would understand their concerns, 
but, at the same time, I think we have an obligation to work 
more collectively with them in a variety of ways. That is one 
of the reasons why we brought the State Department into DNDO, 
where they will be working with us, with our other partners, to 
look at future agreements that we would seek.
    In addition to that, for example, we are seeking to expand 
our border protection by working more closely with the 
governments of Mexico and Canada. It extended just beyond the 
U.S. borders themselves, and the agreements look like they will 
fall into place. So we will start to extend that to ports-of-
entry in North America, as opposed to just within the domestic 
realm.
    I understand their concerns, but, at the same time, I think 
it is a matter of working with them collectively in the future.
    Mr. Linder. At the previous panel we had testimony that 
there are very small radiological detectors that can go inside 
the container and can actually communicate with each other. 
Would anybody care to tell us a little bit about that?
    Mr. Oxford. I have looked at three or four different 
concepts in that regard. We think there is a real opportunity 
there.
    Again, as I mentioned, I want to make sure that we 
understand the cost and false alarm rate. The last thing we 
want to do is start offloading ships based on false alarms. So 
the same kind of problems we currently face at the borders. We 
need to work within that transit system, and then to have the 
real-time communications, that if we build up a threat basis of 
radiation during the transit, that we have communications and 
an interdiction, as Mr. Evenson said, a response model to get 
to that ship, knowing that there is an actual threat there. We 
think that is a great opportunity as part of layered defense 
that is fertile ground.
    Mr. Linder. Mr. Langevin?
    Mr. Langevin. I would actually like to follow up and build 
on the question the chairman just raised with respect to the 
portal monitors.
    The GAO report on the Megaports program reports that they 
installed radiation portal monitors in two foreign ports. One 
of the challenges that the Department of Energy faces is 
getting a foreign government to agree to have the portal 
monitors installed at their seaports, yet the Department of 
Homeland Security has agreements with 35 countries to allow our 
Customs inspectors to be deployed to foreign ports. Many of 
these ports are the same ones that the Department of Energy 
wants to install portal monitors. Why doesn't DOE leverage 
existing DHS agreements to accelerate the installation of 
portal monitors at foreign ports?
    Mr. Huizenga. We actually are very closely partnering now 
with the Department of Homeland Security CSI program. As a 
matter of fact, we have gone to the last several countries with 
the CSI as a package deal, making sure that when we are 
pursuing the CSI initiatives we are pursuing Megaports at the 
same time.
    We started about 2 years after the CSI program ramped up, 
and I think that we are now catching up with them. But we have 
to install equipment. There was a concern that initially 
countries had that if you were going to put these radiation 
portal monitors in their ports that that was going to slow down 
commerce. There really wasn't the same sense associated with 
the CSI program.
    Now that we have demonstrated in Rotterdam and Greece that 
the program works and it really doesn't slow down commerce, we 
are having a lot more acceptance of the program.
    Mr. Langevin. With the use of Customs inspectors, wouldn't 
that same argument apply? They could fear they were going to 
slow down commerce when you have Customs inspectors on site?
    Mr. Huizenga. If you think about it, the Customs inspectors 
are selecting a certain percentage of containers for secondary 
inspection. Our goal is to screen all the containers that go in 
and out of these inbound and outbound gates. So the overall 
sense was you are going to potentially impact our commerce in a 
way that the CSI people may not. So we are overcoming this 
operational concern at this point.
    Mr. Langevin. I would like just to point out in that case 
we have in these 35 countries--we already have an agreement 
that is existing. So it would seem to make sense we would want 
to leverage that and build off that.
    Mr. Huizenga. We absolutely are. Like I say, we are going 
with the CSI people to the new ports, and we are going back to 
the ones they are already involved, and we are using that 
leverage and their relationships they have already built in-
country in order to further the Megaports Initiative.
    Mr. Langevin. I think that is important.
    Just one other question for Mr. Oxford. When I asked about 
training for and use of the equipment that will be installed, 
just if you could describe for me where the $53 million for 
training is coming from. Is that S&T or CBP or some other 
source? That is the first time I have heard of that.
    Mr. Oxford. It is in the CBP budget request, $53 million 
for the training and the support of fielded systems. The 
agreement of DNDO was we would do the development and 
acquisition but not the deployment nor the support of the 
deployment. So that is retained within the Customs' budget.
    Mr. Langevin. The only last comment, Mr. Chairman, if we 
could follow up with Mr. Huizenga, the number of elements of 
potential nuclear material that had been--
    Mr. Linder. We will follow up on that in closed session.
    Mr. Langevin. That was a striking figure. I would like to 
have more information.
    Thank you. I yield back.
    Mr. Linder. Mr. Markey.
    Mr. Markey. Yes. Mr. Oxford, you were named acting director 
in February.
    Mr. Oxford. Actually it was March 16.
    Mr. Markey. March 16. When is that going to be a permanent 
director?
    Mr. Oxford. Actually, sir, that is in Presidential 
personnel for final decision.
    Mr. Markey. Is it going to be soon?
    Mr. Oxford. I hope so.
    Mr. Markey. For America's sake, I hope we have a permanent 
nuclear detection head, and I hope you get it, if you want it. 
But I just hope it is permanent. It gives you a lot more 
authority.
    As you know, ABC News smuggled depleted uranium into the 
U.S. in September, 2003. I sent a letter to DHS to express my 
concern about the potential for a terrorist to smuggle HEU into 
the country. I also questioned the Department's technical 
capabilities to detect the importation of these dangerous 
weapons, usable materials.
    The Department's response to my letter claimed it is likely 
that the radiation portal monitors could locate and identify 
highly enriched uranium in cargo.
    On June 3, 2005, DHS issued a press release whose headline 
read ``Nation's busiest seaports to have complete radiation 
detection coverage by the end of 2005.''
    Today, Mr. Thompson and I released an analysis conducted by 
experts consulted by the American Association for the 
Advancement of Science who confirm several other experts' 
conclusions that this is not true. The technology used by DHS 
is not capable of detecting kilogram quantities of HEU; and, in 
fact, no usable technology really exists to do that job. Other 
witnesses made similar references to this problem.
    In your testimony today, you state that the problem with 
the detectors is not that they are not sensitive enough to 
detect HEU, but they are unable to discriminate between 
naturally occurring radioactive materials and dangerous ones.
    The Department appears not yet willing to concede the 
limitations of the portal monitors currently being deployed 
when it comes to detecting highly enriched uranium. Why are you 
the only ones not willing to confront this reality? The science 
seems to be uniformly on the other side.
    Mr. Oxford. First of all, Congressman Markey, I would agree 
with the technical merits of the argument. I think in some 
cases, especially in open session, we don't want to talk about 
vulnerabilities, and I think we are somewhat limited by that.
    Again, if you go back to my testimony, the discrimination 
and shielding does pose a problem, and we are working on active 
systems and radiography systems to supplement existing passive 
systems, as well as fielding advanced passive systems to get to 
the discrimination of lightly shielded or unshielded materials.
    So it is going to take a family of systems to do the job. 
So I am not disagreeing with the technical basis of what AAAS 
did.
    Mr. Markey. In September, 2004, the DHS Inspector General 
conducted a review of DHS's procedures to detect highly 
enriched uranium in light of its failures to do so in the ABC 
News case. The unclassified version of the report stated that 
the IG made specific recommendations to DHS to enhance the 
sensitivity of its detection capabilities. Has the Department 
implemented all of these recommendations that were in the 
unclassified version of the report?
    Mr. Oxford. I don't think we have implemented those. What 
we are doing is we are replacing the systems starting in fiscal 
year 2006 with the advanced systems that give us more 
discrimination capabilities and rapidly producing the advanced 
systems for active interrogation radiography to give us the 
ability to detect a shielded material.
    Mr. Markey. But you are not adopting the recommendations?
    Mr. Oxford. I would have to go back to Customs, because 
they would be modifying operations in the field to do that. I 
would have to ask CBP if they are acting upon that at this 
point.
    Mr. Markey. Please report to the committee.
    The AAAS analysis released today indicates that by taking 
some relatively straightforward and short-term engineering 
measures, such as better shielding of the detector, it would 
help improve the ability of the monitors to detect highly 
enriched uranium. Do you plan to examine and implement those 
recommendations?
    Mr. Oxford. We will look at that, along with the 
practicality of doing that versus deploying the new systems. We 
may not want to pay for two different approaches. So as we come 
out of the test bed this August and September we will make some 
determinations as to whether that is more prudent or fielding 
the new systems would be more practical.
    Mr. Markey. In your testimony, you discuss the use of 
radiography machines that would be able to show an X-ray image 
of what was inside the containers at the same time as detecting 
whether anything in the container was radioactive. In this way, 
you could determine whether there was a shielded sample of 
highly enriched uranium in the container by looking at the X-
ray image, and you could also use an X-ray image of what was 
inside to eliminate concern associated with a shipment of 
bananas that caused the radiation detectors to go off.
    But this is nothing new. In fact, the company, AS&E, which 
has headquarters in Billerica, Massachusetts, has installed 
exactly this sort of system at the Port of Boston; and it is 
being used to simultaneously X-ray and detect radiation in 
every container leaving the port.
    If you think that is the way to proceed, why haven't you 
explored the commercially available options to do so?
    Mr. Oxford. First of all, Congressman, that is the first I 
have heard of that particular application. We went out with a 
competitive solicitation on the advanced radiography program. I 
am not sure if they proposed against that or not with our work. 
I will have to go back and look at that.
    Mr. Markey. It is already installed in the Port of Boston--
installed.
    Finally, in your testimony you also discuss active 
interrogation systems, which would certainly improve the 
ability to detect radiological materials. But don't these 
systems involve the use of neutrons that could harm the people 
located near the sample?
    Mr. Oxford. There are a variety of approaches being 
investigated. One is a neutron source and the other is a photon 
source. We are looking at that. There would have to be some 
operational protocols put into place that would limit the 
exposure of humans. But, again, we have to get through the 
technology development. That is a consideration, obviously.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Linder. Thank you all. We are sorry you had to be 
delayed, but from time to time we actually have to vote up 
here. You are excused. Thank you.
    The hearing is adjourned.
    [Whereupon, at 6:10 p.m., the joint meeting of the 
subcommittees was adjourned.]

                             For the Record

   Questions from the Honorable Norm Dicks, for Acting Director Vayl 
                            Oxford Responses

    You testified that ``the DNDO is currently investing substantial 
resources to the Advanced Spectroscopic Portal (ASP) program, which is 
focused on developing detectors which will be able to discriminate 
between naturally occurring radioactive materials and true threat 
materials,'' and that the new systems can distinguish among different 
radioactive materials. You also told the committee the ASP systems will 
be tested in August and September of this year, and that based on the 
results of these tests, a limited number of vendors will be selected to 
begin initial low-rate production of detection systems.
        <bullet> What is DNDO's assessment of the near-term 
        availability of ASP systems and components (for example sodium 
        iodide crystals)?
    Response: The relative simplicity of portal hardware design 
requires the need for only a small number of (mostly) readily available 
components. However, as your question highlights, there is a 
potentially significant production capacity issue for the thallium 
doped sodium iodide crystals proposed for use by seven of the ten 
vendors. Initial market surveys indicate that the currently available 
production capacity will support the production of 125-150 portals 
annually. The low-rate initial production (LRIP) that will begin in 
June 2006 will fall within the current capacity thresholds.

        <bullet> What are DNDO's plans for encouraging industry to 
        increase the availability of such systems and components?
    Response: The DNDO has proposed investing $20M over two years (FY 
2006 and FY 2007) to increase the industrial production capacity of 
sodium iodide crystals. The DNDO released a Request for Information 
(RFI) on May 12, 2005 ``to assess current manufacturing capacity and to 
solicit industrial mobilization recommendations and options from 
industry''. The DNDO intends to competitively award contracts in early 
FY 2006 to address the known sodium iodide crystal deficiency.

    <bullet> What role will risk and cost play in DNDO decisions to 
move to low-rate production of new detection technology?
    Response: As with all large acquisition programs, risk and cost 
will be large factors in any decision to proceed through the ASP 
acquisition cycle, even prior to and beyond LRIP. The ASP program has 
undergone Departmental review to ensure that the program addresses 
Department requirements and to validate the projected investments. In 
his Decision Memorandum approving ASP through LRIP, pending successful 
testing, Deputy Secretary Jackson stressed the need for a concise plan 
to mitigate cost, schedule, and performance risks. With regards to 
performance risk, in particular, the DNDO is engaging in a robust test 
and evaluation program, as was discussed in the testimony of June 21. 
The thorough understanding of systems performance determined through 
this testing will significantly decrease the performance risks 
associated with the program. Additionally, the LRIP process will allow 
for a comprehensive operational test and evaluation opportunity to 
further characterize system performance prior to a full-rate production 
award.

                                 <all>

</pre></body></html>
